<html>
<title> - REAUTHORIZATION OF THE COASTAL ZONE MANAGEMENT ACT</title>
<body><pre>[Senate Hearing 109-1100]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1100

                        REAUTHORIZATION OF THE 
                      COASTAL ZONE MANAGEMENT ACT

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 25, 2005

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>









                                  ______

                      U.S. GOVERNMENT PRINTING OFFICE
  63-243 PDF               WASHINGTON : 2011
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2a4d5a456a495f595e424f465a0449454704">[email&#160;protected]</a>  



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
                David Russell, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 25, 2005.....................................     1
Statement of Senator Lautenberg..................................    45
    Prepared statement...........................................    46
Statement of Senator Bill Nelson.................................     4
Statement of Senator Snowe.......................................     1
Statement of Senator Stevens.....................................     3

                               Witnesses

Chasis, Sarah, Director, Water and Coastal Program, Natural 
  Resources Defense Council......................................    47
    Prepared statement...........................................    48
Cooksey, Sarah W., Administrator, Delaware Coastal Programs; 
  Board Member and Former Chair, Coastal States Organization.....    15
    Governor and State letters from Texas, South Carolina, 
      Alabama, Virginia, and California recommending CZMA 
      reauthorization............................................    15
    Prepared statement...........................................    26
Cruickshank, Dr. Walter D., Deputy Director, Minerals Management 
  Service, Department of the Interior............................    10
    Prepared statement...........................................    12
Hudson, Jr., W. Donald, Ph.D., President, Chewonki Foundation; 
  Maine Governor Baldacci's Non-Governmental Appointee to the 
  Gulf of Maine Council on the Marine Environment; President, 
  U.S. Gulf of Maine Association; and Treasurer, National Marine 
  Educators Association..........................................    54
    Prepared statement...........................................    56
Fry, Tom, President, National Ocean Industries Association.......    50
    Prepared statement...........................................    52
Jeffress, Bill, Director, Office of Project Management and 
  Permitting, Alaska Department of Natural Resources.............    59
    Prepared statement...........................................    60
Kitsos, Thomas, Ph.D., Associate Deputy Assistant Administrator, 
  National Ocean Services, National Oceanic and Atmospheric 
  Administration (NOAA)..........................................     6
    Prepared statement...........................................     7

                                Appendix

Boxer, Hon. Barbara, U.S. Senator from California, prepared 
  statement......................................................    69
Letters to Hon. Ted Stevens, Hon. Daniel K. Inouye, Hon. Maria 
  Cantwell, and Hon Olympia J. Snowe from:
    W. Paul Farmer, Executive Director/CEO, American Planning 
      Association................................................    90
    Lynne Zeitlin Hale, Director, Global Marine Initiative, The 
      Nature Conservancy.........................................    88
    Marc J. Hershman, Professor of Marine Affairs, Adjunct 
      Professor of Law, University of Washington.................    89
National Estuarine Research Reserve Association (NERRA), prepared 
  statement......................................................    70
Response to written questions submitted by Hon. Frank R. 
  Lautenberg to:
    Sarah Chasis.................................................    87
    Sarah W. Cooksey.............................................    85
    Dr. Walter D. Cruickshank....................................    85
    Thomas Kitsos, Ph.D..........................................    83
Response to written questions submitted by Hon. Olympia J. Snowe 
  to:
    Sarah Chasis.................................................    79
    Sarah W. Cooksey.............................................    77
    Dr. Walter D. Cruickshank....................................    75
    W. Donald Hudson, Jr., Ph.D..................................    80
    Thomas Kitsos, Ph.D..........................................    74

 
                        REAUTHORIZATION OF THE 
                      COASTAL ZONE MANAGEMENT ACT

                              ----------                              


                        WEDNESDAY, MAY 25, 2005

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Olympia J. 
Snowe presiding.

          OPENING STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. The hearing will come to order. First of 
all, I want to thank Chairman Stevens for allowing me to chair 
this full Committee hearing today on the very important issue 
of reauthorizing the Coastal Zone Management Act. I certainly 
want to express my appreciation to you, Chairman Stevens, for 
putting this on the Committee's agenda so that it can move 
forward, and I truly appreciate that.
    I look forward to discussing a great challenge facing our 
Nation's coastal states, and that is the need to balance 
economic development and environmental protection. Together we 
can chart a course for better balancing and supporting these 
efforts through S. 360, the Coastal Zone Enhancement 
Reauthorization Act of 2005. I am proud to have introduced this 
legislation, which would strengthen the Act's State-Federal 
partnerships and funding programs to support our coastal 
communities. Many of my colleagues have been instrumental in 
collaborating with me on this particular language.
    I recognize the challenges facing our lands that border the 
oceans and Great Lakes. Even though coastal counties cover only 
17 percent of the United States, this area is home to more than 
50 percent of the Nation's population. Over 360 ports and 10 of 
our 15 largest cities are located on the seaboard. Moreover, 
the population growth rate will continue to climb in these 
areas as people are attracted by the vibrant mix of 
recreational amenities and economic opportunities. Over time, 
however, social and economic demands in these areas will strain 
coastal infrastructure, alter waterfront access, and increase 
the flow of pollution into our waters.
    But urban areas are not our only concern. Our coasts, a 
relatively small sliver of our country, also support diverse 
habitats and ecosystems that are vital to multibillion dollar 
commercial and recreational fisheries and other natural 
resources. Healthy fishing industries form the backbone of our 
coastal towns in many states across this country, including my 
home State of Maine, and recreational opportunities along our 
state's picturesque coastline draw increasing numbers of 
people, making tourism in our state the largest industry. We 
must ensure that coastal plans continue to take natural 
resource conservation into account.
    Since 1972 the Coastal Zone Management Act has enabled 
coastal states to manage and develop their environments and 
resources in a sound, sustainable manner. However, as noted in 
the U.S. Commission on Ocean Policy's final report, the 
increasing pressures facing our coastal regions continue to 
evolve in scope and complexity. For example, non-point source 
pollution has become the primary cause of nutrient loading, 
hypoxia, harmful algal blooms, and environmental toxins in 
coastal waters. Development and sprawl in the coastal zone 
compounds this problem and puts additional pressures on 
habitats and infrastructure.
    This hearing today is a critical step toward addressing 
these growing challenges. Today we will hear about ways to 
better support local coordination and planning efforts, fund 
essential new coastal research, and resolve funding disparities 
that currently exist under this Act. Yet most of the 
legislation does not need to be amended. The Act has 
established a remarkably successful State-Federal framework for 
coastal zone management, and we must ensure it continues to do 
so.
    For instance, 34 states volunteer to participate in the 
Act's program to develop coastal zone management plans custom-
tailored to their individual needs. Once a plan is Federally 
approved, matching funds are available to help each state 
implement its plan, and these states are able to review and 
approve any Federal action off their shores. This consistency 
requirement fosters much-needed collaboration between local, 
State, and Federal governments.
    My bill would uphold the grant programs and consistency 
rules of the original Act, but it also seeks to expand funding 
sources and community planning tools to meet emerging state 
needs. For example, it would increase the total funding 
authorization to $160 million in Fiscal Year 2006 and increase 
it to $175 million by 2010. It would also encourage, but not 
require, states to take additional steps to combat the problem 
of non-point source pollution and encourage local 
infrastructure and development planning through a new coastal 
community program. In Maine, non-point source pollution 
programs have been credited with reopening hundreds of acres of 
shellfish beds, a $16 million industry, and the recovery of 
fish nursery areas. However, NOAA's funding for non-point 
programs has declined dramatically, so we must renew our 
Federal commitment to addressing this national problem. Every 
coastal state could potentially benefit from the flexibility 
and funding of these programs.
    As we strive to support our states' coastal planning 
efforts, we must do so equitably. To this end, my bill will fix 
a problem with the funding structure of the coastal zone 
management program. Each state's funding level has been 
determined by a formula based on the length of coastline and 
population. In 1992 this level was capped at $2 million in an 
attempt to ensure equal treatment of states. A growing number 
of the states have reached this cap in the last 13 years. The 
result is that the 13 states accounting for 83 percent of our 
coastline and 76 percent of our coastal population are trapped 
under this cap.
    The coastal management programs of these states are 
stagnating while their needs are ever-increasing. My colleagues 
and I are developing language in this bill for removing this 
cap while assuring that smaller states receive funding at 
equitable levels.
    Finally, as we work to reauthorize the Act, our overarching 
goals must be to uphold and strengthen the provisions that 
empower states to control activities affecting their coasts. 
Each state has a unique social and economic situation, and 
ultimately each state, not a Federal agency, needs to control 
the future direction of its coast. There is no better way to 
assure this is done than through the collaboration and funding 
frameworks of the Act.
    I look forward to hearing from our distinguished panelists 
today as we work to build on this success. For our first panel 
I would like to welcome Dr. Thomas Kitsos, Associate Deputy 
Assistant Administrator of NOAA's National Ocean Service; Dr. 
Walter Cruickshank, who is the Deputy Director of the Interior 
Minerals Management Service; and Ms. Sarah Cooksey, who is a 
board member and former chair of the Coastal States 
Organization.
    On our second panel we will hear from Ms. Sarah Chasis, 
Director of the Natural Resources Defense Council's Water and 
Coastal Program; Tom Fry, President of the National Ocean 
Industries Association; and from Alaska we have Mr. Bill 
Jeffress, Director of the Office of Program Management and 
Permitting in the Alaska Department of Natural Resources. 
Finally, from my home State of Maine, I extend a warm welcome 
to Dr. Don Hudson, Chair-elect of the Gulf of Maine Council on 
the Marine Environment.
    Chairman Stevens.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Thank you very much, Senator Snowe. I am 
delighted you introduced this bill and happy to work with you 
on it. I want to make a few points before we start.
    The Coastal Zone Management Act has been unauthorized since 
1999. Those of us on the Appropriations Committee have kept it 
funded since that time. I had a conversation with a gentleman 
from the Department of Commerce who pointed out to me that this 
and other programs are unfunded, and there are some activities 
involved in the programs where there are potential penalties 
that may well be unenforceable unless we have reauthorization 
of this act and these other acts that have been held up.
    This is a very serious thing for us. The four bills we have 
sent to the floor so far have all been held up because of 
increased authorizations in the bills. This bill that you have 
proposed, and I think the proposal is reasonable, will probably 
face the same problem unless we can get an agreement on how far 
the authorized levels should be increased by this bill.
    The enacted level of these grants has actually varied in 
the last few years, but they have hovered right around--it 
started off $69 million in 2002 and it is down to $63.9 million 
in the request for this year and $66 million was actually 
provided last year. It shows that without an authorized level 
the amount varies from year to year. So I think we must get 
together on that point.
    Second, I note that there is a provision, a sense of 
Congress, to reevaluate the calculation of shoreline mileage. 
As I am sure that Mr. Jeffress will point out, the Alaska 
Department of Natural Resources has recalculated the entire 
tidal shoreline as defined in this bill, which includes the 
outer coast, offshore islands, sounds, bays, rivers, creeks to 
the head of tidewater or to where tidewater is narrowed to the 
width of 100 feet. In doing so, the new calculation for 
Alaska's tideline is 44,500 miles, greater than all of the 
entire continental United States.
    Of that amount, less than 1 percent is developed. That is 
the reason we have asked Mr. Jeffress to come down and testify 
today concerning what is done in Alaska. We have a unique 
coastal area and it is obvious that to compare this--to put the 
same provisions applicable to our coastline of 44,500 miles to 
the same tests that are provided in the other states--for 
instance, we have a population of 16 people per mile along the 
coastline. California's population is 442 times that. There is 
no question that the population along the coastline should be 
one of the criteria in considering the application of this act. 
So we will look forward to this hearing and to the comments 
that are made by the witnesses.
    Thank you very much.
    Senator Snowe. I thank you, Mr. Chairman. I appreciate your 
comments on the issue of increased authorization levels. I 
think that is a point well taken, because obviously our first 
and foremost goal is to pass a reauthorization since that 
expired in 1999. That is a primary goal, and I appreciate your 
thoughts on it. We will work together on some of these issues 
to help give impetus to passing this legislation.
    Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Madam Chairman, thank you for having this 
hearing. Each of us Senators comes to the table with an 
interest to protect regarding our own states. The esteemed 
Chairman of the Commerce Committee clearly has his interest in 
the State of Alaska. You and I have our respective interests in 
two coastal states, yours of Maine, mine of Florida.
    I have more coastline in the State of Florida, by the way, 
than California, and that surprises people--by far. California 
has something like 800 miles. I have something like 1,500 
miles, only exceeded by Senator Stevens' state, which exceeds 
the coastline of Florida, but not in beaches. In the actual 
beaches, the State of Florida has a lot more beaches than any 
other state.
    The Chairman. Now, be careful, because the entire Arctic 
coast is beach.
    [Laughter.]
    Senator Nelson. I am talking about the kind of beach where 
people frolic in the surf.
    The Chairman. My friend, if some people are right about 
global climate change you better reserve your future, a piece 
for the future.
    [Laughter.]
    Senator Nelson. A place like Florida, global climate 
change, we will not have a state of Florida left; it will be 
all covered with water.
    Well, anyway, the point of all this is that this act has 
worked well, but it is now under attack. It is not under attack 
by this committee; it is under attack by the House and it is 
under attack tomorrow in the Senate Energy Committee. What we 
have is an attempt to weaken parts of this act, and the effect 
is to weaken a state's right to have meaningful input into what 
happens off of its shores.
    Even the National Governors Association has taken a strong 
stand on this. What you have is, Madam Chair, what you and I 
are going to face increasingly, are the attempts to drill for 
oil off of the coast. What the House bill has already done is 
it alters the appeal schedule for consistency appeals to the 
Secretary of Commerce and gives the Secretary of Interior new 
powers to grant easements and right of ways for oil and gas 
exploration outside of the Coastal Zone Management Act process.
    Now, tomorrow in the Senate Energy bill that is going to be 
marked up, what they are going to do is to draw--they are going 
to have an amendment, and I will identify the Senator who is 
going to offer it. It is Senator Landrieu. Senator Landrieu is 
my dear friend and I love her and the feeling is mutual, but on 
this issue she thinks that a coast is not a coast unless it has 
oil rigs off the coast.
    Of course, we not only have a $50 billion a year tourism 
industry that clearly depends on pristine sugary sand beaches, 
but we also have a fragile environmental situation and, 
interestingly for Senator Stevens, who is the chairman of 
Defense Appropriations, we have one of the unique assets in the 
world and it is called restricted air space. That is why so 
much of the military training is being done off of Florida's 
coast. I maintain that you cannot be dropping bombs on 
simulated targets underneath the restricted air space if you 
are going to have oil rigs down there.
    But anyway, tomorrow the Senate Energy Committee is going 
to consider an amendment that would allow the Department of 
Interior to draw lines delineating each state's waters in which 
they could very possibly start to delineate the waters of 
Louisiana and Alabama off the coast of Florida. I do not like 
it and if they do--and I hope we can defeat it--they will 
severely weaken the State of Florida's ability to have a say in 
the oil and gas activities off of its coast.
    So what I think we need to do is to realize that our 
coastal resources must be protected within reason and not 
exploited, and I thank you for the opportunity to share these 
thoughts.
    Senator Snowe. Thank you very much, Senator Nelson. I 
appreciate your comments in that regard. Obviously, we have a 
lot of challenges with the energy legislation being marked up, 
some of which conflicts with the essence of what the Coastal 
Zone Management Act is all about.
    Dr. Kitsos, welcome.

 STATEMENT OF THOMAS KITSOS, Ph.D., ASSOCIATE DEPUTY ASSISTANT 
  ADMINISTRATOR, NATIONAL OCEAN SERVICE, NATIONAL OCEANIC AND 
               ATMOSPHERIC ADMINISTRATION (NOAA)

    Dr. Kitsos. Good morning, Madam Chairwoman. My name is Tom 
Kitsos. I am with NOAA. I am here representing the position of 
the Department of Commerce and NOAA on your legislation. I 
would like to note that last week I had the pleasure of being 
in your state in Portland for a meeting of the Marine Protected 
Area Advisory Committee and I had a chance to go to the 
Portland Fish Auction, which is an experience I think everybody 
should have, and we certainly understand why coastal zone 
management (CZM) is so important to your home state.
    I would like to thank you for the opportunity to testify on 
Senate Bill 360 and we appreciate your efforts, Senator Snowe, 
and the efforts of Senator Stevens and Senator Nelson in 
support of ocean policy generally and in support of this bill. 
The Coastal Zone Management Act (CZMA) recognizes and balances 
national objectives in development and conservation of coastal 
ocean areas with the historical interest and role of the states 
in governing near-shore development and land use.
    In response to the report of the U.S. Commission on Ocean 
Policy, the President's U.S. Ocean Action Plan supports 
reauthorization of the CZMA and outlines many other critical 
actions to be implemented in cooperation with the coastal 
states. The national and state coastal management programs and 
partnerships established by the CZMA provide excellent 
mechanisms for carrying out many of the commission's 
recommendations and the President's Ocean Action Plan. State 
participation in the CZM is voluntary. As you noted, Senator 
Snowe, 34 of the 35 eligible coastal states are implementing 
approved programs and the 35th, the State of Illinois, is 
currently developing a program for approval.
    The CZMA's Federal consistency provisions provide states a 
unique tool to meet their coastal objectives while ensuring a 
coordinated national approach to coastal management. States 
have worked closely with applicants to ensure projects are 
consistent with their enforceable policies. States have 
concurred with about 95 percent of the projects they have 
reviewed under these provisions.
    NOAA recently completed a series of regional Federal 
consistency workshops that have helped State and Federal 
agencies to better collaborate on CZM consistency requirements 
and improve the efficiency of the process.
    The CZMA's National Estuarine Research Reserve System 
complements the state coastal zone management programs. The 26 
Federally designated National Estuarine Research Reserves 
protect more than one million acres of estuarine lands and 
waters. The reserves support important research, monitoring, 
education, and stewardship activities within coastal watersheds 
in support of coastal management. The reserve systemwide 
monitoring program includes 104 water quality monitoring 
stations and 26 weather stations. The system provides important 
environmental data in support of the Integrated Ocean Observing 
System called for in the President's U.S. Ocean Action Plan.
    Senator Snowe, the CZMA benefits the Nation in many 
different ways. The reserves provide long-term protection and 
advance our understanding of sensitive estuarine habitats. In 
Fiscal Year 2002 and 2003 the reserve system, working through 
state partners, acquired more than 13,500 acres of valuable 
habitat for research, education, and stewardship purposes. 
Coastal states and territories continue to protect and restore 
coastal waters from the harmful effects of polluted runoff.
    Section 306A of the CZMA, the coastal resources improvement 
program, helps states to support local projects, including 
providing public access to beaches and waterfronts. In 2002 and 
2003, states matched about $7.5 million in Federal funds to 
develop 163 access projects in 17 states. The risk of dramatic 
loss of life and property from storms and other coastal hazards 
is increasing daily as coastal development and population 
continues to surge. North Carolina in cooperation with NOAA's 
Coastal Services Center has developed a geographic information 
system to help visualize the impacts of flood forecasts, 
helping citizens better understand the ramifications of 
impending storm events.
    State coastal zone management programs promote more livable 
communities by providing technical and management assistance to 
local governments on waterfront revitalization, coastal 
brownfields cleanup, and restoration of degraded resources.
    The Administration supports CZMA reauthorization. Senate 
Bill 360 proposes new methods for addressing the ever-
increasing pressures on the coastal zone. It would allow 
section 306 funding to be used for coastal non-point pollution 
control programs and state-specific emerging issues. It creates 
a new coastal community grants program to help assess and 
manage growth, public infrastructure, and open space needs. 
These provisions could provide communities greater flexibility 
to mitigate population growth, revitalize urban waterfronts and 
economies, increase public access, reduce coastal hazard 
threats, and protect important habitats.
    In closing, the reauthorization of the CZMA offers an 
excellent opportunity to renew the Federal commitment to 
enhancing and restoring America's coastal resources. I look 
forward, NOAA looks forward, to working with you, Senator 
Snowe, Senator Stevens, and Senator Nelson, on reauthorizing 
this important program and at an appropriate time I would be 
happy to answer any questions.
    And I ask that my official statement be included in the 
record.
    Senator Snowe. Without objection, so ordered; for all of 
the panelists as well.
    Thank you, Dr. Kitsos.
    [The prepared statement of Dr. Kitsos follows:]

Prepared Statement of Thomas Kitsos, Ph.D., Associate Deputy Assistant 
      Administrator, National Ocean Service, National Oceanic and 
                   Atmospheric Administration (NOAA)
Introduction
    Good afternoon, Mr. Chairman and members of the Committee. I am Tom 
Kitsos, Associate Deputy Assistant Administrator for Ocean Services and 
Coastal Zone Management for the National Oceanic and Atmospheric 
Administration (NOAA). Thank you for this opportunity to testify on S. 
360, a bill to reauthorize and amend the Coastal Zone Management Act 
(CZMA). In general, the Administration supports CZMA reauthorization 
and this legislation. We appreciate the efforts of Senator Snowe in 
sponsoring this bill and for supporting this program, which has served 
as a cornerstone for national coastal policy for more than 30 years.
    The Coastal Zone Management Act of 1972 created an innovative 
intergovernmental program that has been of great benefit to the Nation, 
the states, and the public. The CZMA recognizes and balances national 
objectives in development and conservation of coastal and ocean areas 
with the historical interest and role of the states in governing near 
shore development and land use. Under Federally approved coastal 
management programs states are provided incentives and assistance to 
coordinate their environmental, resource management and development 
programs and objectives to promote sustainable coastal development and 
long-term conservation. Under the CZMA's estuarine research reserve 
program, states--often in partnership with academia and Federal 
agencies--implement research and education programs to better 
understand complex coastal processes.
    My testimony will focus on the success of the CZMA and the 
importance of reauthorization of CZMA through S. 360.
The Success of the CZMA
    For the past 33 years, the Federal Government, states, and local 
governments have worked under the unique partnership created by the 
CZMA to ``preserve, protect, develop, and where possible, to restore or 
enhance the resources of the Nation's coastal zone for the present and 
future generations.''
    In response to the report of the U.S. Commission on Ocean Policy, 
the President's U.S. Ocean Action Plan highlighted the importance of 
ongoing and renewed efforts to ``assist State, Tribal, and local 
stakeholders to develop comprehensive strategies to protect the 
Nation's coastal resources.'' The U.S. Ocean Action Plan specifically 
supports reauthorization of the CZMA and outlines many other critical 
actions to be implemented in partnership with the coastal states, some 
in conjunction with state coastal management and estuarine reserve 
programs. To this end, we are currently working with EPA and the states 
to conduct a series of community workshops to improve coastal watershed 
protection, as well as working with the State of Illinois to complete 
the voluntary state participation in the CZM system.
    Coastal estuaries are among the most biologically productive 
regions in the Nation. The states' Coastal Management Programs and 
National Estuarine Research Reserves advance research, best management 
practices, and the development of infrastructure necessary to better 
understand and address the complex relationships between people and the 
coast. This understanding comes not only from CZMA-supported research 
into the natural functions of our coastal areas, but also into man's 
impact upon them, all in an effort to sustain the long-term economic 
and ecological viability of irreplaceable coastal resources to support 
an ecosystem approach to management. State programs address a wide 
range of national objectives, including:

  <bullet> Maintaining and restoring the natural beach and dune systems 
        for protection from erosion and storms,

  <bullet> Providing for appropriate coastal development,

  <bullet> Protecting and restoring ecologically important coastal 
        habitats,

  <bullet> Controlling nonpoint source pollution,

  <bullet> Improving public access and recreational opportunities in 
        coastal areas,

  <bullet> Enhancing public awareness through education and outreach, 
        and

  <bullet> Revitalizing local waterfronts.

Coastal Zone Management Program
    Thirty-four of the thirty-five eligible coastal states, 
Commonwealths, and Territories are implementing Federally approved 
coastal management plans. As recommended in the U.S. Ocean Action Plan, 
NOAA is working with the final eligible coastal state, Illinois, to 
approve its coastal management program. Through the CZMA, NOAA provides 
funding for developing and implementing the plans, and provides 
technical assistance on best practices for addressing important coastal 
management issues. Funding for the CZM program is allocated to eligible 
coastal states based on shoreline mileage and coastal population. We 
appreciate efforts to ensure funding increases can be distributed 
equitably among all state programs. This funding is required to be 
matched on a dollar for dollar basis, yet many states far exceed this 
match requirement and are able to leverage additional state resources 
using CZMA dollars. For example, the Maine Coastal Program has been 
successful in matching state dollars to Federal dollars at a ratio of 
more than 5:1; in past years this ratio has been as high as 11:1.
    The CZMA's Federal consistency provisions provide a unique tool to 
meet state coastal objectives, while ensuring a coordinated national 
approach to coastal management. The consistency provisions apply to 
Federal agencies, as well as individuals and groups applying for 
Federal permits and funding. The consistency provisions require any 
proposed activities that have reasonably foreseeable effects on any 
land, water use or natural resource of the coastal zone to be 
consistent with the enforceable components of Federally-approved State 
Coastal Management Programs. States have concurred with about 95 
percent of the projects they have reviewed under these provisions. NOAA 
recently completed a series of regional Federal consistency workshops 
that have helped State and Federal agencies to better coordinate and 
collaborate on CZMA consistency requirements and improve the efficiency 
of the process.
National Estuary Research Reserve Program
    Critical, long-term research takes place at the twenty-six 
Federally designated National Estuarine Research Reserves (Reserves) in 
twenty-one coastal states and Commonwealths. Texas currently is 
pursuing designation of an additional site. Connecticut and Wisconsin 
have expressed interest in designation of new Reserves. The Reserves 
play an important role in meeting the U.S. Ocean Action Plan's goal to 
``expand our scientific knowledge of oceans, coasts and Great Lakes.''
    Reserves currently protect over one million acres of estuarine 
lands and waters, and Reserve programs conduct important research, 
monitoring, education and stewardship activities within coastal 
watersheds. The Reserve system has developed system-wide efforts and 
standards to ensure data compatibility and consistent methodologies are 
used at all sites. The Reserve's System-Wide Monitoring Program 
includes 104 water-quality monitoring stations and 26 weather stations. 
The system provides important environmental data in support of the 
national backbone of the Integrated Ocean Observing System supported in 
the U.S. Ocean Action Plan. The Reserve system also supports a 
fellowship program, training up to 52 graduate students each year in 
estuarine science. This fellowship program not only facilitates 
important research, but also encourages the development of young 
scientists to sustain the science workforce to meet the Nation's needs.
    Coastal Management and Reserve outreach programs educate thousands 
of local citizens, teachers, students, and policy-makers on the 
important connections between people, the land, and the sea, supporting 
sustainable and ecosystem-based approaches to coastal resource 
management. The Reserve coastal training program reaches hundreds of 
coastal decision makers each year, providing them with information to 
improve management of our fragile coastal resources.
The CZMA Benefits the Nation
    State coastal management programs and the network of Reserves 
enhance the vitality of our coastal economies and the protection and 
sustainability of important coastal resources and habitats.
    Habitat Conservation--The Reserves provide long-term protection and 
advance our understanding of sensitive estuarine habitats. In FY 2002-
2003, the Reserve system, working through state partners, acquired more 
than 13,500 acres of valuable habitat for research, education and 
stewardship purposes.
    Coastal Nonpoint Source Pollution Control--Coastal states and 
Territories continue to protect and restore coastal waters from the 
harmful effects of polluted runoff. Recently, Wisconsin passed the 
nation's most comprehensive nonpoint source regulations. These rules 
outline performance standards for various sources of polluted runoff 
ranging from agriculture to urban stormwater; identify appropriate best 
management practices for runoff control; and enhance existing cost-
sharing programs.
    Public Access--Section 306A of the CZMA, the Coastal Resource 
Improvement Program, is an important mechanism for many states to 
support local projects, including providing access to beaches and 
waterfronts. In 2002-2003, states matched about $7.5 million in Federal 
funds to develop 163 access projects in 17 states. For example, the 
Port of Houston Authority, working with the Texas coastal management 
program, developed the Atkinson Island Interpretive Canoe Trail. The 
Reserves are also involved in projects to enhance public access. The 
Grand Bay Reserve in Mississippi is improving and expanding facilities 
at its two public boat ramps. The Rookery Bay Reserve in Florida has 
developed public parking, a boat launch and a 2.5-mile boardwalk at 
Tarpon Bay.
    Coastal Hazards--The risk of dramatic loss of life and property 
from storms and other coastal hazards is increasing daily as coastal 
development and population continues to surge. Oregon coastal managers 
developed the Oregon Coastal Atlas to improve and streamline hazard-
related decision making related to tsunami inundation and landslides. 
The Oregon Coastal Management Program is also working with the NOAA 
Coastal Services Center to develop a coastal erosion forecast tool for 
the Atlas. North Carolina, also in cooperation with the NOAA Coastal 
Services Center, has developed a tool to help visualize flood 
forecasts. Implemented during Hurricane Isabel, this geographic 
information system (GIS) helps citizens better understand the likely 
impacts of impending storm events.
    Coastal Community Development--State coastal management programs 
promote more livable communities by providing technical and management 
assistance to local governments. The Washington Coastal Management 
Program and Padilla Bay National Estuarine Research Reserve utilized 
the Reserve's Coastal Training Program to educate local planners on how 
development impacts natural shoreline processes. The CZMA also serves 
as a conduit for delivery of many NOAA products and services that help 
state and local governments as they prepare and implement plans to 
revitalize waterfronts, cleanup coastal brownfields, and restore 
degraded coastal resources.
    CZM Performance Measures--NOAA is conducting an on-going effort to 
develop and evaluate performance measures to better gauge the successes 
of state coastal management programs and the Reserves. NOAA has 
developed this performance measurement system over the past four years, 
in partnership with the states. This information, in combination with 
the results of periodic programmatic evaluations required by the CZMA, 
can be used to determine the true state of our coasts and the programs 
that manage them.
Importance of S. 360
    The CZMA has provided numerous benefits to states and to the 
citizens living, working, and recreating in our coastal communities. 
Because of its emphasis on cooperation and coordination, the CZMA has 
enjoyed widespread support from Congress, states, local governments, 
interest groups, and the public. The Administration supports CZMA 
reauthorization and appreciates the efforts of Senator Snowe and 
Senator Kerry, in introducing S. 360.
    S. 360 proposes new methods for addressing the ever-increasing 
pressures on the coastal zone. This legislation would add two new 
categories to Section 309, Coastal Zone Enhancement Grants. These new 
categories would allow funding to be used for coastal nonpoint 
pollution control programs and state-specific emerging issues. 
Secondly, it proposes a new Coastal Community Grants program to help 
assess and manage growth, public infrastructure, and open space needs. 
This program would provide for management-oriented research and 
technical assistance through the existing state coastal management 
programs and estuarine reserves. Through amendments such as these, the 
CZMA could provide communities with greater flexibility to mitigate 
population growth, revitalize urban waterfronts and water-dependent 
economies, provide for increased public access, conserve and restore 
important coastal habitats, and further reduce the threat to lives and 
property associated with coastal storms.
    S. 360 could be strengthened by ensuring Section 17, Authorization 
for Appropriations, is consistent with the President's Budget Request.
Conclusion
    In closing, the CZMA is a vital tool for coordinating and 
integrating local, state and Federal policies and programs affecting 
the coast and for building a national cooperative effort to protect 
resources, provide access and mitigate risk, while supporting coastal-
dependent development. The reauthorization of the CZMA offers an 
excellent opportunity to renew the Federal commitment to enhancing and 
restoring America's coastal resources. The amendments offered in S. 360 
would improve an already effective partnership between the Federal 
Government, the state coastal management programs, and National 
Estuarine Research Reserves. The proposed Coastal Communities Program 
would help encourage new and innovative methods for addressing many of 
the problems faced by the coastal states and communities. Thank you for 
the opportunity to appear before you today. I look forward to working 
with you on reauthorizing this important program.
    I will be glad to answer any questions.

    Senator Snowe. Dr. Cruickshank.

            STATEMENT OF DR. WALTER D. CRUICKSHANK,

         DEPUTY DIRECTOR, MINERALS MANAGEMENT SERVICE,

                   DEPARTMENT OF THE INTERIOR

    Dr. Cruickshank. Good morning, Madam Chairwoman and Members 
of the Committee. Thank you for the opportunity to testify on 
the Coastal Zone Management Act (CZMA) and its relationship to 
the Department of the Interior's outer continental shelf 
program. The Department of the Interior and the Department of 
Commerce have worked diligently to communicate and comprehend 
each other's concerns over the Federal consistency program and 
how the existing Federal regulatory regime manages offshore and 
coastal activities. Secretary Norton places special 
significance on the requirement that all OCS program decisions 
carefully evaluate and be responsive to the laws, goals, and 
policies of affected states.
    As my colleague from NOAA has indicated, the Administration 
supports reauthorization of the Coastal Zone Management Act, 
and I defer to his testimony for specific comments on S. 360.
    I will discuss the Minerals Management Service's role in 
the management and stewardship of Federal offshore lands and 
the importance of the Coastal Zone Management Act and the 
continued success of the Nation's energy and mineral 
development program on the OCS. The Federal offshore plays a 
vital role in our Nation's energy future. Energy use sustains 
our economy and our quality of life. But high prices and 
increasing dependence on foreign sources raise important 
national policy issues.
    The OCS is a major supplier of oil and natural gas for the 
domestic market, contributing more oil and natural gas to the 
U.S. economy than any single state or country in the world. 
Currently the OCS accounts for over 30 percent of the oil 
produced in this country and 23 percent of our natural gas. 
Within the next 5 years, offshore production will likely 
account for more than 40 percent and 26 percent respectively of 
those two commodities, primarily owing to deep water 
discoveries in the Gulf of Mexico.
    As the Department of Interior's offshore resource 
management agency, the MMS has a focused and well established 
mandate, to balance the exploration and development of oil, 
gas, and mineral resources of the OCS with environmental 
protection and safety. MMS has worked diligently to create a 
framework for overseeing OCS activities. Our management 
principles include conservation of resources by providing for 
their most efficient use, assurance of a fair and equitable 
return to the public, protection of the human, marine, and 
coastal environments, involvement of interested and affected 
parties in planning and decisionmaking, and minimizing 
conflicts between mineral activities and other uses of the OCS.
    The U.S. Commission on Ocean Policy in its report said that 
``the scope and comprehensiveness of the OCS oil and gas 
program can be a model for the management of a wide variety of 
offshore activities.''
    In his national energy policy, the President directed the 
Secretaries of Interior and Commerce to determine if changes to 
the regulatory regime were needed to promote energy-related 
projects in the coastal zone and on the OCS. As a result of our 
joint effort, in June 2003 NOAA published a proposed rule to 
address energy-related consistency issues. The proposed rule 
would establish a straightforward consistency review process 
with clear information requirements and predictable review and 
decision time frames, eliminate conflicts between the existing 
CZMA rules and the requirements of the OCS Lands Act, and 
maintain the states' ability to review Federal actions which 
have reasonably foreseeable effects on land, water, and natural 
resources of the coastal zone.
    In addition, MMS has taken proactive steps to enhance the 
integration of CZMA with our offshore program. A particular 
example is in our Gulf of Mexico region, where we have been 
working to improve our coordination with all of the Gulf 
States. We have streamlined the lease sale consistency review 
process through an approach agreed to by all of the states. We 
have entered agreements with each of the Gulf States on 
specific information that would satisfy state consistency 
requirements. And we have an expedited consistency review 
process for about three-quarters of all Gulf plans through the 
use of concurrence agreements, again with each of the Gulf 
States.
    In addition, we have a very good working relationship with 
Alaska's Office of Program Management and Permitting and we 
look forward to contributing to their efforts as they proceed 
with their coastal zone management program.
    In conclusion, I would like to note that both OCSLA and the 
Coastal Zone Management Act explicitly provide states a 
critical role in shaping national policy regarding the 
development of OCS resources for the Nation's benefit. In its 
declaration of policy for the OCS, Congress said that states 
and affected local governments are entitled to an opportunity 
to participate in the policy and planning decisions made by the 
Federal Government related to the exploration for and 
development of minerals on the OCS. The Department of Interior 
and the Minerals Management Service are firmly committed to the 
consultative responsibility that this entails.
    This concludes my remarks and I would be pleased to answer 
any questions from members of the Committee.
    [The prepared statement of Dr. Cruickshank follows:]

   Prepared Statement of Dr. Walter D. Cruickshank, Deputy Director, 
        Minerals Management Service, Department of the Interior
    Mr. Chairman and members of the Committee, it is a great pleasure 
for me to be here to discuss the reauthorization of the Coastal Zone 
Management Act (CZMA) in the context of the Department of the 
Interior's Outer Continental Shelf (OCS) Program. The partnership 
forged between the Department of the Interior and the Department of 
Commerce on coastal zone management is consistent with the Secretary's 
Four C's--``communication, consultation, and cooperation, all in the 
service of conservation.'' Over the past several years, the Department 
of the Interior and the Department of Commerce have worked diligently 
on communicating and comprehending each others' concerns over Federal 
consistency and how the existing Federal regulatory regime manages 
offshore and coastal activities. We have consulted cooperatively and 
produced a mutually-agreeable proposal that addresses our Nation's 
needs for siting energy facilities that affect the coastal zone while 
balancing conservation, protection, and beneficial use of our 
invaluable coastal resources. In addition, Secretary Norton has placed 
special significance on the requirement that all OCS program decisions 
must carefully evaluate and be responsive to the laws, goals, and 
policies of the affected states.
    The Administration supports the reauthorization of the Coastal Zone 
Management Act. This hearing is looking at S. 360, the Coastal Zone 
Enhancement Reauthorization Act of 2005, which I defer to my esteemed 
colleague from NOAA to present the Administration's comments on the 
bill.
    Today I am here to discuss the Minerals Management Service's (MMS) 
role in the management and stewardship of Federal offshore lands and 
the importance of the CZMA in the continued success of the Nation's 
energy and mineral development program in the Federal OCS. We recognize 
that other agencies issue authorizations for the construction and 
operation of energy-related facilities (such as natural gas pipelines 
and liquefied natural gas terminals) which are subject to CZMA; my 
testimony will not address the roles of those agencies. The Federal 
offshore plays a vital role with respect to our Nation's energy future.
    America faces an energy challenge. Energy use sustains our economy 
and our quality of life, but high prices and increasing dependence on 
foreign energy supplies raise important national policy issues. There 
is no one single or short term solution. Achieving the goal of secure, 
affordable and environmentally sound energy will require diligent, 
concerted efforts on many fronts on both the supply and demand sides of 
the energy equation.
    President Bush's National Energy Policy (NEP) report laid out a 
comprehensive, long-term energy strategy for securing America's energy 
future. That strategy recognizes that to reduce our rising dependence 
on foreign energy supplies, we must increase domestic production, while 
pursuing energy conservation and the use of alternative and renewable 
energy sources.
    The OCS Lands Act directs the Secretary of the Interior to make 
resources available to meet the nation's energy needs. The accompanying 
Congressional Declaration of Policy states, ``The OCS is a vital 
national resource reserve held by the Federal Government for the 
public, which should be made available for expeditious and orderly 
development.'' As the Department of the Interior's offshore resource 
management agency, the MMS has a focused and well established ocean 
mandate--to balance the exploration and development of oil, gas, and 
mineral resources of the OCS with safety and protection of the marine 
and coastal environment.
    The Federal OCS is a major supplier of oil and natural gas for the 
domestic market, contributing more oil and natural gas for U.S. 
consumption than any single state or country in the world. As steward 
of the mineral resources on the 1.76 billion acres of the Nation's OCS, 
MMS has, since 1982, managed OCS production of 9.6 trillion barrels of 
oil and more than 109 trillion cubic feet of natural gas for U.S. 
consumption.
    Today, MMS administers approximately 8,200 leases and oversees 
approximately 4,000 facilities on the OCS. OCS production accounts for 
over 30 percent of the Nation's domestic oil production and 
approximately 23 percent of our domestic natural gas production. Within 
the next 5 years, offshore production will likely account for more than 
40 percent of oil and 26 percent of U.S. natural gas production, owing 
primarily to deep water discoveries.
    As the OCS resource management agency, MMS has worked diligently 
for over 20 years to create a framework for OCS mineral resource 
development. Principles guiding our management of the resources of the 
OCS include: conservation of resources by providing for their most 
efficient use; assurance of a fair and equitable return to the public 
for rights conveyed; protection of the human, marine, and coastal 
environments; involvement of interested and affected parties in 
planning and decision-making; and minimization of conflicts between 
mineral activities and other uses of the OCS. MMS also has over two 
decades of experience working with coastal states regarding coastal 
zone issues related to development on the OCS. The U.S. Commission on 
Ocean Policy in its report, ``An Ocean Blueprint for the 21st 
Century,'' stated, ``the scope and comprehensiveness of the OCS oil and 
gas program can be a model for the management of a wide variety of 
offshore activities.''
    In the NEP, the President directed the Secretaries of the Interior 
and Commerce to determine if changes to the Federal regulatory regime 
were needed to facilitate energy-related projects in the coastal zone 
and on the OCS. Secretary Norton and then-Secretary Evans convened a 
``Coastal Zone Management Act Team'' to develop a proposed rule 
addressing questions raised in NOAA's July 2002 Advanced Notice of 
Proposed Rulemaking (ANPR), and to establish an effective partnership 
for consistency issues. I am pleased to report that this effort has led 
to a much improved proposed rule.
    Using the July 2002 ANPR as the starting point, the team engaged in 
an intensive effort to fulfill the Secretaries' goals in a manner that 
reflected the interests and concerns of our various stakeholders. As a 
result of our joint effort, in June 2003, NOAA published a proposed 
rule that better addressed energy-related consistency issues while 
ensuring protection of the Nation's coastal resources. The proposal 
would:

  <bullet> Establish a straightforward consistency review process with 
        clear information requirements.

  <bullet> Provide a predictable consistency review process so that 
        states, Federal agencies, and applicants know which activities 
        are covered, when consistency reviews will begin, and when 
        decisions will be made.

  <bullet> Clarify what information is required for consistency review 
        purposes.

  <bullet> Eliminate conflict and confusion between the statutory 
        requirements of the CZMA and OCS Lands Act, and most 
        importantly,

  <bullet> Maintain the states' ability to review those Federal actions 
        which have reasonably foreseeable effects on any land, water 
        use or natural resources of their coastal zone as provided for 
        in the CZMA.

    When promulgated as a final rule, the changes will improve the 
effectiveness of the Federal consistency process while preserving the 
proper balance between state and Federal management of coastal 
resources.
    We have also been working with NOAA to achieve prompt and efficient 
consultations under the Endangered Species Act and rulemakings under 
the Marine Mammal Protection Act.
    Now I'd like to talk about other proactive steps MMS is taking to 
ensure integration of CZMA into our offshore management program.
    The MMS has developed a CZM strategy in the Gulf of Mexico with the 
primary goals of:

  <bullet> Providing a more efficient process for state consistency 
        review of MMS OCS lease sale and permitted activities.

  <bullet> Standardizing information required of industry based on 
        actual authorized CZMA requirements.

  <bullet> Managing the CZM Federal consistency review timeframes more 
        effectively.

  <bullet> Improving MMS/Gulf State relationships.

    I am happy to say this initiative has been extremely successful. We 
have:

  <bullet> Streamlined the lease sale consistency review process 
        through a tiered Consistency Determination document approach 
        agreed to by all Gulf States.

  <bullet> Written agreements with all Gulf States on specific 
        information that would satisfy state consistency requirements, 
        thereby eliminating the need for an additional 30-day time 
        frame allowed under the January 2001 regulations for the 
        states' decision on adequate information to begin consistency 
        review.

  <bullet> Eliminated broad descriptive information previously required 
        in industry submittals.

  <bullet> Standardized and updated information required by industry 
        via several Notices to Lessees and Operators.

  <bullet> Expedited consistency review of 75 to 80 percent of all Gulf 
        plans submitted through the use of concurrence agreements with 
        the Gulf States.

  <bullet> Significantly improved MMS/Gulf State Coordination.

    Alaska is in the process of revising its CZM plan. In Alaska, there 
is an interest in subsistence fishing and hunting, which is the 
cultural heart and soul of rural Alaska. The need to protect fish and 
wildlife and their use for future generations is important in Alaska, 
as is the desire to encourage wise, sustainable development.
    Alaska has an outstanding record of balancing these competing 
interests. For MMS, the issue here will be OCS leasing off the northern 
coast of Alaska and ensuring that subsistence resources remain at 
levels adequate to meet community needs. The MMS and Alaska's 
coordinating agency, the Office of Permitting and Project Management 
(OPMP), enjoy an excellent working relationship. Alaska is presently 
reworking its CZM program and MMS is ready to contribute as they 
progress in their efforts.
Conclusion
    OCSLA and CZMA explicitly provide states a critical role in shaping 
national policy regarding the development of OCS resources for the 
Nation's benefit. The Congressional Declaration of Policy for OCSLA 
prescribes, ``States, and through such States, affected local 
governments, are entitled to an opportunity to participate, to the 
extent consistent with the national interest, in the policy and 
planning decisions made by the Federal Government relating to the 
exploration for, and development and production of, minerals of the 
OCS.'' The Department is firmly committed to the consultative 
responsibility this entails.
    Building on our successful partnership, the Department of the 
Interior and the Department of Commerce will continue to work together 
to identify and resolve issues that could arise in the administration 
of both the CZMA and OCSLA to promote Congress' objectives in both 
statutes and the objectives of the President's National Energy Policy.
    Mr. Chairman, this concludes my prepared remarks however I would be 
pleased to answer questions from you or the Members of the Committee.

    Senator Snowe. Thank you, Dr. Cruickshank.
    Ms. Cooksey.

         STATEMENT OF SARAH W. COOKSEY, ADMINISTRATOR, 
   DELAWARE COASTAL PROGRAMS; BOARD MEMBER AND FORMER CHAIR, 
                  COASTAL STATES ORGANIZATION

    Ms. Cooksey. Good morning. Thank you, Chairman Stevens and 
Subcommittee Chairman Snowe and other Subcommittee Members, for 
the opportunity to testify. For the record, I have also 
attached a copy of the National Governors Association policy 
which calls for the reauthorization of CZMA.
    The benefits and challenges of coastal and ocean management 
are well documented in the Ocean Commission and other reports. 
So rather than reiterating them, I will focus specifically on 
Senate Bill 360, which recommends reauthorization. Additional 
details are included in my written remarks.
    As previous witnesses have described, CZMA is unique in 
linking Federal, state, and community-based coastal management 
efforts. It furthers national goals by supporting and 
identifying economic and environmental priorities and 
implementing local strategies. The testimony of Don Hudson from 
the Gulf of Maine is just one of the 34 state and territory 
coastal management success stories that could be told today if 
time allowed.
    Both the final report of the U.S. Ocean Commission and the 
President's U.S. Ocean Action Plan identified reauthorization 
of CZMA as a priority. The Ocean Commission specifically 
recommends the following to be included. Senate Bill 360 
addresses most of these:
    Strengthening the planning and coordination capability of 
coastal states to address coastal, watershed, and ocean 
planning;
    Increased Federal financial, technical, and institutional 
support for sustainable coastal and community development;
    Expand investment in the conservation and restoration of 
coastal habitats and support regional ecosystem management and 
improved science, resource assessment, and information to 
support decisionmaking based on science from coastal watersheds 
and oceans.
    Governor Ruth Ann Minner from Delaware, as well as many 
other Governors, specifically included a request for CZMA 
reauthorization in their recommendations to the Ocean 
Commission. I have and I would like to submit into the record 
Governor and State letters from the States of Texas, South 
Carolina, Alabama, Virginia, and California that also recommend 
reauthorization.
    Senator Snowe. Without objection, so ordered.
    [The information referred to follows:]

                        State of Texas General Land Office,
                                           Austin, TX, May 18, 2005
Hon. Olympia J. Snowe,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Senator Snowe:

    On behalf of the State of Texas, I urge the Senate to reauthorize 
the Coastal Zone Management Act (CZMA). I support the recommendations 
of the President's U.S. Ocean Action Plan and the U.S. Commission on 
Ocean Policy's Final Report that call for the reauthorization of the 
CZMA and highlighted its importance in ensuring economically vibrant 
and ecologically sustainable coastal and ocean resources.
    Texas has the third longest coastline in the Nation, covering 18 
coastal counties and including 400 miles of Gulf beaches and 3,300 
miles of bay shoreline. With this coastline, as well as millions of 
acres of submerged land in our coastal bays, the management of our 
waterways and coastal resources is critical. We face significant 
challenges along our coast that can have a negative impact on both the 
health and economic well being of this state and its citizens.
    Texas CZMA funds are crucial in addressing shoreline access, 
economic development of coastal areas, protection of wetlands, and 
reduction of pollutants carried into coastal waters from our rapidly 
expanding coastal urban areas.
    I understand that the Senate Commerce, Science, and Transportation 
Committee will begin consideration of CZMA reauthorization during a 
hearing on S. 360 (sponsored by Senators Olympia Snowe and John Kerry) 
that is scheduled for Wednesday, May 25.
    The following issues are of primary importance when considering 
reauthorization of the CZMA:
    1. Increase support for state and territorial coastal zone 
management programs through administration and implementation of grant 
programs and tools. These grant programs are critical to meeting the 
increased challenges along the Texas coast. The authorization of the 
Coastal Resource Improvement Program, under Section 306A, and Coastal 
Zone Enhancement Grants, under Section 309, are important to providing 
much needed assistance to local communities.
    2. Authorize a Coastal Community Restoration Program. By providing 
incentives to local government for actions that resolve important 
habitat protection conflicts, revitalize previously developed areas and 
coordinate conservation efforts Congress will enable state and local 
governments to better manage our nationally important coastal zones.
    3. Maintain existing Federal consistency provisions. The Federal-
state partnership established under the CZMA enables state review of 
Federal activities to ensure compliance with state plans. In Texas, 
Federal consistency has not limited reasonable activities and 
development of resources in the coastal zone. I would oppose any 
actions to weaken the CZMA requirements for coordination and 
consistency with state plans.
    I would like to work with you in the coming months on any necessary 
changes to S. 360 and to ensure its passage during this 109th Session 
of Congress. Thank you for taking up this important matter at this 
time.
        Sincerely,
                                           Jerry Patterson,
                                              Commissioner.
                                 ______
                                 
             State of South Carolina Office of the Governor
                                         Columbia, SC, May 18, 2005
Hon. Ted Stevens,
Chairman,

Hon. Daniel K. Inouye,
Ranking Member,

Hon. Olympia J. Snowe,

Hon. Maria Cantwell,

Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Senators,

    I would like to express my support for S. 360, the Coastal Zone 
Enhancement Reauthorization Act of 2005. We face significant challenges 
along our coast in terms of encouraging economic development while 
reconciling growth pressures with the unique natural value of our 
coast. Improved coastal management, as is proposed in S. 360, would 
greatly increase our capacity to address these critical coastal issues.
    In my June 4, 2004 letter to the U.S. Commission on Ocean Policy 
commenting on their Preliminary Report, one of the key recommendations 
I supported was reauthorization of the Coastal Zone Management Act. 
With the release of the final report last fall, Congress now has the 
opportunity to act on priority recommendations of the Commission, and I 
believe passage of S. 360 would be a significant step toward realizing 
these priorities.
    The following two issues are of primary importance to South 
Carolina when considering reauthorization of the Coastal Zone 
Management Act (CZMA):
    1. Maintenance of state's rights:

        The existing Federal consistency provisions should be retained 
        in their current form. The Federal-state partnership 
        established under the CZMA enables state review of Federal 
        activities to ensure compliance with state plans. In our state, 
        Federal consistency has not limited reasonable activities and 
        development of resources in the coastal zone. Provisions in 
        previous energy legislation have had the potential to erode 
        this important mechanism for considering state concerns. I 
        would urge you to oppose any effort to weaken the CZMA 
        requirements for coordination and consistency with state plans.

    2. Assistance for Coastal Communities:

        One of the most critical sections of S. 360 from South 
        Carolina's perspective is Section 11, Coastal Community 
        Program. We have several initiatives underway that this 
        legislation will complement, resulting in improved 
        conservation, infrastructure planning, growth and development 
        along our coast. By providing incentives to local government 
        for actions that resolve important habitat protection 
        conflicts, revitalize previously developed areas and coordinate 
        conservation efforts, Congress will enable state and local 
        governments to better manage our nationally important coastal 
        zones.

    Thank you for your consideration.
        Sincerely,
                                              Mark Sanford,
                                                          Governor.
        cc: Hon. Lindsey Graham and Hon. Jim DeMint
                                 ______
                                 
                    State of Alabama Office of the Governor
                                       Montgomery, AL, May 20, 2005
Hon. Richard Shelby,
110 Hart Senate Building,

Hon. Jeff Sessions,
335 Russell Senate Building,

Washington, DC.
     Re: Reauthorization of the Coastal Zone Management Act

Dear Senators:

    On behalf of the State of Alabama this year, I am writing to urge 
the Senate to reauthorize the Coastal Zone Management Act (CZMA). Both 
the President's U.S. Ocean Action Plan and the U.S. Commission on Ocean 
Policy's Final Report recommended the reauthorization of the CZMA and 
highlighted its importance in insuring economically vibrant and 
ecologically sustainable coastal and ocean resources. We encourage 
Congress to reauthorize and amend CZMA as a critical, high priority 
action for improved coastal and ocean management. We support full 
funding and strengthening of elements of the CZMA, including habitat 
restoration, community planning and programs, watershed management and 
special area management planning. The CZMA is an important vehicle for 
implementation of a wide range of Ocean Commission and U.S. Ocean 
Action Plan recommendations, because it takes an integrated approach 
and is a true cooperative program between the Federal, state and local 
governments. This partnership is vital to addressing ecosystem 
management, and we believe that the state and local governments should 
have an important role in this process. A reauthorized CZMA needs to 
retain its focus on partnerships--the state's working hand-in-hand with 
local governments. CZMA needs to maintain the state's ability to 
implement programs that meet Federal goals that best fit each state's 
ecological, geographical and political sceneries. A reauthorized CZMA 
needs to allow for flexible state programs and provide for a program to 
encourage strong planning at the local government level. We support an 
incentive-based approach to expanding partnerships under the CZMA and 
increasing focus on watershed issues and local planning.
    We face significant challenges along our coast that can have a 
negative impact on both the health and economic well being of this 
state and our citizens. In Alabama, CZMA funds, which are matched by 
the state agencies, local governments and academic institutions, are 
used to address the following priority issues: Coastal non-point source 
pollution, beach monitoring and restoration, research and education, 
public access, habitat restoration and land acquisition programs, I 
understand that the Senate Commerce, Science, and Transportation 
Committee will begin consideration of CZMA reauthorization during a 
hearing on S. 360 (sponsored by Senators Olympia Snowe and John Kerry) 
that is scheduled for Wednesday, May 25, 2005.
    The following issues are of primary importance when considering 
reauthorization of the CZMA:

        1. Increase support for state and territorial coastal zone 
        management programs through administration and implementation 
        grant programs and tools. These grant programs are critical to 
        meeting the increased challenges along Alabama's coast. The 
        authorization of the Coastal Resource Improvement Program, 
        under Section 306A, and Coastal Zone enhancement Grants, under 
        Section 309, is important to providing much needed assistance 
        to local communities for local beach and dune monitoring, 
        enforcement and planning programs.

        2. Authorize a Coastal Community Restoration Program. By 
        providing incentives to local government for actions that 
        resolve important habitat protection conflicts, revitalizing 
        previously developed areas and coordinating conservation 
        efforts, Congress will enable state and local governments to 
        better manage our nationally important coastal zones.

        3. Maintain existing Federal consistency provisions. The 
        Federal-state partnership established under the CZMA enables 
        state review of Federal activities to ensure compliance with 
        state plans. In Alabama, Federal consistency has not limited 
        reasonable activities and development of resources in the 
        coastal zone, including the development of offshore gas 
        production. I would oppose any actions to weaken the CZMA 
        requirements for coordination and consistency with state plans.

    l would like to work with you in the coming months on any necessary 
changes to S. 360 and to ensure its passage during this 109th Session 
of Congress. Thank you for taking up this important matter at this 
time.
        Sincerely,
                                                 Bob Riley,
                                                          Governor.
        cc: Congressman Jo Bonner and Senate Commerce Committee Staff
                                 ______
                                 
            Commonwealth of Virginia Office of the Governor
                                         Richmond, VA, May 23, 2005
Hon. Ted Stevens,
Chairman,

Hon. Daniel K. Inouye,
Ranking Member,

Hon. Olympia J. Snowe,

Hon. Maria Cantwell,

Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Senators,

    I am writing to urge the Senate to reauthorize the Coastal Zone 
Management Act (CZMA). Both the President's U.S. Ocean Action Plan and 
the U.S. Commission on Ocean Policy's Final Report recommended the 
reauthorization of the CZMA and highlighted its importance in ensuring 
economically vibrant and ecologically sustainable coastal and ocean 
resources.
    We face significant challenges along our coast that may have a 
negative impact on both the health and economic well-being of this 
state and our citizens. In Virginia, CZMA funds, which are matched by 
the state, are used to address critically important coastal issues such 
as wetlands protection, sea grass and oyster reef restoration, 
ecotourism development, technical assistance to local governments, 
coastal land acquisition, nonpoint source pollution solution, and 
provision of maps of coastal resources and information through the 
Internet and other media. I understand that the Senate Commerce, 
Science, and Transportation Committee will begin consideration of CZMA 
reauthorization during a hearing on S. 360 (sponsored by Senators 
Olympia Snowe and John Kerry) that is scheduled for May 25.
    The following issues are of primary importance when considering 
reauthorization of the CZMA:
    1. Increase support for state and territorial coastal zone 
management programs through management and implementation of grant 
programs and tools. These grant programs are critical to meeting the 
increasing challenges along Virginia's coast. Virginia's coastal 
population is growing (63 percent of Virginians live on the 22 percent 
of land that comprises our coastal zone), yet our Federal funding for 
CZM has decreased. Exacerbating the problem is the fact that even prior 
to the FY 2005 CZM cuts, funding had been level since about 1988. In 
the face of only mild inflation, this has translated to the equivalent 
of roughly a 70 percent cut in Federal funds. In other words Virginia's 
FY 2005 award of approximately $2.7 million is worth about $635,000 in 
1988 dollars; at that time Virginia was receiving about $2 million. 
While the growth of the Federal budget has outpaced the rate of 
inflation, almost none of those increased expenditures have been 
allocated for CZM appropriations.
    The authorization of the Coastal Resource Improvement Program, 
under Section 306A, and Coastal Zone Enhancement Grants, under Section 
309, is important to providing much needed assistance to local 
communities. In Virginia these funds have helped in the acquisition of 
the most sensitive coastal areas (Virginia has only been able to set 
aside about $200,000 per year for this purpose, and far more is 
needed); in building boardwalks, nature trails and other public access 
amenities critical to supporting Virginia's growing ecotourism 
industry; and for the development of new policies to protect special 
areas such as the biologically diverse southern watersheds of Virginia 
Beach, Chesapeake and the Middle Peninsula's Dragon Run. Section 309 is 
also funding the development of an integrated Blue-Green Infrastructure 
Internet Mapping System which will allow anyone to access, via the 
Internet, maps of the various important coastal resources on the land 
and in the water so that planning and decision-making can be better 
conducted with full and accurate information.
    2. Authorize a Coastal Community Restoration Program. By providing 
incentives to local government for actions that resolve important 
habitat protection conflicts, revitalize previously developed areas, 
assess and manage growth and coordinate conservation efforts, Congress 
will enable state and local governments to better manage our nationally 
important coastal zones. In Virginia, controlling growth and 
development is largely within our local governments' purview. Many of 
Virginia's coastal counties are rural and lack the funds to hire full-
time planners and zoning administrators, yet they are facing 
unprecedented demands for more housing and development, particularly on 
the fragile waterfront. Carefully planning and carrying out growth in 
our coastal zones is critical to the long-term protection of our ocean 
and coastal resources.
    3. Maintain existing Federal consistency provisions. The Federal-
state partnership established under the CZMA enables state review of 
Federal activities to ensure compliance with state plans. In Virginia 
Federal consistency has not limited reasonable activities and 
development of resources in the coastal zone. I would oppose any 
actions to weaken the CZMA requirements for coordination and 
consistency with state plans. Federal consistency provisions have 
minimized negative environmental consequences of projects while still 
allowing appropriate development to proceed.
    I would like to work with you in the coming months on any necessary 
changes to S. 360 and to ensure its passage during this 109th Session 
of Congress. Thank you for addressing this important matter.
        Sincerely,
                                           Mark. R. Warner,
                                                  Governor.
        cc: Virginia Congressional Delegation
                                 ______
                                 
                       State of California Resources Agency
                                       Sacramento, CA, May 24, 2005
Hon. Ted Stevens,
Chairman,

Hon. Daniel K. Inouye,
Ranking Member,

Hon. Olympia J. Snowe,

Hon. Maria Cantwell,

Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Senators,

    I am writing to express our support for S. 360, the Coastal Zone 
Enhancement Reauthorization Act of 2005. California, like many other 
states, faces significant challenges in encouraging economic 
development in its coastal communities while coping with the resultant 
growth. If enacted, the provisions of S. 360 would greatly increase the 
ability of California's three Coastal Zone Management agencies to 
tackle these challenges. The Coastal Zone Management Act (CZMA) of 1972 
provides grant funds to states that are matched, and used to leverage 
significant additional investment. These funds are critical to support 
community efforts to manage coastal resources and to abate nonpoint 
source pollution. The health and prosperity of our coastal communities 
depends on continued investment in our nation's coastal legacy for 
future generations.
    Both the President's U.S. Ocean Action Plan and the U.S. Commission 
on Ocean Policy's Final Report recommended the reauthorization of the 
CZMA and highlighted its importance in protecting and managing this 
nation's coastal and ocean resources. In his June 3, 2004 letter to the 
U.S. Commission on Ocean Policy and in his Ocean Action Plan, Governor 
Schwarzenegger supported the reauthorization of the CZMA to strengthen 
provisions for addressing nonpoint source pollution and to maintain the 
Federal consistency provisions that allow California to address the 
adverse impacts of Federally approved activities such as oil and gas 
development off our coast.
    The following two issues are of primary importance when considering 
reauthorization of the CZMA:

        Maintain existing Federal consistency provisions. The landmark 
        Federal CZMA is the only land and water use planning and 
        management law at the national level. It represents a unique 
        and carefully crafted partnership between coastal states and 
        the Federal Government. Through this partnership, the CZMA has 
        also, for the first time, given local coastal government a 
        meaningful voice in Federal actions and decisions that directly 
        affect the environmental quality of their local communities. We 
        oppose any change to the consistency rules that would weaken 
        states' rights to have an equal voice in vital decision-making 
        dealing with activities that can have significant adverse 
        effects on local coastal communities and other coastal 
        resources.

        Provide Sufficient Funding for Coastal Non-Point Source 
        Pollution Programs. The U.S. Commission on Ocean Policy and the 
        Pew Ocean Commission reported polluted runoff as the top threat 
        to our nation's coastal and ocean resources. In addition, the 
        U.S. EPA has identified runoff from impervious surfaces as the 
        number one threat to the Nation's water quality. Congress 
        should adequately fund nonpoint source pollution grants (CZMA 
        Section 6217) to allow coastal states to address one of the 
        most significant sources of pollution to the Nation's coastal 
        waters.

    We would like to work with you in the coming months on any 
necessary changes to S. 360 and to ensure its passage during this 109th 
Congress. Thank you for taking up this important matter at this time.
        Sincerely,
                                             Mike Chrisman,
                                California Secretary for Resources.
        cc. Meg Caldwell, Chair, California Coastal Commission
                                 ______
                                 
              The Commonwealth of Massachusetts State House
                                           Boston, MA, May 20, 2005
Hon. Olympia J. Snowe,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Senator Snowe:

    On behalf of the Commonwealth of Massachusetts, I am writing to 
urge the Senate to reauthorize the Coastal Zone Management Act (CZMA). 
Both the President's U.S. Ocean Action Plan and the U.S. Commission on 
Ocean Policy's Final Report recommended the reauthorization of the CZMA 
and highlighted its importance in ensuring economically vibrant and 
ecologically sustainable coastal and ocean resources.
    We face significant challenges along our coast that can have a 
negative impact on both the health and economic well-being of this 
state and our citizens. Here in Massachusetts, CZMA funds, which are 
matched by the state, are used to address the following priority 
issues: ocean resource management, smart growth for coastal 
communities, beach protection, and wetland restoration. I understand 
that the Senate Commerce, Science, and Transportation Committee will 
begin consideration of CZMA reauthorization during a hearing on S. 360 
(sponsored by Senators Olympia Snowe and John Kerry) that is scheduled 
for Wednesday, May 25, 2005.
    The following issues are of primary importance when considering 
reauthorization of the CZMA:

        1. Increase support for state and territorial coastal zone 
        management programs through administration and implementation 
        grant programs and tools. These grant programs are critical to 
        meeting the increased challenges along Massachusetts' coast. 
        The Coastal Zone Management regional staff provide technical 
        assistance on complex scientific and regulatory issues that is 
        critical to local decision-making under our strong home-rule 
        traditions. The authorization of the Coastal Resource 
        Improvement Program, under Section 306A, and Coastal Zone 
        Enhancement Grants, under Section 309, are important to 
        providing much needed assistance to coastal areas. The 
        flexibility in this voluntary program allowed Massachusetts to 
        use Federal funds to initiate the Ocean Management Task Force 
        process in response to the increase in offshore ocean projects 
        like Cape Wind and the Hubline gas pipeline.

        2. Authorize a Coastal Community Restoration Program. By 
        providing incentives to local government for actions that 
        resolve important habitat protection conflicts, revitalize 
        previously developed areas and coordinate conservation efforts 
        Congress will enable state and local governments to better 
        manage our nationally important coastal zones. CZM's efforts at 
        coastal smart growth are a step in the right direction, but 
        much more capacity is needed at the local level to deal with 
        sprawl and its impacts on water quality, beach access, and 
        coastal habitat protection.

        3. Maintain existing Federal consistency provisions. The 
        Federal-state partnership established under the CZMA enables 
        state review of Federal activities to ensure compliance with 
        state plans. In Massachusetts, Federal consistency has not 
        limited reasonable activities and development of resources in 
        the coastal zone. I would oppose any actions to weaken the CZMA 
        requirements for coordination and consistency with state plans. 
        The unique and critical role of Federal consistency review for 
        projects just offshore the Commonwealth has been highlighted by 
        the Cape Wind wind farm, Northeast Gateway and the Neptune 
        Liquid Natural Gas proposals.

    I would like to work with you in the coming months on any necessary 
changes to S. 360 and to ensure its passage during this 109th Session 
of Congress. Thank you for taking up this important matter at this 
time.
        Sincerely,
                                               Mitt Romney,
                                                          Governor.
                                 ______
                                 
                      State of Maine Office of the Governor
                                          Augusta, ME, May 23, 2005
Hon. Ted Stevens,
Chairman,

Hon. Daniel K. Inouye,
Ranking Member,

Hon. Olympia J. Snowe,

Hon. Maria Cantwell,

Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Senators,

    On behalf of the State of Maine, I am writing to urge the Senate to 
take positive action on reauthorization of the Coastal Zone Management 
Act this year, and to thank you for scheduling a hearing this week on 
S. 360, the Coastal Zone Enhancement Reauthorization Act. I would 
especially like to acknowledge Senator Snowe's ongoing leadership in 
support of the CZMA, as co-sponsor of S. 360 (along with Senator 
Kerry.) I am encouraged that the Senate is moving on the CZMA as called 
for in the President's U.S. Ocean Action Plan, in my detailed comments 
in response to the Ocean Commission, I emphasized the importance of an 
enhanced Coastal Zone Management Act as the vehicle for delivering on-
the-ground environmental improvements and ensuring economically vibrant 
and ecologically sustainable coastal and ocean resources.
    In Maine, CZMA funds, which are matched by the state, are used for 
protecting ocean and coastal water quality, assisting coastal 
communities with the impacts of growth, restoring coastal habitats, 
enhancing public access and mitigating coastal hazards. We have a 
strong Maine Coastal Program with a twenty-seven year track record of 
success. However, we continue to face significant, increasingly complex 
challenges along our coast that can have a negative impact on both the 
health and economic well-being of this state and our citizens.
    I would like to underscore a few areas of primary importance to 
Maine as you consider reauthorization of the CZMA:
    1. Increase support for state coastal zone management programs. CZM 
grants are critical to meeting increased challenges along Maine's 
coast. Section 306 grants have supported the formation of Maine's 
Working Waterfront Coalition, development of a municipal technical 
assistance effort and a local grants program, all aimed at stemming the 
tide of conversion of Maine's small working harbors to residential and 
tourist-related uses.
    The authorization of the Coastal Resource Improvement Program, 
under Section 306A, and Coastal Zone Enhancement Grants, under Section 
309, are important to providing much needed assistance to local 
communities. Section 309 funds now support our 2 year bay management 
study, helping us to determine how to work more effectively with towns 
and other stakeholders to ensure balanced development and conservation 
of nearshore waters.
    Decreases in Federal CZM funding in 2005 caused the Maine Coastal 
Program to reduce staff and services. A $500,000 reduction in funding 
severely impacted our local grants program, and our nonpoint source 
pollution program. Maine supports the authorization levels proposed by 
the Coastal States Organization, but calls attention to the need for 
funds to sufficiently address polluted runoff in addition to the myriad 
of other eligible priority needs.
    2. Authorize a Coastal Communities Program. By providing incentives 
to local government, Congress will enable state and local governments 
to better manage our nationally important coastal zones. CZM funds in 
Maine currently support a twelve-town habitat and open space planning 
initiative in which the municipalities are expected to develop joint 
programs for protection of regionally significant habitats. Further 
down the coast, a groundbreaking agreement on the Penobscot River will 
result in significant habitat improvement while protecting hydropower 
opportunities. Coastwide, more than 30 towns have been assisted with 
habitat protection strategies. The cost to fully implement these 
programs is substantial and requires a strong commitment on the part of 
our local/state/Federal partnership.
    3. Provide ongoing funding for Coastal NonPoint Pollution Control. 
It is estimated that more than 80 percent of pollution entering Maine's 
coastal waters is from diffuse sources of coastal runoff, yet most 
programs that assist states with control and elimination of polluted 
runoff are being cut. To not target significant funding towards a 
priority problem is an inefficient use of Federal and state resources. 
S. 360 allows CZM programs to direct funds towards pollution programs 
in addition to other state priorities.
    4. Maintain existing Federal consistency provisions. The Federal-
state partnership established under the CZMA enables state review of 
Federal activities to ensure compliance with state plans. In Maine, 
Federal consistency has not limited reasonable activities and 
development of resources in the coastal zone. To the contrary, our 
staff has been praised by Federal agencies, military staff and private 
sector developers for their fair, thorough and timely response to 
Federal actions in the coastal zone. I would oppose any actions to 
weaken the CZMA requirements for coordination and consistency with 
state plans.
    5. Increase opportunities for regional cooperation. Finally, I am 
aware of the work of NOAA and other agencies to reorient existing 
programs towards an ecosystem-based management framework. In the Gulf 
of Maine, we have the beginnings of such an innovative approach to 
regional governance in the Gulf of Maine Council, the Regional 
Association for Research on the Gulf of Maine and the GOM Ocean 
Observing System (GoMOOS). S. 360 could be further strengthened by 
including provisions for regional cooperation and a grants program to 
provide incentives for states to pursue regional pilot projects that 
demonstrate success in ecosystem-based management.
    I would like to work with you in the coming months on any necessary 
changes to S. 360 and to ensure its passage during this 109th Session 
of Congress. Thank you for taking up this important matter at this 
time.
                                       John Elias Baldacci,
                                                          Governor.
                                 ______
                                 
                              State of Oregon State Capitol
                                            Salem, OR, May 25, 2005
Hon. Ted Stevens,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Stevens:

    On behalf of the State of Oregon, I want to express my strong 
support for reauthorization of the national Coastal Zone Management Act 
(CZMA). The CZMA has been instrumental in helping Oregon to balance 
growth and economic development in coastal communities with protection 
of the outstanding scenic and environmental resources of the Oregon 
coast. Reauthorizing this important Act will affirm the values and 
importance of our coasts to the Nation and underscore the need to 
manage and protect them for the future.
    For nearly three decades, Oregon and the Nation have benefited from 
unique provisions of the Act that promote partnerships among states, 
local governments, and Federal agencies to address crosscutting issues 
affecting coastal watersheds, shorelands, estuaries and ocean 
resources. Funding under the Act has been vital to building capacity in 
local governments and state agencies to protect coastal resources, 
provide public amenities and manage growth. Many cities simply could 
not do the job of protecting coastal resources, providing public 
access, or creating livable communities without this Federal funding. 
The Act's unique ``Federal consistency'' provisions enable Oregon to 
review Federal agency actions to ensure that they meet state and local 
needs and requirements.
    The recent report of the U.S. Commission on Ocean Policy described 
many issues facing the Nation's coasts and oceans that I believe can be 
most effectively addressed through strengthened state coastal 
management programs. These issues include managing urban growth, 
protecting and restoring coastal habitats, reducing pollution from 
watersheds into coastal waters, avoiding or reducing natural hazards on 
coastal shorelands and in floodplains, planning and managing ocean 
resources, reinvesting in port and harbor facilities, providing public 
access, education, and information, and protecting special coastal and 
ocean areas. Thus I believe that it makes sense to not only reauthorize 
the CZMA but also strengthen it based on need and experience.
    I urge the Congress to add a Coastal Communities Program, as 
recommended by the Coastal States Organization, to address development 
and conservation through community assessments, planning, and 
demonstration projects. Oregon has targeted significant state and 
Federal CZMA financial and technical resources to local governments to 
assist in managing growth and development while protecting coastal 
resources. Based on our experience, I firmly believe that a robust 
Coastal Communities Program would pay big dividends to the Nation in 
protecting coastal resources while growing coastal communities.
    Because meeting the increasing challenges of coastal management 
through the CZMA will require increased funding, I also encourage the 
Committee to support significantly higher levels of Federal 
Appropriations for coastal zone management to help states and local 
governments, as well as related special programs such as the NOAA 
Coastal Services Center, National Estuarine Research Reserve system, 
and research on nearshore ecosystems and fisheries on which our coastal 
communities depend.
    I thank you and the Committee for your important work on this vital 
piece of legislation. If I can provide you with more information about 
coastal zone management in Oregon, please do not hesitate to contact 
me.
        Very truly yours,
                                    Theodore R. Kulongoski,
                                                          Governor.
        cc: Oregon Congressional Delegation
                                 ______
                                 
                 State of Washington Office of the Governor
                                  Olympia, Washington, June 6, 2005
Hon. Ted Stevens,
Chairman,

Hon. Daniel K. Inouye,
Ranking Member,

Hon. Olympia J. Snowe,

Hon. Maria Cantwell,

Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Senators,

    On behalf of the state of Washington, I am writing to urge the 
Senate to reauthorize the Coastal Zone Management Act (CZMA). Both the 
President's U.S. Ocean Action Plan and the U.S. Commission on Ocean 
Policy's final report, An Ocean Blueprint for the 21st Century, 
recommended reauthorizing the CZMA and highlighted its importance in 
ensuring economically vibrant and ecologically sustainable coastal and 
ocean resources.
    We face significant challenges along our coast that can impair the 
health and economic wellbeing of our state and its citizens. The CZMA 
funds are matched by Washington State to help protect coastal resources 
and support waterfront and port development, recreation, and tourism. 
We are addressing salmon recovery in Puget Sound, water quality 
problems in Hood Canal, shoreline erosion on the Pacific Coast, and 
other difficult coastal management issues. To meet these challenges and 
to advance the President's Ocean Action agenda, it is critical that we 
increase CZM resources to support local shoreline planning, watershed 
protection, and habitat conservation.
    I am informed that the Senate Commerce, Science, and Transportation 
Committee began considering the CZMA reauthorization at a hearing on S. 
360 (sponsored by Senators Olympia Snowe and John Kerry) on Wednesday, 
May 25. The following issues are of primary concern to our state in 
considering reauthorization of the CZMA:

        1. Increase support for state and territorial coastal-zone 
        management programs to provide funding and assistance to help 
        our communities anticipate and accommodate growth while 
        protecting coastal resources. The authorization of the Coastal 
        Resource Improvement Program, under Section 306A, and Coastal 
        Zone Enhancement Grants, under Section 309, provides much-
        needed assistance to local communities updating their shoreline 
        plans and conserving natural resources.

        2. Authorize a Coastal Community Program to provide funding and 
        technical assistance to help local governments plan for growth, 
        reduce nonpoint-source pollution, protect and restore important 
        habitat areas, and revitalize waterfront areas. Coastal 
        communities in Washington--from our urban cities on the shores 
        of Puget Sound to our rural communities on the Pacific Coast--
        are in direct need of additional assistance in meeting these 
        challenges.

        3. Maintain existing Federal consistency provisions. The 
        Federal-state partnership established under the CZMA gives 
        states the power to ensure that Federal activities, such as dam 
        re-licensing and dredging projects, are consistent with the 
        state's coastal program. In Washington State, Federal 
        consistency has not limited reasonable activities and 
        development in the coastal zone. I oppose weakening the CZMA 
        requirements for coordination and consistency with state plans.

    Reauthorizing the CZMA will enable state and local governments to 
better manage locally and national significant coastal areas. These 
programs invigorate our economy and improve quality of life for the 
citizens of Washington. For all of these reasons, I request your 
support of S. 360 this year.
    Thank you for your attention to these concerns. Please let me know 
how I can help.
        Sincerely,
                                     Christine O. Gregoire,
                                                          Governor.

    Ms. Cooksey. Many coastal States are taking the lead in 
responding to these plans for action. Hawaii, California, and 
Alaska have established ocean councils. Alaska is in the 
process of successfully completing amendments to its CZM 
program. Massachusetts has proposed legislation to develop a 
comprehensive ocean management plan. South Carolina is 
developing recommendations for its coastal future. The New 
Jersey Governor recently announced a coastal action plan. There 
are also significant state-led plans throughout the Nation, 
Pacific Islands, and Alaska.
    CSO's recommendations largely track the Ocean Commission 
blueprint and the proposals already included in S. 360 in the 
four following areas: support for coastal program 
implementation and enhancement grants shared by all States 
under CZMA sections 306 and 309; support for proposals for 
resource improvement grants under section 306A and community 
grants under the new section 309[a]; continued support for 
Federal consistency authority under CZMA section 307; clear 
authority and funding for the National Estuarine Research 
Reserves' research, education, and stewardship missions under 
section 315 and 318; and additional authority to foster 
regional ecosystem management under section 308 and management-
oriented research and technical assistance under section 310.
    CSO strongly supports the recommended authorization levels 
for State grants under sections 306, 306A, and 309. The 
language added under 306[c] providing for equitable sharing of 
increased funds by all States is important to assure that 
States whose grants have been capped over the past 6 to 10 
years will receive a fair share of increased funding.
    We request the Committee also make changes to section 309 
to expand eligibility for enhancement grants, to include not 
just formal program changes but also projects or activities 
that support improved ecosystem-based management, or 
demonstrate significant potential for improving integrated 
coastal watershed and ocean management.
    CSO strongly supports a proposal under Senate Bill 360 to 
support resource improvement grants that are listed under 
section 306A and the coastal community grants under 309[a].
    There seems to be considerable confusion about both the 
purpose and application of the CZMA Federal consistency 
authority. It has wrongly been characterized as a duplicative 
level of authority and review. On the contrary, the clear 
objective and function of consistency is to support a process 
for coordination and cooperation. This is how it actually works 
in the vast majority of States and it works well, including in 
Delaware.
    While all Federal activities and permits that may affect 
resources and uses of a State coastal zone will trigger 
consistency, it does not impose new regulatory requirements. It 
simply provides that that activity must be consistent with 
those applicable State enforceable policies that already exist 
and are incorporated into the Federally approved program.
    CSO does not support piecemeal amendments to the CZM that 
have been proposed in the various versions of the energy bill 
that Senator Nelson mentioned this morning. CSO and NERRA are 
pleased that Senate Bill 360 clarifies the authority of the 
reserve system to include education and resource stewardship in 
addition to research.
    We urge the Committee to consider amending the CZMA or 
passing companion legislation to provide additional support for 
State-regional collaborations. Currently CZMA section 308 
authorizes the use of the CZM management fund for other things, 
projects to address management issues that are regional in 
scope, projects including interstate projects, and 
demonstration projects, which have a high potential for 
improving coastal zone management, especially at the local 
level. We propose that these specific authorities be retained 
and amended to support adaptive ecosystem-based management, 
rather than direct the CZM fund to NOAA to offset operating and 
administrative costs.
    CSO also recommends strengthening the provisions of section 
310 to include support for a regional coastal services center. 
As recommended by the Ocean Commission, funding should be 
authorized annually for grants to States under this section.
    Thank you for the opportunity to testify today. CSO is 
ready to work with you in any way to support passage and 
reauthorization of the Coastal Zone Management Act.
    [The prepared statement of Ms. Cooksey follows:]

Prepared Statement of Sarah W. Cooksey, Administrator, Delaware Coastal 
  Programs; Board Member and Former Chair, Coastal States Organization
Introduction
    I want to thank Committee Chairman Ted Stevens, Subcommittee Chair 
Olympia Snowe, as well as Ranking Members, Senators Daniel Inouye and 
Maria Cantwell, and other distinguished Members of the Committee for 
the opportunity to testify today on the reauthorization of the Coastal 
Zone Management Act (CZMA). On behalf of my colleagues in the coastal 
states, I also want to express our appreciation for your leadership in 
supporting the CZMA and other crucial coastal and ocean legislation.
    My name is Sarah Cooksey. I am the Administrator of Delaware's 
Coastal Management Programs, which includes both the coastal management 
and the research reserve programs. I am testifying today in my role as 
Board Member and former-Chair of the Coastal States Organization (CSO). 
I want to extend the regrets of the current CSO Chair, Phil Hinesley 
from Alabama, who couldn't be with us today as he is in American Samoa 
celebrating the 25th Anniversary of their CZM Program. Since 1970, CSO 
has represented the interests of the coastal states, including the 
Great Lakes and island territories on matters related to coastal, Great 
Lakes and ocean resource protection, management and development. CSO's 
membership consists of Delegates appointed by the Governors from the 35 
States, Commonwealths, and Territories. The National Estuarine Research 
Reserve Association (NERRA) is also an affiliate member of CSO. For the 
record, I request that this testimony be added to the record and have 
also attached a copy of the National Governors Association (NGA) policy 
that calls for CZMA reauthorization.
    It is fitting that the CZMA, which was originally passed to support 
recommendations of the 1969 Stratton Commission, will be reauthorized 
to address the recent and important call to action detailed in the U.S. 
Commission on Ocean Policy final report and the President's U.S. Ocean 
Action Plan. Both documents identified reauthorization of the CZMA as a 
priority. Legislative priorities, in addition to the CZMA, that were 
identified by both the Ocean Commission and the Action Plan under the 
jurisdiction of this Committee include a NOAA Organic Act, and the 
Magnuson-Stevens Fisheries Conservation and Management Act. We hope to 
see action this year on these fundamental building blocks of any 
national coastal and ocean policy. The time for action is now.
    Our Nation's history, economy and culture are inextricably linked 
to and dependent upon the natural resources and economic vitality of 
the coasts--from the ports around which our nation's largest cities 
grew; to the fishing communities along the coast of Maine; to the 
beaches from Cape Cod to California; to the habitats of Galveston Bay 
and wetlands of Louisiana; to unique landscape and indigenous peoples 
of Alaska and the Pacific islands. It has been estimated that 1 out of 
6 U.S. jobs is marine related, and \1/3\ of the Gross Domestic Product 
is produced in coastal counties. The 180 million American and 
international visitors who enjoy coastal areas and coral reefs each 
year account for 85 percent of U.S. tourism revenues. International 
shipping brings more than $700 billion in goods to U.S. ports. Coasts--
where our nation's major river basins connect our inland watersheds to 
our oceans--are truly a national resource.
The Coastal Zone Management Act (CZMA)
    The CZMA is the only national program that supports a Federal-state 
partnership with the goal of improving both the quality of life in 
coastal communities and enhancing the stewardship, sustainable use and 
conservation of coastal and ocean resources for the benefit of current 
and future generations. Congress was prescient in 1972 when it passed 
the Coastal Zone Management Act (CZMA) to provide incentives:

        to encourage and assist the states to exercise effectively 
        their responsibilities in the coastal zone through the 
        development and implementation of management programs to 
        achieve the wise use of the land and water resources of the 
        coastal zone, giving full consideration to ecological, 
        cultural, historic, and esthetic values as well as the needs 
        for compatible economic development programs . . . . (16 USC 
        1452(2))

    The CZMA is unique in linking Federal, state and community-based 
coastal management efforts. The CZMA furthers national goals by 
supporting the identification of priorities and implementation of local 
strategies in the three fundamental ways.

  <bullet> It provides a national framework and matching grants that 
        support states, in working with local communities and Federal 
        agencies partners, to develop and implement coastal and ocean 
        management plans, program and policies, which are based on 
        local priorities and further the national economic, 
        environmental and societal objectives set out in the Act.

  <bullet> It provides a process for coordinating state and Federal 
        activities, licenses and permits to assure that they are 
        consistent with the applicable policies of Federally approved 
        state coastal zone management programs. (This is commonly 
        referred to as ``consistency authority.'')

  <bullet> It establishes and supports a network of 26 National 
        Estuarine Research Reserves representing diverse estuarine and 
        coastal ecosystems, which play a critical role in national 
        efforts to understand and sustain healthy estuaries and coastal 
        communities.

    Thirty four of the 35 eligible state have developed--and the 35th 
state, Illinois, is in the process of developing--comprehensive coastal 
programs which are designed to protect and restore wetlands and other 
critical habitats; increase recreational opportunities and public 
access to shorelines; reduce the threats of coastal hazards to public 
health and property; and reduce coastal pollution and cumulative and 
secondary that can degrade coastal waters; as well as, to support well-
planned coastal communities, compatible coastal dependent development 
and revitalize waterfronts.
    The 26 estuaries have been designated as part of the National 
Research Reserve System (NERRS) include sites from Alaska to Puerto 
Rico, with an additional site in Texas expected to be designated later 
this year. NERRS serve as local laboratories and regional centers of 
excellence. At Reserve sites, coastal communities can access a broad 
array of critical information and coastal services. These services 
include: (1) training to promote informed environmental decision-
making; (2) a national monitoring program for estuaries; and (3) 
education opportunities for students and the public. With these key 
elements, the reserve system is in the unique position of serving the 
national interest while responding to local needs. They have developed 
several unique system-wide national programs including system-wide 
monitoring, graduate research fellowships and coastal training 
programs.
    Many coastal states are taking the lead in building on these 
efforts. In Hawaii, California, and Alaska, the Governors have 
established Ocean Councils to take a more integrated and comprehensive 
look at coastal and ocean management priorities. As you will hear about 
in later testimony, Alaska is in the process of successfully completing 
amendments to its CZM program. The Governor of Massachusetts has 
proposed legislation to improve management of coastal estuaries and to 
develop a comprehensive ocean management plan. South Carolina has 
completed an assessment and developed recommendations for its ``Coastal 
Future.'' The New Jersey Governor recently announced a Coastal Action 
Plan. Other states are developing equally ambitious coastal and ocean 
agendas. There are also significant state-led regional efforts in the 
Gulf of Maine, Mid-Atlantic, Gulf of Mexico, and the Pacific Islands.
    Enacting many of the recommendations proposed in S. 360, The 
Coastal Zone Enhancement Reauthorization Act of 2005, will provide much 
needed support for these ongoing efforts, encourage increased 
coordination, and improve partnerships with Federal agencies, as well 
as the private and public sector that will be crucial to our nation's 
future success in managing coastal and ocean resources.
Coastal and Ocean Stewardship Challenges: A Roadmap for CZM 
        Reauthorization
    The final report of the U.S. Commission on Ocean Policy (April 
2004) documents the challenges and sets out a vision and blueprint for 
action for the future of our nation's coasts and oceans. To address the 
many challenges outlined in the Report, the Ocean Commission Coastal 
population is increasing by 3,600 per day--a rate of growth that may 
result in 27 million more residents per, in an area that is already the 
most densely populated in the country. The impact of resulting land 
consumption and development can outstrip population increased by 3-5 
times the pace of population. That rate of harmful algal blooms (HAB) 
outbreaks and appearances of ``dead zone'' are increasing. In 1997, 
HABs cost the Maryland seafood and recreation industry more than $50 
million. Hurricanes and tropical storms are predicted to continue to 
threaten coastal communities.
    Although less comprehensive than the Ocean Commission Report, the 
President's U.S. Action Plan (September 2004) recognizes the need to 
support adaptive, ecosystem-based approach management and to facilitate 
regional management. The Action Plan specifically calls on Congress to 
work with the Administration to reauthorize the CZMA. The Ocean 
Commission Report recommends significantly increased funding for states 
to undertake coastal and ocean programs and activities. The Report also 
calls for implementation of improved regional ecosystem-based 
approaches to management to address the growing pressures of coastal 
development, emerging uses and conflicts in ocean areas, including 
ecosystem assessments, improved scientific information, monitoring, and 
research to support adaptive coastal and watershed management.
    The Ocean Commission Report specifically recommends that the 
following be included in CZMA reauthorization:

  <bullet> strengthen the planning and coordination capabilities of 
        coastal states to address watershed and ocean planning;

  <bullet> increase Federal financial, technical and institutional 
        support for sustainable community development;

  <bullet> expand investment in the conservation and restoration of 
        coastal habitats; and

  <bullet> support state coastal resource assessments.

    In response to the Ocean Commission Report, President George Bush 
put forth the U.S. Ocean Action Plan (September 2004) which recognizes 
the need to support adaptive, ecosystem-based approach management and 
to facilitate regional management. The Action Plan specifically calls 
on Congress to work with the Administration to reauthorize the CZMA.
    S. 360, at least in part, addresses all of these recommendations. A 
more specific discussion of S. 360, as well as CSO and NERRA 
recommendations for reauthorization is set out in the following 
section.
S. 360--Reauthorization Recommendations
    The coastal states have several recommendations which should be 
included in legislation to reauthorize the CZMA. These changes will 
substantially improve the capacity of states to meet the national goals 
of the CZMA, as well as the challenges identified in the Ocean 
Commission Report and the President's U.S. Action Plan. The states 
appreciate that their recommendations have largely been addressed in S. 
360.
Summary of Primary Recommendations

  <bullet> Provide increased funding and support for all eligible 
        coastal management programs to increase their capacity to 
        address the challenges identified in the Ocean Commission 
        Report. Assure that all eligible states share equitably in the 
        increased funding. (See S. 360, Sections 3, 7 and 17)

  <bullet> Authorize additional support for grants to states for 
        resource management improvements including habitat restoration, 
        reduction of coastal nonpoint pollution and support for well-
        planned community development. (See S. 360, Sections 8, 11 and 
        17.)

  <bullet> Continue support for governmental coordination and 
        consistency of Federal activities and permits activities that 
        may affect state coastal resources with applicable, Federally 
        approved state coastal management policies, as provided in 
        Section 307 of the CZMA.

  <bullet> Clarify the authority and increase funding for the NERRS 
        system including core program administration, coastal training, 
        site stewardship, system-wide monitoring and research, national 
        education initiatives, and construction of projects at Reserves 
        (See S. 360, Sections 4, 5, 15, and 17).

Discussion and Additional Recommendations
Program Implementation and Enhancement Grants
    Consistent with the recommendations of the Ocean Commission, S. 360 
strengthens states' capacity to further the national goals of the Act 
and improve integration of coastal, watershed and ocean management 
activities. CSO strongly supports the recommendation for increased 
authorization levels beginning at $90.5 million in 2006 for state 
grants under sections 306, 306A and 309. The language added to section 
306(c) providing for equitable sharing of increased funds by all states 
reflects language that has been included in appropriations bills over 
the past several years. This provision is important to assure that 
states whose grants have been ``capped'' over the past 6-10 years will 
receive a fair share of increased funding (Capped states include but 
are not limited to AK, ME, LA, WA, TX, MA, NC, NJ, CA, SC, MI, and MD). 
CSO also supports the proposed changes that would eliminate the 
specific 10 percent cap on resource improvement grants under section 
306A and the $10 million limit on section 309 program enhancement 
grants.
    We request the Committee to consider making a few additional 
changes to Section 309.

  <bullet> Amend subsection (b)(1) to expand eligibility for 
        enhancement grants beyond ``program changes'' to include 
        ``projects or activities that support multi-jurisdictional, 
        multi-state or regional ecosystem-based management, or 
        demonstrate significant potential for improving integrated 
        coastal, watershed and ocean management.''

  <bullet> Rather than have the Secretary rank state enhancement 
        proposals under subsection (c); provide states with the option 
        to set aside up to 20 percent of grants annually for CZM 
        program enhancements. This change would more accurately reflect 
        current practice, since currently there is no actual ranking or 
        competition for enhancement grants.

    These changes would provide states with the flexibility they need 
to adopt innovative projects and strategies, as well as formal program 
elements, to enhance the effectiveness of coastal, watershed and ocean 
management efforts.
Resource Improvement and Community Grants
    The expanded authority and funding provided in S. 360 to support 
resource improvement grants, under Section 306A, and coastal community 
grants, under 309A, will provide critical resources to support critical 
implementation actions that will result in increased public access and 
waterfront revitalization; protection of cultural and historic 
resources; habitat conservation and restoration; coastal hazards 
mitigation; control of aquatic invasive species; reduction of hypoxia, 
harmful algal blooms, and polluted runoff. It will also improve state 
capacity to provide technical assistance to coastal communities that 
support well-planned development and sustainable economic growth.
    One change the states suggest the Committee make to these 
provisions is that, rather than directing the states to set aside $10 
million out of the section 309A community grants for coastal nonpoint 
pollution as provided in section 17(1) of the bill, additional funding 
be provided for states to use in a flexible way to take actions they 
deem necessary to be effective in protecting coastal water quality.
Federal Consistency Authority
    There seems to be considerable confusion about both the purpose and 
application of CZMA Federal consistency authority. It has wrongly been 
characterized as a duplicative level of review or an additional state 
requirement. On the contrary, the clear objective and function of 
consistency is to support a process for ``coordination and 
cooperation'' of all applicable reviews at the Federal and state level. 
The CZMA correctly recognizes that that most effective way to further 
the national objective of the Act is to assure that Federal activities 
and permits incorporate applicable state requirements early in the 
process of developing there projects or activities.
    In the case of Federal activities or permits that may affect state 
coastal uses or resources, Federal agencies or applicants are required 
to determine ``at the earliest practical time'' whether there are state 
requirements that apply and how they will be incorporated into the 
planned activity. The states are required to respond the consistency 
determination with any concerns ``at the earliest practical time.'' 
This is how it actually works in the vast majority of cases--and it 
works well--in Delaware and other states. Pending amendments to the 
consistency regulation proposed by the Administration would reinforce 
the requirements for early consideration and coordination of all 
reviews.
    While all Federal activities and permit that ``may affect'' 
resources and uses of a state's coastal zone trigger consideration of 
consistency, it does not impose new regulatory requirements. It simply 
provides that that the activity must be consistent with those 
applicable enforceable policies that already exist and that are 
incorporated into the Federally approved coastal management programs 
and are recognized as furthering the national goals of the Act. The 
CZMA provides further safeguards for the agencies and applicants by 
providing for an appeal to the Secretary of Commerce to assure that 
decisions are consistent with the national objectives of the CZMA and 
national security. Provisions are set in the CZMA and consistency 
regulations that allow states to identify what Federal activities and 
permits affecting the coastal zone they want to review, including what 
they do not want to review, and to work with Federal agencies on 
coordinated review processes. These provisions include listed and 
unlisted activities, geographic location, and exceptions of de minimus 
impacts (See e.g. 15 C.F.R. sections 930.34 and 930.53.) These 
regulations should provide the necessary flexibility for the state to 
determine how to assure that applicable state requirements can most 
effectively provide for consistency of Federal activities that affect 
state coastal resources.
NERRS
    Of particular importance to the NERRS is the framework provided by 
the CZMA to meet the need for informed decision-making at the Federal, 
state, and local levels. Amendments to the Act should:

  <bullet> Provide effective mechanisms to assess the technology and 
        information needs of coastal communities at local and regional 
        scales

  <bullet> Strengthen the capacity of the state-Federal partnership to 
        support research and monitoring relevant to local and regional 
        needs, and

  <bullet> Improve the access and delivery of science-based information 
        to coastal communities, and evaluate the performance of the 
        state-Federal partnership in support of informed coastal 
        decisions.

    CSO and NERRA are pleased that S. 360 broadens the authority of the 
Reserve System to include education and resource stewardship in 
addition to research. We want to assure that the final language 
provides adequate authority for NERRS' primary research and education 
elements including the Coastal Training, System-Wide Monitoring, 
Graduate Research Fellowships, and K-12 Estuarine Education Program.
    We would respectfully suggest that a vision for expansion of the 
NERRS be included in a reauthorization bill. NERRA vision is to enhance 
research, education, and stewardship activities nationwide through the 
establishment of Reserves in every coastal and Great Lakes state, as 
the resources become available. With respect to authorization levels, 
NERRA recommends that a stable base for each Reserve be provided to 
support basic operations and research, education, and stewardship 
programs.
    NERRA supports a 5-year reauthorization beginning at $22 million 
and increasing by $1 million per year to accommodate new sites, 
expansion of products and services, and cost of living increases.
    CSO and NERRA strongly endorse incorporation of funding for 
construction and land acquisition into the reauthorization measure as 
stated in S. 360. The NERRS have established procedures for setting 
priorities for construction and land acquisition, and recently 
assembled long-term plans to meet construction and land acquisition 
needs. Incorporation of funds for these purposes--$15 million per year, 
as stated in S. 360--into the CZMA will provide a stable, long-term 
source of funding for the NERRS to maintain facilities in support of 
research, education, and stewardship programs, as well as to acquire 
priority land and water areas for watershed management.
Fostering Regional Partnerships and Management-Oriented Research
    We urge the Committee to consider amending the CZMA to provide 
additional support for state-regional collaborations that identify 
priority coastal and ocean management issues and develop implementation 
strategies based on best science available. Both the Ocean Commission 
and Administration's Action Plan call for a more ecosystem-based 
regional coastal watershed and ocean management strategy, and support 
for regional pilot projects that build on existing plans and processes. 
The CZMA can provide a direct link now to these regional efforts 
through states coastal and ocean management plans, based on 
consideration of public trust, public health and safety interests. 
Currently, CZMA section 308 authorizes the use of the Coastal Zone 
Management Fund for, among other things: ``projects to address 
management issues that are regional in scope projects, including 
interstate projects,'' and ``demonstration projects which have a high 
potential for improving coastal zone management, especially at the 
local level.''
    We propose that these specific authorities be retained and amended 
to reflect support for adaptive, ecosystem based management of coastal 
watershed and oceans. Rather than redirect the CZM Fund to NOAA top 
offset operating and administrative costs as proposed by S. 360, 
Section 9, the current balance in the fund as well as future payments 
should be dedicated to the states as originally intended for these 
regional, interstate, and ecosystem based watershed projects and 
activities. Additional funding should be authorized and deposited in 
the Fund to support competitive grants for such multi-jurisdictional, 
interstate or regional partnership projects, taking into account a 
balance of regional needs, state priorities, and a variety of project 
types and scales. While the oil and gas loan repayments that have 
traditionally supported the CZM Fund are scheduled to diminish in 
coming years, Congress should consider replenishing the Fund through 
both annual appropriations and dedicating new revenues generated from 
permitting offshore uses such as aquaculture, transportation and other 
support facilities for oil and gas, and renewable energy activity.
    The Ocean Commission report recognized the importance of investing 
in improved understanding of the coastal and ocean ecosystems, and 
recommended support of coastal assessments and regional information 
programs led by the states. To address this recommendation in part, CSO 
recommends amending the provisions of CZMA section 310, which require 
the Secretary to conduct a program of ``technical assistance and 
management-oriented research'' necessary to support the implementation 
of State coastal management programs. The section's current limitation 
to assistance and research related to ``program amendments under 
Section 309'' should be eliminated. Provisions should be strengthened 
that require the Secretary to coordinate efforts relevant to intra- and 
inter-agency Federal agency research, studies and technical assistance 
activities. CSO supports the proposal in S. 360, Section 12 that would 
authorize the Secretary to establish a program enter into cooperative 
agreements to support development of innovative coastal and estuarine 
technology. That section should be expanded to authorize regional 
coastal service centers, as needed, charged with coordinating and 
facilitating access to NOAA and other Federal agency research and 
technical assistance, disseminating relevant information and provide 
technical assistance, training and transfer best coastal and ocean 
management practices. Subsection 310(b)(3) should be amended 
``establishes and supports a routine process to assure that'' the 
Secretary consults with states on a regular basis regarding ``coastal 
and ocean research and information needs,'' as well as development and 
implementation of programs under the section.
    Finally, $30 million should be authorized annually for grants to 
states under this section to undertake periodic ecosystem assessments 
of natural, cultural and economic coastal resources to support 
development of relevant performance indicators and sound coastal and 
ocean management decisions. This funding can be used to identify gaps 
in monitoring and research needs and to make relevant information 
available to the public through mechanisms such as the ``state coastal 
atlas'' developed by Oregon or other information management or 
geospatial information tools or techniques. NOAA should support efforts 
to link these state assessments to broader regional ecosystem 
assessments and ocean observations systems.
Conclusion
    Thank you for the opportunity to testify today. CSO is ready to 
work with you in any way to support passage of S. 360 and 
reauthorization of the Coastal Zone Management Act this year.

    Senator Snowe. Thank you, Ms. Cooksey, and I want to thank 
all our panelists.
    I would like to address one of the first issues, and I know 
Senator Nelson has raised it with the imminent markup of the 
energy bill in the Energy Committee. With the Senate being on 
the verge of considering new energy legislation and new energy 
policy, one of the issues that has surrounded the 
reauthorization of the Coastal Zone Management Act--and in fact 
has been a barrier to securing reauthorization, as Chairman 
Stevens said, since 1999--has been clarity and predictability 
with respect to the regulatory process and the consistency 
requirements under the legislation.
    I would like to be able to work through some of these 
issues and to separate fact from fiction, because, as you 
mentioned, Dr. Kitsos, in your remarks here this morning, 
States have concurred with about 95 percent of the projects 
that they have reviewed under these consistency provisions. So 
exactly what is the essence of the problem here?
    There is a lot of exaggeration with respect to this 
process. It is an issue that we are going to have to grapple 
with. We are facing some of these challenges because if they 
attempt to lessen States' rights or circumvent the Coastal Zone 
Management Act in the energy legislation, we have to counter 
those attempts with the facts.
    So can you clarify the regulatory process and exactly what 
is at issue here, especially regarding claims about an 
unlimited process that they now want to reduce? I know the 
Commerce Department, in conjunction with Interior, has 
recommended a 270-day process, for example. Tell me, what has 
generally been the standard for this consistency requirement 
process?
    Dr. Kitsos. Well, the standard, Senator Snowe, is that 
States have an approved program that includes specific 
enforceable policies and that Federal agencies or that private 
applicants for Federal licenses and permits conduct activities 
that are consistent with those enforceable policies. In a very 
general way, that is sort of the consistency principle.
    It has been subject to some controversy. On behalf of NOAA, 
we do not believe that it is as controversial as other folks 
have asserted, and the statistics as you quoted from my written 
testimony are in fact accurate.
    Now, some will argue those statistics leave out a number of 
cases where States have used consistency as leverage to bring 
people to the table to get some things done that the applicant 
or the Federal agency might not otherwise have wanted to do. 
Our response to that is that is the purpose of section 307 of 
the CZMA. It is called the intergovernmental cooperation 
section and it is intended to try to get Federal Government and 
State governments and local applicants to work together to make 
sure that their activities are not inconsistent with approved 
CZMA programs.
    Some of the more high visibility cases deal with offshore 
oil and gas and I think the witness for the National Ocean 
Industries Association later today, this morning, will talk 
about those perhaps in some greater detail. But there have only 
been about 14 of those and 7 have come down on the side of the 
State and 7 have come down on the side of the----
    Senator Snowe. So there are 14?
    Dr. Kitsos. 14 cases have gone to appeal to the Secretary 
of Commerce.
    Senator Snowe. Out of how many, would you say?
    Dr. Kitsos. Thousands.
    Senator Snowe. Thousands?
    Dr. Kitsos. Thousands and thousands. Thousands and 
thousands of exploration plans and development and production 
plans and lease sales over the years since 1978, since the OCS 
Lands Act was amended. Now, most of those of course come from 
the Gulf of Mexico, Mississippi, Alabama, particularly 
Louisiana and Texas, where the acceptance of offshore oil and 
gas of course is quite positive, and the consistency issue has 
not been a matter of contention.
    The number of cases that have reached the level of the 
Secretary of Commerce generally come from outside the Gulf of 
Mexico, some in California of course.
    So our sense is that consistency is working. It is working, 
it is working well. We believe that your legislation, which has 
not opened that up, is a good idea and that, as Dr. Cruickshank 
has indicated, the Interior and Commerce Departments have 
worked well together on crafting a proposed regulation that we 
hope will become final. It is a potential rule that we hope 
will become final, that deals with issues of streamlining, the 
kind of record that needs to be put before the Secretary of 
Commerce, and the time limits involved in the Secretary making 
appeal decisions.
    But we believe that that addresses the issues that were in 
the Vice President's energy report and should resolve a number 
of problems.
    Senator Snowe. For the record, could you explain what 
happens in the 270 days? Is that correct?
    Dr. Kitsos. Well, it is a little more detailed than that, 
but essentially the 270 days is the time for the Secretary of 
Commerce to keep the record open. Then once the record closes, 
under current law there is a 90-day period for the Secretary to 
make a final decision, and if he needs another 45 days he can 
have that. But then he must issue a decision.
    There is an agreement between the Commerce Department and 
Interior Department that the Secretary of Commerce should not 
have an unlimited amount of time, as long as he has the 
material needed to make a decision, in order to make an appeal 
decision about a consistency case. We believe that the 
regulation that is currently being considered addresses that 
directly.
    Senator Snowe. Dr. Cruickshank, could you speak to that as 
well, from your perspective in the Interior Department?
    Dr. Cruickshank. Yes. I would agree with Dr. Kitsos' 
statement that--with one minor exception. Our count is there 
have been 17 appeals, 14 of which actually came to decision 
with the Secretary of Commerce. Three were actually resolved 
during the appeals process before a decision was required. But 
the numbers are very similar in that regard.
    But we also feel that the issues that have been raised are 
issues that can and should be dealt with through the rulemaking 
process, and we have been working, as Dr. Kitsos indicated, 
very closely with NOAA and we are very pleased with the way the 
rulemaking process has gone.
    Senator Snowe. Ms. Cooksey, would you like to speak to 
that?
    Ms. Cooksey. Just very briefly. States believe it is fair 
and it is based on State enforceable policies. It levels the 
playing field.
    Senator Snowe. I know you have mentioned in your testimony 
that the consistency requirements have been mischaracterized. I 
would concur with you, and this speaks to the issue in terms of 
the track record. So the 270-day period, does that----
    Ms. Cooksey. That is not a problem.
    Senator Snowe. It is not a problem, OK. Thank you.
    Chairman Stevens.
    The Chairman. Dr. Kitsos, I participated in the 1996 
amendment that would require issuing a final decision for an 
appeal 90 days after the issuance of a notice of decision and 
the record was closed. I have before me the list of those 
consistency appeals. I think there are only two that were 
decided in less than a year. The months elapsed run from 23 
months, 15 months, 16 months, 25 months, 39 months, 49 months, 
48 months, 50 months, 38 months, and 50 months. Two of them 
were withdrawn, one after 50 months.
    That does not sound to me like what you have just 
testified, a year plus 90 days. We had a law that said you 
would close the record within a reasonable period of time, and 
90 days after that you would make a decision. Now, it seems to 
me through rulemaking you have decided that 270 days is a 
reasonable period of time. Where did you get that?
    Dr. Kitsos. Well, that is based on the experience of the 
Department on how much time it takes to deal with some of these 
difficult consistency issues. Senator, I do not have that list 
in front of me.
    The Chairman. I would be glad to put it in the record. The 
question is, how long does it take from the objection date? You 
are answering from the decision to close; the question is from 
objection to close. We have got some interesting times coming.
    Just for instance, I am sure we will hear about this later, 
but I was told just last week that by 2015 we will be importing 
40 percent of our natural gas. There are only two places in the 
United States will allow that to be done now, despite repeated 
attempts. So the industry now is going to Mexico on the West 
Coast. I assume they will go to Canada on the East Coast. There 
is one place in Maine where they now can go, I understand, one 
place, a Native reservation in Maine.
    But do you think you can have this record duplicated in 
connection with those offshore plants?
    [The information referred to follows:]

                                  OCS-Related Coastal Zone Consistency Appeals
 Since 1982 there have been 14 appeals that have had Secretarial decisions issued and of those, 7 of the State's
 objections have been overridden. There have been others which were settled, dismissed on procedural grounds, or
          withdrawn before getting to a Secretarial decision. There are no active OCS activity appeals.
----------------------------------------------------------------------------------------------------------------
                                                   Objection    Appeal    Months
Consistency  Appeals      Company        State       Date       Filed    Elapsed  Decision Date      Decision
----------------------------------------------------------------------------------------------------------------
P-OCS 0203            Union            CA          11/17/82   12/17/82       23   11/9/84        Granted
 Exploration Plan
Santa Rosa            Exxon            CA           7/26/83    8/26/83       15   11/14/84       Denied
 Exploration Plan
Santa Ynez            Exxon            CA           6/23/83    7/22/83       16   11/18/84       Partial
 Development and                                                                                  Decision; 6/87
 Production Plan                                                                                  Agreement
P-OCS 0505            Gulf/Chevron     CA           2/14/85    3/13/85        9   12/23/85       Granted
 Exploration Plan
NPDES Permit*         Korea Drilling   CA          11/14/86   12/12/86       25   1/19/89        Granted
                       Co.
P-OCS 0512            Texaco           CA           2/23/88    3/23/88       14   5/19/89        Granted
 Exploration Plan
P-OCS 0522            Conoco           CA            6/9/88    6/29/88       39   9/23/91        Withdrawn
 Exploration Plan
P-OCS 0525            Chevron          CA            6/9/88     7/1/88       28   10/29/90       Denied
 Exploration Plan
Pulley Ridge Blocks   Unocal           FL          11/22/88   12/21/88       49   1/7/93         Denied
 629 630 Exploration
 Plan
Pulley Ridge Blocks   Mobil            FL          12/16/88    1/11/89       48   1/7/93         Denied
 799 Exploration
 Plan
Galahad Prospect      Amoco            AK            3/6/89     4/3/89       15   7/20/90        Granted
 Exploration Plan
Manteo Prospect       Mobil            NC           7/17/90    7/27/90       50   9/2/94         Denied
 NPDES Permit
Manteo Prospect       Mobil            NC          11/19/90    12/6/90       45   9/2/94         Denied
 Block 467
 Exploration Plan
Diamond/Emerald       Texaco           AK           11/9/90    12/7/90        3   Withdrawn      3/91 Agreement
 Prospects
 Exploration Plan
Destin Dome Block 97  Chevron          FL           2/26/91    3/11/91       22   1/8/93         Granted
 Exploration Plan
Pensacola Block 889   Mobil            FL            4/6/92    4/29/92       38   6/20/95        Granted
 Supplemental
 Exploration Plan
Destin Dome Block 56  Chevron          FL           2/17/98     3/9/98       50   Withdrawn      Reached
 Unit                                                                                             Agreement 5/
                                                                                                  02; Executed
                                                                                                  Agreement 7/02
----------------------------------------------------------------------------------------------------------------
*National Pollutant Discharge Elimination System Permit


                      Timeline for Selected Appeals
       Union Exploration Partners Consistency Appeal Pulley Ridge
02/18/88                        Union Submitted Proposed Plan of
                                 Exploration (and accompanying
                                 Environmental Report (ER))
04/08/88                        MMS Determined Union's Plan and ER
                                 Complete
04/14/88                        State of Florida (Florida Dept. of
                                 Environmental Regulation) Began Review
                                 of Union's Consistency Certification
06/03/88                        MMS Approved Union's Plan and ER Subject
                                 to State Consistency Certification
08/16/88                        State Notified MMS that Could Neither
                                 Concur nor Object--Needed Information
                                 from Two FL/DOI Task Groups and State
                                 Requested Additional Information from
                                 Union
09/08/88                        Union Provided Additional Information
11/22/88                        State Objected to Union's Proposed Plan
                                 of Exploration (Inconsistent with State
                                 CMP--Unique ecosystem and socioeconomic
                                 effects not adequately considered)
12/21/88                        Union Filed Appeal to Secretary of
                                 Commerce and Requested 30 Day Extension
                                 from Briefing Schedule Issuance
03/09/89                        DOC Granted Union's Request for an
                                 Extension
03/29/89                        Federal Register Notice of Appeal and
                                 Request for Comments
04/19/89                        Union Filed Timely Brief for Appeal
04&05/89                        FL Newspaper Request for Comments on
                                 Appeal
04/28/89                        DOC Solicited Views of 5 Federal
                                 Agencies and the National Security
                                 Council
05/11/89                        DOC Granted State Time Extension for
                                 Response
05/24/89                        State Requested a Public Hearing on
                                 Issues from this Appeal and Companion
                                 Appeal of Mobil
06/02/89                        NOAA Granted State's Request
07/06/89                        State Filed Timely Brief in Response to
                                 Union's Appeal
09/89                           Local Hearings Held on Both Union and
                                 Mobil Appeals
10/12/89                        2 FL/DOI Task Group Reports Admitted to
                                 Record (``Oil Spill Risk Assessment
                                 Task Force Report'' & ``Southwest
                                 Florida OCS Drilling Impact Assessment
                                 Task Force Report'')
10/12&13/89                     Union Filed Supplemental Information to
                                 Its Appeal
10/15/89                        Record Closed to Public Comment
11/20/89                        Union, Mobil. and the State Mutually
                                 Agreed Secretary Should Delay
                                 Establishment of Final Briefing
                                 Schedule (until after release of
                                 President's Outer Continental Shelf
                                 Leasing and Development Task Force
                                 report--Unless report not released by
                                 end of January 1990)
04/06/90                        Secretary of Commerce established Final
                                 Briefing Schedule (President's Task
                                 Force Report not out)
05/21/90                        State Requested Stay of Briefing
                                 Schedule
05/22/90                        Union Opposed Stay
05/25/90                        Union and State Both Filed Timely Final
                                 Briefs
06/07/90                        DOC Denied Stay
06/08/90                        Union and State Both Filed Timely
                                 Supplemental Final Briefs
06/26/90                        President Imposed Moratorium on Oil and
                                 Gas Leasing and Development off Coast
                                 of Florida
01/07/93                        Secretary of Commerce Denies Union's
                                 Appeal--(Ground 1: Not consistent with
                                 the objectives of the CZMA due to the
                                 value of the environmental resources
                                 and the potential for significant
                                 damage if impacted by oil. Ground 2:
                                 National Security not significantly
                                 impaired.)



                      Timeline for Selected Appeals
 Mobil Exploration & Producing U.S. Inc. Consistency Appeal Pulley Ridge
05/13/88                        Mobil Submitted Proposed Plan of
                                 Exploration (and accompanying
                                 documents)
06/13/88                        MMS Determined Mobil's Plan and
                                 Accompanying Documents Complete
06/15/88                        State of Florida (Florida Dept. of
                                 Environmental Regulation) Began Review
                                 of Mobil's Consistency Certification
07/13/88                        MMS Approved Mobil's Plan, Environmental
                                 Report, Environmental Assessment and
                                 Informed Mobil that Drilling Permits
                                 Would Not be Issued Pending State
                                 Consistency Certification Review and
                                 MMS Approval of a Biological Monitoring
                                 Plan
09/12/88                        State Notified MMS that Could Neither
                                 Concur nor Object--Needed Information
                                 from Two FL/DOI Task Groups
12/14/88                        State Objected to Mobil's Proposed Plan
                                 of Exploration and Accompanying
                                 Documents (Proposed activity
                                 inconsistent with the provisions of
                                 Florida statutes.)
1/12/89                         Mobil Filed Appeal to Secretary of
                                 Commerce and Requested 30 Day Extension
                                 from Briefing Schedule Issuance
03/09/89                        DOC Granted Mobil's Request for an
                                 Extension
03/29/89                        Federal Register Notice of Appeal and
                                 Request for Comments
04/19/89                        Mobil Filed Timely Brief for Appeal
04&05/89                        FL Newspaper Request for Comments on
                                 Appeal
04/28/89                        DOC Solicited Views of Federal Agencies
                                 and the National Security Council
05/22/89                        State Requested a Public Hearing on
                                 Issues from this Appeal and Companion
                                 Appeal of Union
06/02/89                        NOAA Granted State's Request
06/15/89                        State Filed Timely Brief in Response to
                                 Mobil's Appeal
09/89                           Local Hearings Held on Both Mobil and
                                 Union Appeals
10/12/89                        2 FL/DOI Task Group Reports Admitted to
                                 Record (``Oil Spill Risk Assessment
                                 Task Force Report'' & ``Southwest
                                 Florida OCS Drilling Impact Assessment
                                 Task Force Report'')
10/12/89                        Mobil Filed Supplemental Information to
                                 Its Appeal
10/15/89                        Record Closed to Public Comment
11/20/89                        Mobil, Union, and the State Mutually
                                 Agreed Secretary Should Delay
                                 Establishment of Final Briefing
                                 Schedule (until after release of
                                 President's Outer Continental Shelf
                                 Leasing and Development Task Force
                                 report--Unless report not released by
                                 end of January 1990)
04/06/90                        Secretary of Commerce established Final
                                 Briefing Schedule (President's Task
                                 Force Report not out)
05/21/90                        State Requested Stay of May 25, 1990
                                 Final Brief Filing and June 8, 1990
                                 Supplemental Final Brief Filing
                                 Deadlines
05/22/90                        Mobil Opposed Stay
06/07/90                        DOC Denied Stay
06/26/90                        President Imposed Moratorium on Oil and
                                 Gas Leasing and Development off Coast
                                 of Florida
01/07/93                        Secretary of Commerce Denies Mobil's
                                 Appeal--(Ground 1: Not consistent with
                                 the objectives of the CZMA due to over-
                                 all adverse effects presumed to be
                                 substantial. Ground 2: National
                                Security not significantly impaired.)



    Dr. Kitsos. I think that if the proposed rule becomes final 
you will see those time limits reduced substantially. One of 
the--my sense of the data that you just quoted, Senator--and I 
would need to get back to you with a more detailed response for 
the record. But one of the issues in the 1996 amendments was 
that there was no time limit on when the Secretary of Commerce 
could close the record. Once the record was closed, then there 
were clear time limits.
    The Chairman. We were told at the time that they would 
decide what was a reasonable time. Do you remember that?
    Dr. Kitsos. Yes. I was not involved in that, but I do know 
a little bit about the history of that. But the record was kept 
open apparently in a number of cases longer than what others 
might consider a reasonable amount of time.
    The proposed rule does address that, though, and would put 
clearer time limits on the Secretary to close the record.
    The Chairman. Well, as Senator Snowe said, the energy 
provisions are unacceptable. One establishes a deadline for 
decision on appeals of a consistency determination. You have 
just said you are ready to set a deadline of a year; is that 
right?
    Dr. Kitsos. Well, it is approximately a year. There is 30 
days to notify. I believe the rule says 30 days to notify 
everyone that an appeal has been received. The record is kept 
open for 270 days for the Secretary to gather the material that 
he needs, and then he must issue a decision within 90 days 
after that.
    The Chairman. Unless he decides to add 45 days more.
    Dr. Kitsos. Exactly. But that would----
    The Chairman. The other amendment is that the FERC record 
be the sole record for the administrative agency proceedings 
for application for authorization of offshore LNG or natural 
gas pipelines. That is highlighting what I have just said. That 
is the most critical problem facing the United States today, is 
how to get those onshore plants--how to get that LNG, natural 
gas--onshore. And we are to see at least a year and a half just 
on this kind of decision? There are lots of other decisions 
that have to be made about the pipelines beyond the CZMA 
hearing.
    So these are going to just pyramid. It takes so much time 
for that, it will take so much time for endangered species, so 
much time for whatever else. There are a whole series of things 
you have to do. They told me you have to have 71 permits to 
drill a well in my State on Federal land. Now, if every one of 
those agencies takes that year, I am going to be Carl Hayden's 
age before we even approve the first application.
    Dr. Kitsos. Senator, the Department of Commerce and NOAA is 
of course committed to the President's support for the energy 
legislation and for streamlining the process. We believe that 
we have, in the regulatory discussions we have had with the 
Interior Department, done a job of addressing that and reducing 
the amount of time that consistency appeals can be issued.
    The Chairman. How about some immediate finding as to 
whether the complaint has merit? This has no relationship at 
all to the kind of hearing that has to be had in the future, 
which is, does this complaint have any merit? Is it something 
that is within the law that you possibly could find as a 
justification for delaying an offshore gas pipeline or LNG 
pipeline?
    Why not do that? I think we will have to some day legislate 
that you can not interfere with those, because the future of 
the country depends upon energy and I do not know how we are 
going to get this gas distributed throughout the United States 
if we have to go to Mexico and Canada or Maine to deliver it to 
Florida or to Washington State.
    This hearing is a very sincere hearing to try and find a 
way to pave the way for an agreement with the Energy Committee 
on how to do this.
    Dr. Kitsos. Well, the consistency provision appeal process 
involves a private applicant bringing an appeal to the 
Secretary of Commerce. The Secretary of Commerce will make a 
judgment when that is received. It is not an appeal brought by 
the States, Senator. It is an appeal brought in this case by--
--
    The Chairman. I understand that, but anybody can bring it, 
and it triggers at least a year delay under your process.
    Dr. Kitsos. It triggers a year of a review of the appeal of 
the merits of the case and whether the Secretary should 
override the State or should uphold the State. That has been 
the process since 1972 when the original CZMA was passed. It 
was reinforced by some strong amendments in 1990 by Congress 
and that is the way the process works. We believe we can cut 
down the amount of time and that is what we have in the 
potential rule that is currently being considered.
    The Chairman. Thank you.
    Senator Snowe. Senator Nelson.
    Senator Nelson. Thank you, Madam Chairman.
    I would like to ask Dr. Cruickshank. In the House energy 
bill it includes a provision that would give the Secretary of 
the Interior new authority to grant easements and rights-of-way 
to allow oil and gas activities to proceed in an expedited 
manner. My question is, since this is a provision that was not 
recommended by either the U.S. Ocean Commission report or the 
Pew Commission report, is it a provision that the 
Administration and the Secretary of Interior support?
    Dr. Cruickshank. Yes, Senator Nelson, the Administration 
does support that provision. I would note that the activities 
foreseen by that provision are activities that are not 
currently authorized under any act, particularly to look for 
offshore renewable energy, to allow support facilities for 
deepwater activities in the Gulf of Mexico, and to allow 
existing oil and gas platforms, which are primarily in the 
Gulf, to be converted for other uses should the agency with the 
underlying authority wish to use that platform as a base.
    All of these activities will be fully subject to the 
Coastal Zone Management Act and consistency review.
    Senator Nelson. Right, but it is a change of the existing 
act and the Administration, as you stated, does support that 
change. Now, as I see it it would streamline the permitting 
process by decreasing the input that coastal States would have 
on the process; is that correct?
    Dr. Cruickshank. I do not see that, Senator. For most of 
these activities right now there is no established process. 
These are for activities that are not currently specifically 
authorized in law, and again the State would have a role, both 
through the CZMA and through NEPA, and our goal would be to try 
and operate the program, much as we do with the sand and gravel 
program, where we would enter into cooperative agreements with 
States to try and work through the issues that are of concern 
to them off their shores.
    Senator Nelson. Well, this provision supported by the 
Administration would cut NOAA out of the process, would it not?
    Dr. Cruickshank. It would not--it would not remove any 
authority that any Federal agency currently has.
    Senator Nelson. And you maintain that this provision would 
not lessen the authorities of States to be able to protect 
their coastlines?
    Dr. Cruickshank. That is correct.
    Senator Nelson. That is what you are maintaining?
    Dr. Cruickshank. Yes.
    Senator Nelson. Then why are you proposing the change in 
the existing law?
    Dr. Cruickshank. Because right now there is no law that 
specifically allows--that specifically addresses energy 
projects other than oil and gas exploration and development. 
And as has been noted both in the U.S. Commission on Ocean 
Policy report and in the President's Ocean Action Plan, there 
does need to be some sort of governance structure over some of 
the activities that are being proposed for the coastal waters 
and offshore waters.
    Senator Nelson. Right, so the provision is specifically for 
oil and gas.
    Dr. Cruickshank. No. It is aimed mostly at renewable 
energy. The only oil and gas items that would be covered is 
there have been requests to build platforms or facilities in 
the Gulf of Mexico to support some of the activities that are 
150, 200 miles offshore; facilities that might house emergency 
medical facilities, helicopter refueling, things like that; and 
support activities that are authorized under other provisions, 
other parts of the OCS Lands Act.
    That is the only--where there is a reference to oil and gas 
in this new provision, it is thinking about facilities like 
that. It would not in any way change the Outer Continental 
Shelf Lands Act provisions for oil and gas leasing.
    Senator Nelson. So your testimony is that the provisions 
have nothing to do with oil and gas leasing?
    Dr. Cruickshank. That is correct.
    Senator Nelson. On the outer continental shelf.
    All right. There is another provision that makes FERC the 
sole agency responsible for maintaining the record on appeal 
for pipeline construction. This is an activity that would come 
under the CZMA consistency requirements and includes a record 
with input from the State and the public. Does this provision 
lessen the State and public involvement in the process and does 
it cut the CZMA and the Secretary of Commerce out of the 
process?
    Dr. Cruickshank. Senator, I am not in a position to speak 
for FERC and I am not well enough aware of their programs. I 
would say from the Department of the Interior's perspective we 
feel that the issues can be dealt with through the rulemaking 
process, as Dr. Kitsos has discussed.
    Senator Snowe. To follow up on that question that Senator 
Nelson posed on restricting the gas projects appeals to the 
FERC record of information, what information would be--is it so 
open-ended now that it becomes burdensome?
    Dr. Cruickshank. Again, I cannot speak for the FERC 
process. FERC is not part of the Department of the Interior and 
I simply do not have the background to be able to talk about 
how FERC conducts their business.
    Senator Snowe. But that is central to this program and its 
reauthorization. It is one of the other impediments to 
reauthorizing the Coastal Zone Management Act, as one of the 
issues that is probably going to be pending in the energy 
markup.
    Dr. Kitsos, can you speak to that?
    Dr. Kitsos. Carefully. There is an issue in the energy 
bill, Senator, regarding the record that would be available to 
the Secretary of Commerce for consistency appeals, the 
discussion that Senator Stevens and I just had. There is a 
provision that would limit that record to just the FERC record.
    The Department of Commerce and NOAA is concerned about that 
because we believe the Secretary of Commerce needs to make a 
consistency decision based on a broader record based on coastal 
zone management issues and principles and the enforceable 
policies of the States, as CSO has just testified. The FERC 
record is important for FERC. The offshore oil and gas record 
is important to the Secretary of the Interior. But the 
Secretary of Commerce has other grounds based on statutory 
language on which he or she must make a decision about an 
appeal, whether to override or whether to sustain. We are 
concerned about limiting that record.
    Senator Snowe. Ms. Cooksey?
    Ms. Cooksey. I would like to reiterate that point. You are 
asking an excellent question that I also would like the answer 
to. I do not know what is going to be required to be in that 
record and that is a concern. We do not know what the decision 
will be made upon. Will it be about coastal effects, coastal 
economy, coastal resources?
    The Chairman. Could I interject here?
    Senator Snowe. You may, Chairman Stevens.
    The Chairman. Why could not these two proceedings be 
joined? Why do we have to have these things seriatim? You have 
an application to one agency, we go through a year, then it has 
to go to another agency for a year, then we will probably have 
a NEPA hearing after that. Why can we not have one-stop 
shopping on something that is so essential to the future of the 
country?
    We are not talking about leasing. We are talking about 
facilities, facilities to bring onshore energy. Now, I just 
cannot understand why each Department and each agency wants its 
full time one after the other. I think once an application is 
filed with FERC we should tell them: You notify Interior, you 
notify Commerce, you notify anyone who has got a law that might 
be applicable to this, and you join together and you have a 
hearing and you make a decision. And that will be reviewable by 
a court on an emergency basis if necessary.
    This has to be done. It will take 6 years to build those 
facilities and they have to be ready by 2015. I just do not 
understand it.
    Ms. Cooksey, with due respect, there has to be some way to 
join these things together.
    Ms. Cooksey. Senator Stevens, I agree with you. I think 
that FERC should have started this process years ago and I 
think that they should have looked at it minimally on a 
regional level. Where is the place to site these? Which States 
want these? Where will it have the least amount of impact?
    I have not seen that. It is a patchwork quilt. Then an 
application lands on my desk with an expedited review and it 
becomes burdensome upon the States to get all that information 
together. I believe the Federal Government has dropped the ball 
on this, not the States.
    Senator Snowe. Well, what should be the requirement on the 
Federal Government? What could we do differently that would 
help that situation?
    Ms. Cooksey. Again, in my view I believe it is the Federal 
Government's role to take a look nationwide. Where should these 
be sited?
    Senator Snowe. That is a difficult question, given the fact 
that you are talking about States' rights.
    The Chairman. Yes, the basic problem is--I agree with the 
chairman.
    Ms. Cooksey. That would be part of--that would be included 
in the analysis. The State of Delaware has a prohibition of 
certain facilities in certain areas, and FERC should have 
looked at that ahead of time in my view.
    Senator Snowe. But is there not a better way? You really 
would be running roughshod over States' rights--I do not think 
that would work well in my State. But is there not another way 
of addressing the problems that Chairman Stevens is talking 
about? You have a sort of a linear, consecutive approach, 
rather than having an overarching one-stop shopping regulatory 
process with respect to the consideration of these decisions 
and the appeal process.
    Is there a way of doing that, Dr. Kitsos--a way so that you 
are considering everything?
    Dr. Kitsos. I think there is a way, Senator, for the 
Federal family to work more concurrently, along the lines of 
what Senator Stevens has indicated.
    The Chairman. I suggest that as chairman I ask Senator 
Domenici for consultation between the two committees and let us 
just get together. Our two committees have the jurisdiction 
over what is being asked and I think we should not fight. We 
should find a way to expedite this and satisfy the requirements 
of having some sort of right to appeal on consistency, but get 
it done.
    Dr. Kitsos. I think that is possible, Senator. Our concern 
is to make sure that the States' rights are protected under the 
CZMA, but that there is a way to do this expeditiously.
    Senator Snowe. I could not agree with you more.
    Yes, Senator Nelson, any final questions?
    Senator Nelson. Dr. Kitsos, in your prepared testimony you 
note that CMZA--CZMA has been successful and that States have 
concurred with 95 percent of the Federal actions reviewed. Do 
you think the Secretary of Commerce has done a good job 
balancing the Nation's interests with the coastal States' 
management programs in the appeals process?
    Dr. Kitsos. I think the Secretaries of Commerce throughout 
the years have done a wonderful job, Senator, in balancing.
    Senator Nelson. So you do not think that taking this 
responsibility away from the Secretary of Commerce to give to 
the Secretary of the Interior is a good idea, do you?
    Dr. Kitsos. We believe that the Secretary of Commerce 
should retain the appeal authority under the original 
legislation that has been supported for about 33 years by the 
Congress. The CZMA program is a Department of Commerce NOAA 
program and, as I indicated in my earlier response, the basis 
of decisions about appeals are particular to the question of--
the principles and the purposes and the policies of coastal 
zone management. Giving that authority to other secretaries 
would lose expertise in the history of the development of the 
CZM program in the Department of Commerce. We believe that an 
objective third party like the Secretary of Commerce should be 
making that decision on appeals that come to him or her.
    I would note, though, that many appeals do not come. They 
are worked out ahead of time, and those that are eventually--
most consistency issues are resolved without having to appeal.
    Senator Nelson. So you believe that a consistency 
provision, a Federal consistency provision, is an important 
part of the CZMA and it is an important tool for States to 
manage their coastlines?
    Dr. Kitsos. It is an extremely important tool for the 
States. I believe CSO would support that statement. CZMA is 
basically a program that gives States--is a voluntary program 
that encourages States to participate based on two things. One 
is a modest amount of money to carry out their program. Second 
is the authority they get under Federal consistency.
    As a result, almost all States now are participants.
    Senator Nelson. You would testify that the Federal 
consistency provision is an important tool because it allows 
for broad definition on what effects on land, water, natural 
resources triggers the CZMA consistency determination; is that 
correct?
    Dr. Kitsos. It gives States the opportunity to declare to 
Federal agencies who are about to take an action or issue a 
permit or a license that the actions are consistent or are not 
consistent with the enforceable policies of a State program. 
That has been a basic principle of CZMA from the very 
beginning. We think it is important.
    Senator Nelson. And effects are not just environmental, but 
also involve effects on coastal uses; is that correct?
    Dr. Kitsos. That is correct.
    Senator Nelson. And indirect effects as well as direct 
effects that are reasonably foreseeable trigger consistency 
determinations; is that correct?
    Dr. Kitsos. That is also correct, and that is based on 
amendments made in 1990 to the CZMA to clarify that issue. What 
you have just said is correct.
    Senator Nelson. Then is it true that limiting the 
geographic scope of a State's Federal consistency jurisdiction 
would weaken a State's current ability under the consistency 
provision?
    Dr. Kitsos. Well, this is a very tricky issue, Senator. 
There are safeguards in NOAA's current regulations that would 
constrain a State from going too far afield from making 
consistency claims. But Congress did make it clear in 1990 that 
the effects test is the basis on which consistency should be 
triggered, and an action, no matter where it may occur, if it 
affects the land and water use and the natural resources of the 
coastal zone, is subject to the consistency review of that 
State. That has been a principle that has been in effect for a 
long time, the subject of the rulemaking by NOAA in 2000, and 
also the basis on which the current negotiations for a change 
to the rule is based.
    Senator Nelson. You and I were a member of the House when 
we passed that 1990 act.
    Senator Snowe. That is right. Yes, a few years ago.
    The Chairman. If I could enter into that just one comment, 
I was a member over here, too. But our understanding was just 
what Dr. Kitsos just said, that we would not have a situation 
where Rhode Island or Massachusetts could have an input in what 
happened off Maine.
    Dr. Kitsos. Well, there is an interstate consistency 
regulation that NOAA had promulgated some years ago for dealing 
with activities in the coastal zone of one State vis-a-vis the 
coastal zone of another State. That is part of the development 
of the rules and regulations.
    There is also additionally the issue of the effects of 
activities in Federal waters and that is the consistency issue, 
Senator. That is the 1990 amendments that I referred to before, 
and if there is an effect--if there is activity off of State A 
that has an effect on the land and water uses of State B in 
their coastal zone, State B would have some authority to 
exercise consistency.
    There are details that I would like to provide you for the 
record that constrain that to some extent. States have to 
declare geographic locations where activities are subject to 
consistency, but the basic principle of where is the effect 
still obtains.
    Senator Nelson. Madam Chairman, as a follow-up to that, 
therefore, on the basis of what you just said, if the State of 
Louisiana or the State of Mississippi or Alabama were to redraw 
their lines as to the oil and gas drilling so that in fact it 
was off the coast of Florida----
    The Chairman. How far off?
    Senator Nelson.--therefore that would have or trigger the 
consistency requirement of State A and B that you just 
outlined?
    Dr. Kitsos. I do not think the States of Louisiana and 
Alabama could redraw their lines.
    Senator Nelson. Well, they are going to try tomorrow in the 
Energy Committee.
    The Chairman. Again, how far are you talking about?
    Senator Nelson. We will see how they draw the lines.
    The Chairman. How far off the shore does Florida claim?
    Senator Nelson. I think what you are going to see is the 
prohibition that has been worked out between the Federal 
Government and the Governor of Florida on Lease Sale 181, that 
was 6 million acres proposed for lease and the Governor of 
Florida got into it and constricted it back to 1.5 million 
acres so that it was off of Alabama, not off of Florida, I 
think you are going to see that attempted to be redrawn 
tomorrow in the Senate Energy Committee by Senator Landrieu's 
amendment.
    Senator Snowe. Just a couple points and then Senator 
Lautenberg is here.
    On these limits on this Federal appeals process and the 
consistency and the comment period, I have heard in some 
cases--I do not know if it was in the House legislation--that 
these limits would be retroactive, applying to appeals made 
before and after enactment of the legislation.
    Dr. Kitsos. I am not familiar with all the details in 
H.R.----
    Senator Snowe. How onerous would that be, above and beyond 
everything else, to limit the comment period? And to make it 
retroactive to other appeals?
    Dr. Kitsos. I think that would be a difficult process for 
the Department to adhere to.
    Senator Snowe. One other question. On the effects test, is 
it clarifying what activities trigger consistency? Has that 
been a hindrance at all in this process?
    Dr. Kitsos. Well, I think you may hear some witnesses 
following us that will argue that it has not been very helpful. 
On behalf of the Department, I think it helped to clarify what 
activities trigger consistency. Prior to 1990 there was a 
phrase in the law that said ``activities that directly affect 
the coastal zone'' and that was subject to some dispute. That 
helped clarify that, the 1990 amendments helped clarify that 
particular issue.
    Senator Snowe. Thank you.
    Senator Lautenberg.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks, Madam Chairman. I am going to 
use my time to just make my statement and I assume that the 
record will be kept open long enough for us to submit questions 
in writing. I thank you for holding this hearing.
    People might not think that Maine and New Jersey have much 
in common. Apparently Louisiana and Florida and Alabama have a 
lot in common when it comes to getting out there and poking 
holes in the seabase, looking for oil, et cetera.
    We insist that proper management of the coastal area is 
vitally important. I know that it is in Maine and so it is in 
New Jersey. Coastal areas for us provide economic activity, 
jobs from tourism to fishing, and our shore accounts for 70 
percent of my State's $30 billion tourist industry. The U.S. 
Commission on Ocean Policy estimates that economic activity in 
our Nation's oceans and along our coastline accounts for $1 
trillion a year and that is 10 percent of our Nation's GDP.
    Coastal economies are booming. Try and get your car through 
some of these communities and you will find out how booming it 
is. The population is skyrocketing in our coastal areas. Over 
the next 7 years, population growth in my State, the most 
densely populated State in the Union, in four coastal counties 
is projected to be about 44 percent greater than the State as a 
whole.
    This coastal population explosion is not unique to New 
Jersey. 54 percent of all Americans now live in 772 coastal 
counties adjacent to our Nation's shorelines. In 20 years 
nearly 75 percent of Americans are expected to live in coastal 
counties. As our population becomes more concentrated along the 
coastlines, we exert new pressures on our fragile coastal 
environment and our resources. Almost every day we hear now of 
strange algae blooms in our bays, our fish kills, our houses 
plunging into the sea from an eroding beach.
    So I do not think Congress has any option but to strengthen 
the Coastal Zone Management Act. The act has played an 
important role in protecting our coastlines. In my State, for 
example, it has enabled the development of the Jacques Cousteau 
National Estuarine Research Reserve System, which has been 
extremely productive in terms of coastal research and 
monitoring the coastal environment.
    So Senator Snowe's CZMA reauthorization bill increases 
funding for coastal management plans and I applaud that. I also 
hope that the funding formula will be revised to reflect 
coastal population growth. We have got to protect the rights of 
States regarding what happens in their offshore areas, 
especially in the outer continental shelf.
    So, Madam Chairman, I thank you for holding the hearing and 
I look forward to hearing the panel.
    [The prepared statement of Senator Lautenberg follows:]

            Prepared Statement of Hon. Frank R. Lautenberg, 
                      U.S. Senator from New Jersey
    Madame Chairman, thank you for convening this hearing on this 
important issue.
    While people might not normally think that Maine and New Jersey 
have much in common, we realize that the proper management of coastal 
areas is vitally important to both our home states.
    Coastal areas provide economic activity and jobs, from tourism to 
fishing to trade. The New Jersey shore accounts for 70 percent of my 
state's $30 billion dollar tourism industry.
    The U.S. Commission on Ocean Policy estimates that economic 
activity in our nation's oceans and along our coastlines accounts for 
one trillion dollars a year--ten percent of our nation's GDP. Coastal 
economies are booming--and the population in our coastal areas is 
skyrocketing. Over the next seven years, population growth in New 
Jersey's four coastal counties is projected to be about 44 percent 
greater than in the state as a whole.
    This coastal population explosion is not unique to New Jersey. 
Fifty-four percent of all Americans now live in 772 coastal counties 
adjacent to our nation's shorelines. In 20 years, nearly 75 percent of 
Americans are expected to live in coastal counties.
    As our population becomes more concentrated along our coastlines, 
we exert new pressures on our fragile coastal environment and 
resources. Almost every day we hear of strange algae blooms in our 
bays, or fish kills, or houses plunging into the sea from an eroding 
beach.
    I believe Congress has no option but to strengthen the Coastal Zone 
Management Act (CZMA). The CZMA has played an important role in 
protecting our coastlines. In my state, for example, it has enabled the 
development of the Jacques Cousteau National Estuarine Research Reserve 
system, which has been extremely productive in terms of coastal 
research and monitoring the coastal environment.
    Senator Snowe's CZMA reauthorization bill increases funding for 
coastal zone management plans, which I applaud. I also hope that the 
funding formula will be revised to reflect coastal population growth. 
We also must protect the rights of states regarding what happens in 
their offshore areas. especially the outer continental shelf.
    Thank you Madame Chairman. I look forward to the testimony.

    Senator Snowe. I thank you, Senator Lautenberg, and thank 
you as well for supporting the legislation. I appreciate it.
    I also thank the witnesses. Our debate and discussion on 
these issues will continue. We appreciate your input. We will 
be following up on many of these issues that ultimately could 
determine whether or not we can get this reauthorized as we 
continue. I thank you.
    Ms. Cooksey. Thank you for inviting us.
    Senator Snowe. Thank you.
    Our second panel: Ms. Sarah Chasis, Director of the Natural 
Resources Defense Council Water and Coastal Program; Tom Fry, 
President of the National Ocean Industries Association; Mr. 
Bill Jeffress, Director of the Office of Project Management and 
Permitting in the Alaska Department of Natural Resources; and 
Dr. Don Hudson, Chair-elect of the Gulf of Maine Council on the 
Marine Environment. Welcome.
    I welcome all of our panelists and I would ask you to 
summarize your statements. We will include your entire 
statement in the record, and we will begin with you, Ms. 
Chasis. Thank you for being here.

              STATEMENT OF SARAH CHASIS, DIRECTOR,

                   WATER AND COASTAL PROGRAM,

               NATURAL RESOURCES DEFENSE COUNCIL

    Ms. Chasis. Thank you very much, Senator Snowe, and thank 
you also to Senator Stevens and Senator Lautenberg. We know how 
incredibly busy you all are and we very much appreciate your 
taking the time to hold this hearing and consider 
reauthorization of the Coastal Zone Management Act.
    I am testifying on behalf of NRDC, the Natural Resources 
Defense Council, today. NRDC is very supportive of your bill, 
Senator Snowe, S. 360. We think it is important for this 
committee to reauthorize and strengthen the CZMA, as that bill 
would do. We are seeing increasing pressures on our Nation's 
coastal resources and the CZMA provides a valuable framework 
for addressing both ongoing and emerging issues facing the 
coastal regions of the country.
    The Federal Government provides funding, oversight, and the 
promise of Federal consistency. In exchange, the States 
voluntarily develop and implement Federally approved programs 
that address important issues facing the coastal zone, an area 
of recognized national importance both ecologically and 
economically.
    The Pew Ocean Commission, on which NRDC's President John 
Adams served and on which Pat White from your State, Senator 
Snowe, also served, a lobster fisherman, recognized the 
importance of the CZMA and recommended that the act be expanded 
to encourage coastal habitat protection and more active State 
and local growth management efforts. We are pleased to see that 
S. 360 responds to both of these recommendations.
    The U.S. Commission on Ocean Policy recommended that 
Congress reauthorize the CZMA to strengthen the planning and 
coordination capabilities of the States and enable them to 
incorporate a coastal watershed focus and more effectively 
manage growth. Again, S. 360 would address many of these 
recommendations.
    The President's U.S. Ocean Action Plan also states its 
support for reauthorization of the CZMA.
    The Chairman. Would you pull that mike up just a little?
    Ms. Chasis. Sorry, Senator Stevens. You cannot hear me? I 
will try to speak more loudly.
    I would like to turn my brief oral remarks to concerns we 
have with various legislative proposals not included in S. 360 
that are currently under consideration by Congress and that, if 
adopted, would substantially weaken a key element of the CZMA, 
the Federal consistency requirements. It is noteworthy that 
neither the Pew Oceans Commission nor the U.S. Commission on 
Ocean Policy recommended altering the Federal consistency 
provisions of the CZMA. Indeed, the U.S. Commission 
specifically said, ``Existing incentives for State 
participation, Federal funding and Federal consistency 
authority, should remain.''
    The National Governors Association recently took a strong 
stand in support of retaining the current Federal consistency 
provisions, and in their revised policy statement they said the 
following: ``The Governors oppose any legislation or rulemaking 
that might weaken the CZMA requirements for coordination and 
consistency, such as limiting the geographic scope of the 
States' Federal consistency jurisdiction, limiting the ability 
to receive and analyze adequate environmental data and 
information, or limiting the development of the appeals record 
in a manner that would place States at a disadvantage or 
discourage negotiated resolution of appeals.''
    Yet many of the legislative proposals would do exactly 
this. They would limit the geographic scope of the States' 
Federal consistency jurisdiction, for example by taking away 
the rights of States to consistency review for lease sales more 
than 20 miles from the State's coastal zone. They would limit 
the ability to receive and analyze adequate environmental data 
or information, for example by putting FERC in charge of 
setting a mandatory timetable for completion of all Federal and 
State reviews, including consistency reviews, and giving one 
agency, such as FERC, the exclusive charge of compiling a 
single administrative record for all Federal and State 
decisions.
    They would limit the development of the appeals record in a 
manner that would place States at a disadvantage or discourage 
negotiated resolution of appeals, for example by setting 
unreasonable timeframes that may preclude consideration of 
relevant environmental information in environmental impact 
statements or in biological opinions under the Endangered 
Species Act.
    According to NOAA, in the history of the CZMA there have 
been only 14 instances where the oil and gas industry appealed 
a State's Federal consistency objection to the Secretary of 
Commerce and the Secretary issued a decision. Of these 14 
cases, there were 7 decisions to override the State's 
objections, 7 decisions not to override.
    According to NOAA, and I quote: ``The record shows that 
energy development continues to occur while reasonable State 
review ensures that the CZMA objectives have been met.''
    We oppose legislation that would weaken the consistency 
provisions of the CZMA and urge members of this committee to 
ensure that such legislation is not enacted.
    Thank you very much and I would be happy to entertain 
questions.
    [The prepared statement of Ms. Chasis follows:]

    Prepared Statement of Sarah Chasis, Director, Water and Coastal 
               Program, Natural Resources Defense Council
    Thank you for this invitation to testify regarding S. 360, the 
``Coastal Zone Enhancement Reauthorization Act of 2005.'' This 
testimony is submitted on behalf of the Natural Resources Defense 
Council (NRDC). NRDC is a national nonprofit organization with over 
550,000 members, dedicated to protecting natural resources and 
improving the quality of the human environment. I am a senior attorney 
with NRDC and Director of NRDC's Water and Coastal Program.
Introduction: Support for S. 360
    NRDC has been involved with the Coastal Zone Management Act (CZMA) 
since the mid-1970s. During this time, we have worked with NOAA, the 
states and other environmental groups on the development and 
implementation of state coastal zone management programs. We have 
supported reauthorization and strengthening of the Act. Following the 
1990 amendments to the CZMA, we participated in the implementation of 
the Coastal Nonpoint Pollution Control Program--because of the need for 
enhanced control over polluted runoff into coastal waters--and in the 
revision of the Federal consistency regulations to conform to the 1990 
amendments.
    NRDC strongly supports passage of S. 360. This bill would 
reauthorize and strengthen the CZMA at a time of increasing pressure on 
our nation's coastal resources. The CZMA provides a valuable framework 
for addressing both ongoing and emerging issues facing the coastal 
regions of our country. The Act represents a valuable partnership 
between the Federal Government and the states: the Federal Government 
provides funding, oversight and the promise of Federal consistency; in 
exchange, the states voluntarily develop and implement Federally 
approved programs that address important issues facing the coastal 
zone--an area of national importance, both ecologically and 
economically. We believe continuation of this partnership is important 
to the Nation and that the Act should be reauthorized.
Two Ocean Commissions and the President's U.S. Ocean Action Plan all 
        Support Reauthorization of the CZMA
    The Pew Oceans Commission (America's Living Oceans: Charting a 
Course for Sea Change, May 2003), the U.S. Commission on Ocean Policy 
(An Ocean Blueprint for the 21st Century, September 2004) and the 
President (U.S. Ocean Action Plan) all have supported reauthorization 
of the CZMA.
    The Pew Ocean Commission, on which NRDC's President John Adams 
served, recognized the importance of the CZMA and recommended that the 
Act be expanded to include a mandate for coastal habitat protection. 
POC Report at 118-119. The Commission also recommended encouraging more 
active state and local growth-management efforts, as well as 
coordination of efforts among local jurisdictions and adjacent states 
to ensure a rational regional approach. POC Report at 119. S. 360 
responds to both of these recommendations. It encourages a focus on 
coastal habitat protection and restoration in Section 8 of the bill 
(amending Section 306A, the Coastal Resource Improvement Program). In 
Section 11, S. 360 establishes a whole new program (Section 309A of the 
CZMA) to provide coastal community grants to encourage state and local 
communities to, among other things, assess and manage growth, public 
infrastructure and open space needs in order to provide for sustainable 
growth, resource protection and community revitalization.
    The U.S. Commission on Ocean Policy recommended that Congress 
reauthorize the CZMA to strengthen the planning and coordination 
capabilities of the states and enable them to incorporate a coastal 
watershed focus and more effectively manage growth. To this end, the 
U.S. Commission recommended including requirements for periodic 
resource assessments by each state, the development by each state of 
measurable goals and performance standards, improved program 
evaluations to measure state progress against these goals and 
standards, incentives for good performance and disincentives for 
inaction and expansion of state boundaries to include coastal 
watersheds. U.S. COP Report at 154-155. The Commission also recommended 
amending the Act to provide better financial, technical, and 
institutional support for watershed management activities. U.S. COP 
Report at 160. S. 360 responds to some, though not all, of these 
recommendations. It would be worthwhile for this Committee to consider 
incorporating more of these recommendations in S. 360.
    The President's U.S. Ocean Action Plan also states its support for 
reauthorization of the CZMA. Plan at 27.
Additional Comments on S. 360
    We are generally supportive of language that encourages states to 
devote a meaningful portion of their CZM money to curbing polluted 
runoff into coastal waters. In the past, we have supported having a 
specific percentage of the Section 306/306A/309 grant money spent on 
implementation of the Coastal Nonpoint Pollution Program in order to 
achieve needed progress in addressing water quality. We regret that 
there is nothing requiring this in S. 380. However, we do note and are 
supportive of language in Section 17 of S. 380 that would ensure that 
at least of portion of the new coastal community grants is spent on 
implementation of approved coastal nonpoint pollution control 
strategies and measures. (We recommend that it should be made clear 
that a state may spend more on these strategies should it so desire.) 
We strongly recommend that more money be provided to the states for 
implementation of the important Coastal Nonpoint Pollution Control 
Program.
Concerns With Respect to Other Legislation
    We are very concerned about various legislative proposals--not 
included in S. 360--that are currently under consideration that, if 
adopted, would substantially weaken a key element of the CZMA, the 
Federal consistency requirements. There are various proposals now 
before Congress to modify the Federal consistency appeals process and/
or to limit the geographic scope of the consistency requirement (see, 
for example, S. 726 and H.R. 6).
    It is noteworthy that neither the Pew Ocean Commission nor the U.S. 
Commission on Ocean Policy recommended altering the Federal consistency 
provisions of the CZMA. Indeed, the U.S. Commission specifically said: 
``Existing incentives for state participation--Federal funding and 
Federal consistency authority--should remain*.'' U.S. COP Report at 
155.
    The National Governors Association (NGA) recently took a strong 
stand in support of retaining the current Federal consistency 
provisions. NGA's recently revised ocean-related policy Ocean and 
Coastal Zone Management (transmitted to the Chairman and Ranking Member 
of this Committee on March 18, 2005) states that:
    ``The Governors urge Congress to retain all provisions of the act 
that ensure all Federal activities within or outside the coastal zone 
that may affect the coastal zone are subject to the consistency review 
process. The Governors firmly believe that all Federal actions in the 
coastal zone--or affecting any natural resources, land uses, or water 
uses in the coastal zone--should be fully consistent with approved 
coastal zone management plans. Consultation with states should begin 
early in the permitting and environmental impact assessment process. 
The Governors oppose any legislation or rulemaking that might weaken 
the CZMA requirements for coordination and consistency, such as:

  <bullet> limiting the geographic scope of the states' Federal 
        consistency jurisdiction;

  <bullet> limiting the ability to receive and analyze adequate 
        environmental data and information; or

  <bullet> limiting the development of the appeals record in a manner 
        that would place states at a disadvantage or discourage 
        negotiated resolution of appeals.''

    NGA Ocean and Coastal Zone Management Policy Position 10.4.3. 
(Emphasis added).
    Yet many of the legislative proposals would do exactly what the 
Governors oppose: limit the geographic scope of the states' Federal 
consistency jurisdiction (for example, by taking away the rights of 
states to consistency review for lease sales more than 20 miles from 
the state's coastal zone); limit the ability to receive and analyze 
adequate environmental data or information (for example, by putting 
FERC in charge of setting the mandatory timetable for completion of all 
Federal and state reviews, including consistency reviews, and giving 
one agency, such as FERC or MMS, the exclusive charge of compiling a 
single administrative record for all Federal and state decisions); and 
limit the development of the appeals record in a manner that would 
place states at a disadvantage or discourage negotiated resolution of 
appeals (for example, by setting unreasonable timeframes for appeal 
decisions that may preclude consideration of relevant environmental 
information in EIS's or Biological Opinions under the Endangered 
Species Act, or putting FERC in charge of compiling the record).
    According to NOAA, in the history of the CZMA, there have been only 
14 instances where the oil and gas industry appealed a State's Federal 
Consistency objection to the Secretary of Commerce and the Secretary 
issued a decision. Of these 14 cases, there were 7 decisions to 
override the State's objection, 7 decisions not to override the State. 
``The record shows that energy development continues to occur, while 
reasonable State review ensures that the CZMA objectives have been 
met.'' See 67 Federal Register 44409 (July 2, 2002).
    We strongly oppose legislation that would weaken the consistency 
provisions of the CZMA.
    Thank you for this opportunity to testify. I would be happy to 
answer any questions that you may have.

    Senator Snowe. Thank you.
    Mr. Fry.

               STATEMENT OF TOM FRY, PRESIDENT, 
             NATIONAL OCEAN INDUSTRIES ASSOCIATION

    Mr. Fry. Thank you very much, Madam Chairman. It is a 
pleasure to be back with you again. Senator Stevens, nice to be 
with you, and Senator Lautenberg. Thank you all for being here.
    My name is Tom Fry. I am the President of the National 
Ocean Industries Association. I am here on behalf of that 
association. In addition, I am here on behalf of the American 
Petroleum Institute, the Domestic Petroleum Council, the 
Independent Petroleum Association of America, the International 
Association of Drilling Contractors, the Natural Gas Supply 
Association, and the U.S. Oil and Gas Association. I think I am 
out of time now.
    [Laughter.]
    Mr. Fry. What that group is is all of the trade 
associations who represent folks in the oil and gas industry. 
Our association is uniquely positioned to talk about offshore 
in that our membership is made up of people who work only in 
the offshore. It is not only producing companies; the drilling 
contractors, the service companies, construction companies, 
shippers, the geophysical companies, supply companies, and even 
professionals, lawyers and accountants. So I am here today on 
behalf of all of those different groups.
    First, Madam Chairman, I would like to say that we do 
support the Coastal Zone Management Act. The tenets of the act, 
to support a healthy and vibrant coastal zone, are very 
important to us and dovetail very nicely with our desire to 
produce energy for the Nation in a safe and environmental way. 
However, there have been a few--we think--unintended 
consequences of the Act. Outlined in my testimony are some 
technical changes that we think would help improve the ability 
of the Act to respond to the needs of the country, both the 
States and the needs of the country from an energy standpoint.
    As has been mentioned before in this hearing, there has 
been a lot of talk about the number of appeals that have taken 
place in the past. We readily acknowledge that in most cases 
the consistency provisions work very well in those States where 
oil and gas activity already occurs. We also are not here today 
to argue about whether or not the Secretary of Commerce or 
Interior or whoever makes the final decision, what decision 
they should make on coastal zone management appeals. That is a 
decision that has to be made by those individuals.
    What we are asking for is some certainty to the process. We 
would like to have the process come to a conclusion. As has 
been pointed out, there is legislation that talks about a 
certain number of days. There is proposed legislation talking 
about the certain number of days. The problem has been that the 
record never closes and so we never get to those days running. 
Or if those days are running, somebody puts a stop on those 
days running, saying we need additional information.
    That is what has prevented decisions from being made. It 
has run across administrations. The last appeal sat in the 
Clinton Administration and in the Bush Administration for over 
50 months with neither Secretary making a decision and the case 
finally needing to be settled. The reason it was able to sit 
there is because they kept saying--people kept saying, we need 
more information. We need to bring these matters to a 
conclusion.
    Companies who invest millions of dollars in lease sales 
that have been offered by the Federal Government, spend 
millions more to develop those leases that they have paid money 
for, deserve the opportunity to have a process wherein they can 
come to a final conclusion about--come to a final conclusion 
and decisions be made about consistency.
    Now, I want to also make it clear that it has never been 
our intention to cut the States out of this process. I think 
there has been a lot of discussion that we are trying to have 
the States not be a part of the consistency process. Let me go 
through all the times the States are involved. The States are 
involved in the planning of the 5-year plan. The States are 
involved in the planning for lease sales. The States are 
involved on a consistency basis with the exploration plans, 
drilling plans, and development plans.
    We are not asking for any of that to go away. We are only 
asking that when the appeals come forward to the Secretary that 
there be some end game in mind about how to make that happen.
    We would also request that the five or more Federal 
agencies begin to work more closely together so that we can 
have a single consistency certification for each project. Right 
now you may have as many as three, four, or five that have to 
go through consistency review. It means that all the parties 
are having to do duplicative work and I think it just makes 
good sense and really argues for better government.
    We would also suggest that those who are best able, those 
who are most knowledgeable about processes and how processes 
work, in whatever area it is, be those people who set the 
standards for appeals and be those people who make those 
determinations.
    So if I could reiterate one more time, Madam Chairwoman, we 
really feel strongly that the Coastal Zone Management Act can 
work, it can work very well, and we would just like to find a 
way to bring some certainty to the process.
    Thank you so much for your time. We look forward to your 
questions.
    [The prepared statement of Mr. Fry follows:]

               Prepared Statement of Tom Fry, President, 
                 National Ocean Industries Association
    Madam Chairwoman and members of the Committee, I appreciate the 
opportunity to testify here today on S. 360, the Coastal Zone 
Enhancement Reauthorization Act of 2005. I serve as President of the 
National Ocean Industries Association (NOIA). NOIA is the only national 
trade association representing all segments of the offshore energy 
industry. The NOIA membership comprises more than 300 companies engaged 
in activities ranging from producing to drilling, engineering to marine 
and air transport, offshore construction to equipment installation, 
manufacture and supply, and geophysical surveying to diving.
    This testimony is submitted on behalf of NOIA, the American 
Petroleum Institute, the Domestic Petroleum Council, the Independent 
Petroleum Association of America, the International Association of 
Drilling Contractors, the Natural Gas Supply Association, and the U.S. 
Oil and Gas Association. Our seven national trade associations 
represent thousands of companies, both majors and independents, engaged 
in all sectors of the U.S. oil and natural gas industry.
    While our industry supports the Coastal Zone Management Act's 
(CZMA) stated purpose of balancing the often competing and conflicting 
demands of coastal resource use, economic development, and conservation 
through cooperative partnerships among Federal, state and local 
governments, we do not believe that the current statute is meeting that 
goal. Instead, the current implementation of the CZMA has produced 
regulatory uncertainty and unreasonably impeded outer continental shelf 
exploration and production projects, as well as the siting of offshore 
energy infrastructure. Therefore, while we support a reauthorization of 
the Act, we could not support S. 360 unless it was amended to clarify 
the CZMA and correct the implementation deficiencies.
CZMA Implementation Affects U.S. Energy Production
    It is important to consider the implementation of the CZMA in the 
context of the overall energy challenges facing our nation. Energy 
demand is on the rise. The U.S. economy currently requires 20 million 
barrels of oil and 63 billion cubic feet of natural gas every day, 
according to the Energy Information Administration's Annual Energy 
Outlook 2005, and these numbers are expected to increase in coming 
years. Without a concurrent increase in supply, this situation is 
unsustainable and could lead to serious economic repercussions for both 
consumers and industries dependent on natural gas and oil--industries 
as diverse as automobiles, chemicals, electricity generation, airplane 
fuel, agricultural fertilizers, clothing manufacturing, and plywood 
production.
    Addressing regulatory inefficiencies that hinder or stall the 
development of a significant portion of our domestic energy resources 
is one achievable step toward increasing domestic supply and meeting 
our nation's energy needs.
    The issues associated with the coastal zone management process 
represent a significant threat to the energy industry's ability to 
explore for and produce offshore oil and natural gas, and consequently 
present a substantial impediment to the development of domestic energy 
supplies. Failure to make the necessary changes to the CZMA will 
continue to contribute to the supply-demand imbalance, increased 
reliance on foreign sources of energy, and the shifting overseas of 
thousands of jobs and billions of dollars in U.S. revenue.
    It is for these reasons that we strongly urge the Committee to 
clarify the CZMA and correct the implementation deficiencies. 
Overlapping jurisdiction of multiple government agencies, coupled with 
conflicting Federal laws (or conflicting interpretations of these 
statutes) have resulted in serious problems with the coastal zone 
management process. Companies trying to find and develop offshore 
energy resources frequently encounter duplicative requirements that 
result in costly delays in the regulatory process, even when these 
activities would not adversely impact states' coastal zones. As noted 
in the President's National Energy Policy Report, delays and 
uncertainties of the CZMA can hinder proper energy exploration and 
production projects.
Proposed Amendments to the Coastal Zone Management Act
    In order to allow the CZMA to achieve its intended purpose without 
hindering the Nation's energy development, we strongly urge the 
Committee to consider the following technical amendments to the CZMA in 
S. 360:
    (1) Amend the definition of ``enforceable policy'' in 16 U.S.C. 
Sec. 1453(6a) to limit a state's CZMA consistency review to activities 
occurring within its own boundaries or offshore its own state. The CZMA 
was intended to grant a state the right to conduct a consistency review 
of Federal licenses and permits within the territorial boundaries of 
that state. However, the statute has been implemented to allow states 
to review activities and block permits for activities taking place 
offshore other states. This amendment would still allow states to 
conduct a consistency review for all licenses and permits within its 
boundaries and off its own shore, but would stop states from 
interfering with the actions of other states within the other states' 
boundaries or off the other states' shores.
    (2) Amend 16 U.S.C. Sec. 1456(c)(3)(B) to allow a single 
consistency certification for an outer continental shelf plan to cover 
all activities, including air and water permits. The energy industry 
has experienced inordinate delays due to the lack of coordination 
between Federal agencies in processing permits for outer continental 
shelf activities, especially involving separate state consistency 
reviews for the multiple permits that are required. This consolidated 
process would increase the efficiency of state consistency reviews for 
outer continental shelf plans by achieving a single consistency 
certification for all related permitted activities, including air and 
water discharges, conducted pursuant to either an exploration plan, or 
a plan of development and production.
    (3) Amend 16 U.S.C. Sec. 1456(c)(3)(B) to grant the Secretary of 
the Interior the authority to determine information requirements for 
consistency certifications. Some states have used findings of ``lack of 
information'' to deny consistency certifications and obstruct outer 
continental shelf activity. The Secretary of the Interior has adopted 
detailed information requirements for outer continental shelf plans and 
specific Outer Continental Shelf Lands Act requirements for the 
Department of the Interior's consultation with state coastal zone 
authorities regarding areas of particular state concern. The Secretary 
is therefore in the best position to conduct an analysis of the 
information requirements.
    (4) Amend 16 U.S.C. Sec. 1456(c)(3)(B)(iii) to provide the 
Secretary of the Interior with the authority to override state appeals 
concerning OCS activities. The Department of the Interior's expertise 
regarding outer continental shelf plans and their impacts make the 
Interior Secretary, as opposed to the Commerce Secretary, uniquely 
suited to implement the law in this area.
    (5) Amend 16 U.S.C. Sec. 1465 to ensure timely decisions by the 
Secretary to override appeals. CZMA appeals continue to be drawn out by 
overlong agency commenting, and by the Commerce Department's 
implementation of the requirement that the deadline for decision-making 
does not begin to run until after the administrative record is closed. 
This amendment is needed to institute a definite deadline that is only 
governed by when the appeal is filed. The need for predictability in 
these override decisions mandates a preordained time for review; 
otherwise, continuing abuse will be endemic to the decisional process.
Conclusion
    We support the goals and intent of the Coastal Zone Management Act, 
and believe that the technical amendments discussed here would improve 
the implementation of the statute by streamlining the review process 
while preserving states' rights. I appreciate your consideration of our 
concerns regarding S. 360, and I will be happy to answer any questions.

    Senator Snowe. Thank you, Mr. Fry. Thank you.
    Dr. Hudson from Maine. Thank you for being here.

STATEMENT OF W. DONALD HUDSON, JR., Ph.D., PRESIDENT, CHEWONKI 
    FOUNDATION; MAINE GOVERNOR BALDACCI'S NON-GOVERNMENTAL 
     APPOINTEE TO THE GULF OF MAINE COUNCIL ON THE MARINE 
  ENVIRONMENT; PRESIDENT, U.S. GULF OF MAINE ASSOCIATION; AND 
        TREASURER, NATIONAL MARINE EDUCATORS ASSOCIATION

    Dr. Hudson. Thank you. Chairman Stevens, Senator Snowe, 
Senator Lautenberg: Thanks for the opportunity to speak this 
morning. My name is Don Hudson and I am President of the 
Chewonki Foundation, a nonprofit educational institution that 
has for 90 years introduced thousands of people to the wonders 
of the Maine coast and its watersheds.
    However, today I am testifying in my capacity as Maine's 
public sector representative to the Gulf of Maine Council on 
the Marine Environment. The council is a U.S.-Canadian 
partnership working to maintain and enhance environmental 
quality in the Gulf of Maine, one of the world's most 
biologically productive environments, to allow for sustainable 
resource use by existing and future generations.
    The coastal zone is the dominant natural and economic 
feature of Maine, whether it is the need for water access, the 
need for infrastructure and sustainable development plans, or 
the need to permanently protect critical coastal habitats. 
Coastal management needs have outstripped our capacity to keep 
pace. The first phase of coastal zone management successfully 
established core policies and environmental laws and supported 
a network of National Estuarine Research Reserves, including 
one in Wells. The next wave of coastal management needs to 
support the use of new tools and technology, innovative 
development practices, more effective education programs, and 
more focused land conservation and restoration programs to 
achieve national goals for a healthy coast and a robust coastal 
economy. A reauthorized Coastal Zone Management Act will 
represent this second wave of effective management in 
partnership with States and local communities.
    I would like to touch briefly on five aspects of S. 360 and 
then address the topic of regional ecosystem-based management. 
To begin, S. 360 includes an important new focus with the 
coastal communities program. Maine has 136 municipalities in 
its coastal zone, plus two tribes, several unorganized 
territories, and more than 5,000 islands. Through current CZM-
funded programs combined with State resources, Maine helps 
towns with grants and targeted technical assistance and 
training. CZMA funds support Maine's working waterfront 
initiative, which helps more than 90 partner organizations 
retain critical small harbors for use by businesses. CZMA funds 
also support a local grants program, a new technical assistance 
website, and direct assistance for land acquisition. An 
enhanced coastal communities program would continue this 
innovative work.
    Second, S. 360 strengthens the role of the Coastal Zone 
Management Act in coastal habitat restoration. Through the use 
of CZMA funds, other Federal resources, State contributions, 
and local match, Maine completed five significant habitat 
restoration projects last year, forged a landmark agreement to 
restore fisheries on the Penobscot River, and assisted 30 
municipalities with habitat protection strategies. In Sagadahoc 
County, near where I work, 12 towns are collaborating on an 
innovative regional habitat and open space conservation effort. 
There are nine other regions in coastal Maine where such a 
landscape-scale approach could also be deployed.
    Third, S. 360 clarifies that States can use CZM funds to 
implement coastal non-point pollution control programs. While 
this clarification is useful, authorization levels should 
reflect an additional $10 million for States to use to be 
effective. Maine is typical of other coastal States in that 
non-point source pollution represents more than 80 percent of 
the remaining sources of pollution entering coastal waters. As 
a participant in a local monitoring program, I know that this 
is ongoing hard work. Maine was able to partner with the Maine 
Marine Trades Association to launch a clean marinas initiative, 
the only one in the Nation housed at a business trade 
organization, through a modest investment of $50,000 leveraged 
by local resources. Five new marinas gained clean certification 
last year. Without new coastal non-point funds, this fledgling 
program will not operate beyond June 2006.
    Fourth, Maine has just submitted its draft coastal and 
estuarine land conservation plan, anticipating that an amended 
S. 360 or a separate bill might formalize the Coastal and 
Estuarine Land Conservation Program. Our planning effort has 
been inclusive and identifies critical types of coastal lands 
that are most threatened. Over the last 18 years, the Land for 
Maine's Future program has invested more than $21 million for 
75 projects in Maine's coastal zone, helping to protect almost 
26,000 acres to address a variety of needs, and to secure 
public access to the shore. A source of Federal matching funds 
could greatly increase the pace and quality of coastal 
conservation in Maine and the Nation.
    The fifth area of S. 360 of interest to me is the coastal 
training program at the National Estuarine Research Reserves 
and other innovative programs that bring teachers, students, 
and decisionmakers more directly into contact with the habitats 
and ecosystems of coastal watersheds. Sound management 
practices will never succeed unless the public understands and 
embraces them, and the educational efforts of the reserve 
system and their many partners are essential ingredients for 
success.
    The Maine Coastal Program has a vision that includes a 
statewide network of coastal training programs that would 
function as centers of learning and provide a home for a 
variety of citizen stewardship programs.
    Finally, over the last 15 years CZM and other Federal 
funds, combined with State resources, have provided the seed 
money that has established collaborative transboundary 
management of the Gulf of Maine. The Governors and premiers of 
the five Gulf jurisdictions--Massachusetts, New Hampshire, 
Maine, New Brunswick, and Nova Scotia--created the council in 
1989 as a regional forum to exchange information and engage in 
long-term planning. The council has no ongoing dedicated 
support.
    The U.S. Ocean Commission recognized the Gulf of Maine 
Council's model approach. In response to the U.S. Ocean 
Commission report and President Bush's Ocean Action Plan, the 
CZMA could be further strengthened to support regional ocean 
governance. Maine's Governor John Baldacci has stated in his 
comments to the U.S. Ocean Commission he places a high priority 
on building a more robust regional governance model using the 
council, the Gulf of Maine Ocean Observing System, and other 
framework elements currently in place.
    The timing is perfect as our Canadian partners are 
developing their ocean action strategy and establishing large 
ocean management areas. While we are well poised for exciting 
ecosystem-based management work, we need Congressional support 
and the CZMA is one place Congress might invest to support this 
work.
    Thanks for the opportunity and I look forward to answering 
any questions.
    [The prepared statement of Dr. Hudson follows:]

Prepared Statement of W. Donald Hudson, Jr., Ph.D., President, Chewonki 
Foundation; Maine Governor Baldacci's Non-Governmental Appointee to the 
 Gulf of Maine Council on the Marine Environment; President, U.S. Gulf 
    of Maine Association; and Treasurer, National Marine Educators 
                              Association
Introduction
    Chairman Stevens, Ranking Member Inouye, Senator Snowe and other 
distinguished Members of the Committee, I want to thank you for the 
opportunity to offer testimony today regarding S. 360, the Coastal Zone 
Enhancement Reauthorization Act of 2005.
    My name is Donald Hudson and I am President of the Chewonki 
Foundation, a non profit environmental education institution that has, 
for ninety years, introduced thousands of Maine's youth and adults to 
the wonders of the Maine coast and its watersheds. However today I am 
testifying in my capacity as Maine Governor John Baldacci's non-
government representative to the Gulf of Maine Council on the Marine 
Environment. The Council is a U.S.-Canadian partnership of government 
and non-government organizations working to maintain and enhance 
environmental quality in the Gulf of Maine--one of the world's most 
biologically productive environments--to allow for sustainable resource 
use by existing and future generations.
Remarks
    With close to 5,300 miles of coastline, 78 percent of the state's 
population, 80 percent of all tourist expenditures and a 1.7 billion 
dollar contribution to the gross state product, the coastal zone is a 
dominant natural and economic feature of my state of Maine. Whether it 
is the need for water access for fishermen in Maine's easternmost 
Washington County, the need for infrastructure and sustainable 
development plans in our rapidly growing Midcoast area, or the need to 
permanently protect critical coastal habitats in Southernmost Maine, 
coastal management needs have outstripped my state's capacity to keep 
pace. What I would call the first phase of coastal zone management 
successfully established basic core policies and environmental laws and 
supported a network of National Estuarine Research Reserves including 
one in Wells, Maine. While this initial work established essential 
foundations for balanced conservation and development, the next wave of 
coastal management needs to support the use of new tools and 
technology, innovative development practices, more effective education 
programs and more focused land conservation and restoration programs to 
achieve national goals for a healthy coast and robust coastal economy. 
Unfortunately, Maine's Federal CZM funds have been capped for more than 
five years, limiting our capacity to effectively manage coastal 
resources. It is my hope that a reauthorized Coastal Zone Management 
Act will represent this second wave of more sophisticated, 
comprehensive and effective coastal management in partnership with 
states and local communities.
    I will take this opportunity to discuss five aspects of S 360, 
offering examples of how this legislation would provide direct benefits 
to my home state of Maine. Finally, I'll speak to the topics of 
regional eco-system based management where I believe there are 
additional opportunities to strengthen the CZMA.
Strengthening Coastal Communities
    S. 360 includes an important new focus on Coastal Communities 
Program in an enhanced Section 309. Like many other states, Maine has 
many, many municipalities in its coastal zone-136--plus two tribes, 
several unorganized territories and more than 5,000 islands. Small 
towns with little technical paid staff are the norm. Through current 
CZM-funded programs combined with state resources, Maine helps towns 
via grant programs and targeted technical assistance and training. One 
example of this work is Maine's Working Waterfront Initiative where 
more than ninety partner organizations are working to retain critical 
small harbors for use by businesses that need a waterside location. 
Beginning with development of case studies of twenty-five working 
waterfront towns, CZM funds in Maine helped form a coastwide working 
waterfront coalition, a local grants program, a new technical 
assistance website, and direct assistance for land acquisition efforts. 
Maine's legislature is currently contemplating the passage of a bond 
issue to establish a new working waterfronts acquisition program. Is 
there a better success story for coastal zone management than one that 
helps shed light on the problem, mobilizes constituents, creates 
solutions, helps local people to solve local problems and spurs new 
state investment in a critical problem?
    An enhanced coastal communities program would allow Maine to 
develop innovative programming targeted to the needs of our coastal 
towns. One such need is the capacity to work with groups of towns on 
targeted ``bay management'' programs, whereby groups of stakeholders 
would work side by side with state and Federal officials to understand 
local systems through additional research, to create area specific 
resource management plans, and manage nearshore resources more 
effectively.
Restoring Coastal Habitats
    S. 360 strengthens the role of the CZMA in coastal habitat 
restoration. Through the use of CZMA funds, other Federal resources, 
state contributions and local match, Maine completed five significant 
habitat restoration projects last year, forged a landmark agreement to 
restore diadromous fisheries on the Penobscot River while preserving 
hydropower production on the lower river and assisted thirty 
municipalities with habitat protection strategies. In Sagadahoc County, 
where I work, twelve towns are collaborating on a regional habitat and 
open space conservation effort. Getting Maine towns to work together is 
challenge enough, to have more than 100 people participate in a 
regional visioning session and giving the session rave reviews is a 
miracle! Research documents that protecting large, unfragmented tracts 
of important habitat, and linking protected habitats via buffered 
stream corridors is necessary to retain ecosystem functions. There are 
nine other regions in coastal Maine where such an innovative landscape-
scale approach could be deployed if resources were provided.
Reducing Coastal Non Point Pollution
    S. 360 clarifies that states can use CZM funds to implement coastal 
nonpoint pollution control programs. While this clarification is 
useful, authorization levels should reflect an additional $10 million 
for states to use in a flexible way to take the actions they deem to be 
effective in controlling nonpoint pollution instead of a zero sum game. 
Maine is typical of other coastal states in that nonpoint source 
pollution represents more than 80 percent of the remaining sources of 
pollution entering our estuaries and coastal waters. As a participant 
in a local program to monitor water quality, conduct shoreline surveys 
and open clamflats, I know that controlling coastal nonpoint pollution 
is ongoing, time consuming, hard work. Consistent Federal investment to 
help meet water quality goals is vital. Given inconsistent levels of 
funding over the years, Maine has not been able to fully implement its 
Federally approved coastal nonpoint program. For example, for three 
years when provided sufficient implementation funds, Maine was able to 
partner with the Maine Marine Trades Association to launch a Clean 
Marinas initiative, a voluntary certification program for marinas and 
boatyards that go the extra mile to reduce pollution beyond what is 
required by law. Maine's program is the only one in the Nation housed 
at a business trade organization. Through a modest investment of 
$50,000 in Federal funds, leveraged by local resources five new marinas 
gained ``clean'' certification last year and the program's technical 
assistance efforts are available statewide. Although MMTA has developed 
a business plan that will allow them to accept increasing 
responsibility for the Clean Marina program over subsequent years, 
without new coastal nonpoint funds, the fledgling program would not 
operate beyond June 2006. With all evidence pointing to the ongoing 
pervasive effects of polluted runoff on coastal systems, to not offer 
increased consistent funding to this program would be missing the mark.
Conserving Coastal and Estuarine Lands
    Maine has just submitted its draft Coastal and Estuarine Land 
Conservation Plan, anticipating that an amended S. 360, or a separate 
bill, might formalize the Coastal and Estuarine Land Conservation 
Program as an ongoing competitive grant program to benefit all coastal 
states. Our planning effort identifies critical types of coastal lands 
that are most threatened by future development. All of the state's 
major players in land conservation, including coastal land trusts were 
involved in its creation. Given such a blueprint, our conservation 
needs are many. Over the last eighteen years, the Land for Maine's 
Future Program has invested more than $21 million for 75 projects in 
Maine's coastal zone, helping to protect almost 26,000 acres of prime 
wildlife habitats, secure public access to the shore for boating and 
recreation, add to state and municipal park lands, maintain scenic 
areas, preserve coastal islands, and provide open space and 
recreational lands. A source of Federal matching funds to help leverage 
state conservation dollars could significantly increase the pace and 
quality of coastal conservation in Maine.
Advancing Coastal Education and Awareness
    The fifth area of S. 360 that I will touch on is the benefit of The 
Coastal Training Program at the National Estuarine Research Reserves 
and other hands-on, innovative programs that bring teachers and 
students and decisionmakers more directly into contact with the 
habitats and ecosystems of coastal watersheds and the major issues of 
management and governance essential to secure a bright future for all. 
Whether it is a classroom of high school students conducting water 
quality surveys as part of chemistry class or a real estate business 
group gathering to learn about the value of wetlands on the landscape, 
sound management practices will never succeed unless the public 
understands and embraces them. The role of education cannot be 
understated. The Maine Coastal Program has a vision that includes a 
statewide network of Coastal Training Programs up and down the Maine 
coast that would function as centers of learning about local watersheds 
and provide a home for a variety of citizen stewardship and monitoring 
programs.
Fostering Regional Governance
    Over the last fifteen years, CZM and other Federal funds, combined 
with state resources from Maine, New Hampshire and Massachusetts, have 
provided the seed money, as well as much of the brain power, that has 
established collaborative, transboundary management of the Gulf of 
Maine. Maine appreciates the support of Senator Snowe for these 
efforts, however, there is no ongoing dedicated support. The governors 
and premiers of the five Gulf jurisdictions--Massachusetts, New 
Hampshire, Maine, New Brunswick, and Nova Scotia--created the Council 
in 1989 as a regional forum to exchange information and engage in long-
term planning. The Council conducts environmental monitoring; provides 
science translation for coastal managers; organizes conferences and 
workshops; offers grants and recognition awards; raises public 
awareness about the Gulf; and connects people, organizations, and 
information.
    The Gulf of Maine Council's model approach was recognized by the 
U.S. Ocean Commission and our experience has contributed to the body of 
ideas being developed around regional governance and ocean councils. In 
response to the U.S. Ocean Commission report and President Bush's Ocean 
Action Plan, the CZMA could be further strengthened to support regional 
ocean governance. Maine's Governor John Baldacci, as stated in his 
comments to the U.S. Ocean Commission, places a high priority on 
building a more robust regional governance model using the Council, the 
Gulf of Maine Ocean Observing System and other framework elements 
currently in place. Our Governor knows that the timing is perfect for 
strengthening regional governance in the Gulf of Maine as our Canadian 
partners are developing their Ocean Action Strategy and establishing 
Large Ocean Management Areas. While we are well poised for exciting 
ecosystem-based management work, we need Congressional support and a 
strengthened Federal-state partnership to make this happen. The CZMA is 
one place Congress might invest in Federal/state ocean planning and 
management and a regional grant programs to support this work on an 
ongoing basis.
    Thank you again for the opportunity to present this testimony. I 
would be happy to answer questions.

    Senator Snowe. Thank you, Dr. Hudson.
    Mr. Jeffress, thank you for being here from Alaska and 
making that trip. Thank you.

             STATEMENT OF BILL JEFFRESS, DIRECTOR,

          OFFICE OF PROJECT MANAGEMENT AND PERMITTING,

             ALASKA DEPARTMENT OF NATURAL RESOURCES

    Mr. Jeffress. Honorable Chairwoman, Senator Lautenberg, and 
Senator Stevens: Thank you for this opportunity to testify. My 
name is Bill Jeffress. I am the Director of the Office of 
Project Management and Permitting for the Alaska Department of 
Natural Resources. Our office is responsible for the 
implementation of the Alaska Coastal Management Program, the 
ACMP.
    Since 1997 the State of Alaska has relied on continued 
program approval and funding provided by the CZMA through 
NOAA's Office of Ocean and Coastal Resource Management. 
Overall, the Alaska program has been successful in providing 
the State and our local districts with funding and guidance to 
implement a program that achieves a balance between economic 
development and the protection of coastal uses and resources. 
However, after more than 25 years of implementing a coastal 
program, we felt many aspects of the ACMP needed updating to 
better achieve this balance.
    Since 2003, Alaska has been restructuring and amending the 
ACMP to refocus our program to meet the unique and specific 
needs of Alaska. We are currently working with OCRM to gain 
approval of our amended program.
    Through our membership with the Coastal States 
Organization, Alaska is very aware of the problems and the 
situations that are prevalent in other coastal States, 
territories, and trust properties, and their requirement for a 
higher level of protection, restoration, enhancement, or 
creation of coastal wetlands, coral reefs, marshes, and barrier 
islands.
    However, the majority of the other coastal States are at 
the opposite end of the spectrum from Alaska. Where other 
States are striving to protect, preserve, restore, or enhance 
remaining areas of undeveloped shoreline or restore previously 
disturbed shoreline areas, Alaska has yet to develop 1 percent 
of our more than 44,500 miles of shoreline. The vast majority 
of this shoreline is extremely remote and accessible only by 
boat or aircraft.
    In addition to having over twice the length of shoreline of 
all the other coastal States combined, Alaska is the Nation's 
only Arctic State, with environmental issues more akin to 
Russia and Canada than other coastal States. Alaska is the 
largest ocean State in the country. Alaska occupies 20 percent 
of the Nation's land base, contains half the Nation's wetlands 
and 40 percent of the Nation's surface water. Alaska's proven 
and unexplored natural resources are greater than any other 
State. Alaska's oceans and coastal watersheds produce 25 
percent of the Nation's oil, over 50 percent of the Nation's 
seafood, and over 50 percent of the Nation's minerals.
    Because of the vast differences between Alaska and other 
States, Federal programs often do not adapt to Alaska even 
though those programs may very well meet the needs of other 
States. Federal flexibility in State collaboration to balance 
national policies with local conditions is needed for 
successful resource management.
    Alaska supports the reauthorization of the Coastal Zone 
Management Act and supports the overall goals of CZMA, but 
reiterates that provisions be made to accommodate Alaska's 
unique geographic setting, cultural diversity, expansive 
coastal shorelines, and her great potential for natural 
resource development to ultimately support State and national 
interests.
    One of the best examples of the need to make accommodations 
for Alaska is the requirement for the Federal effects test. 
Under CZMA effects are not just environmental effects, but 
include effects on coastal uses. Federal consistency 
determinations would be required for a Federal activity 
hundreds of miles inland of our coastal zone boundaries that 
cumulatively and indirectly affect coastal uses.
    Alaska does not advocate removal of the Federal effects 
test, as the State has an interest in ensuring that inland 
Federal activities that have a foreseeable significant effect 
on coastal uses and resources are reviewed for consistency with 
Alaska's coastal management program. But Alaska does advocate 
subjecting itself to a modified effects test whereby the 
definition of ``effects'' was revised to include only the 
impacts that directly and significantly affect the uses and 
resources of a coastal zone.
    In conclusion, we believe that Alaska's coastal management 
program through the Coastal Zone Management Act is a worthwhile 
and valuable program. However, there is an increased need for 
Federal flexibility in order to improve the performance, 
especially considering Alaska's unique setting.
    Thank you again for this opportunity to testify and we are 
eager to work with you and your staffs to make CZMA work for 
Alaska and the Nation.
    [The prepared statement of Mr. Jeffress follows:]

   Prepared Statement of Bill Jeffress, Director, Office of Project 
   Management and Permitting, Alaska Department of Natural Resources
    Honorable Chair and Committee Members thank you for this 
opportunity to testify on the reauthorization of the Coastal Zone 
Management Act. My name is Bill Jeffress; I am the Director of the 
Office of Project Management and Permitting with the Alaska Department 
of Natural Resources. Our office is responsible for the implementation 
of the Alaska Coastal Management Program, ``ACMP.''
    Since 1977, the State of Alaska has relied on continued program 
approval and funding provided by the CZMA through NOAA's Office of 
Coastal and Resource Management, or ``OCRM,'' to assist with the 
cooperative implementation of Alaska's coastal management program. We 
are proud of Alaska's program, which we feel successfully achieves the 
delicate balance between economic development in coastal regions and 
the protection of coastal uses and resources, and we are grateful for 
the Federal funding provided through the CZMA for Alaska and its local 
coastal districts to operate our program effectively. However, after 
more than twenty-five years of implementing the ACMP, we recently 
determined that many aspects of the program had to be updated to 
improve the program's efficiency, allowing project applicants to timely 
obtain permits for responsible economic development while maintaining 
protection of our coastal uses and resources. Therefore, since 2003, 
Alaska has dedicated incalculable hours amending the ACMP to improve 
and streamline the program in order to meet the unique and specific 
needs of Alaska today and into the future. We are currently working 
with OCRM to obtain Federal approval of our amended program.
    Through our membership and participation in the Coastal States 
Organization, Alaska is very aware of the positions of other coastal 
states, territories, and trust properties, who require the highest 
level of ``protection, restoration, enhancement, or creation of coastal 
wetlands, coral reefs, marshes, and barrier islands.'' However, Alaska 
is at the opposite end of the spectrum from the majority of other 
coastal states. Where other states are striving to protect, preserve, 
restore, or enhance remaining areas of undeveloped shoreline or restore 
previously disturbed shoreline areas after centuries of development, 
Alaska has yet to develop even 1 percent of our more than 44,900 miles 
of shoreline. Development is rendered all the more difficult since the 
vast majority of this shoreline is extremely remote and is accessible 
only by boat or aircraft.
    In addition to having over twice the length of shoreline of all the 
other coastal states combined, Alaska is the Nation's only arctic 
state, making its environmental issues more akin to Russia, Sweden, 
Norway, Greenland and Canada than to other U.S. states. Alaska is also 
the largest ocean state in the country, bordered by the North Pacific 
Ocean, the Bering Sea, the Chukchi Sea, and the Beaufort Sea. Alaska 
occupies 20 percent of the Nation's land base, contains half of the 
Nation's wetlands, and 40 percent of the Nation's surface water.
    Alaska's proven yet unexplored natural resources are greater than 
any other state. Alaska's oceans and coastal watershed produce 25 
percent of the Nation's oil, over 50 percent of the Nation's seafood, 
and a large percentage of the Nation's minerals from several world 
class mines. In short, Alaska is a fundamentally unique territory, with 
dramatically different, often divergent, goals and impediments than any 
other coastal state.
    Because of the vast difference between Alaska and other states, 
Federal programs that very well meet the needs of other states often do 
not adapt to Alaska. National goals sometimes are at odds with what 
makes sense for Alaska. Federal flexibility to balance national 
policies with local conditions is required to properly and effectively 
manage our coastal and other resources. Indeed, Alaska has a long 
history of working successfully in collaboration with Federal and local 
jurisdictions on ocean and coastal issues. From joint State and Federal 
oil and gas lease sales in the Beaufort Sea, to the continuing work 
with OCRM for the approval of the requested amendment of the Alaska 
Coastal Management Program, Alaska has a great deal of experience in 
the benefits of intergovernmental coordination for managing ocean, 
coastal, and watershed resources.
    Alaska supports the reauthorization of the Coastal Zone Management 
Act with the same clear direction that motivated the Congress to 
originally pass this legislation, which was ``to encourage and assist 
the [coastal] states to achieve wise use of the land and water 
resources of the coastal zone, giving full consideration to ecological, 
cultural, historic, and esthetic values as well as the need for 
compatible economic development.'' Alaska supports the overall goals of 
the CZMA. However, we request that provisions be made to accommodate 
Alaska's unique geographic setting, cultural diversity, expansive yet 
underdeveloped coastal shoreline, and our great potential for natural 
resource development to ultimately support both State and National 
interests.
    An excellent example of the need for legislative accommodation for 
Alaska is the application of the CZMA's Federal ``effects test.'' Under 
this test, every Federal agency activity within or outside the coastal 
zone that affects any land or water use or natural resource of the 
coastal zone is subject to a state consistency review. But because 
under the CZMA regulations, ``effects'' are so broadly defined to 
include not just environmental effects, but secondary, cumulative, 
indirect and remote effects on coastal uses, a Federal consistency 
determination would be required for a Federal activity hundreds of 
miles inland that cumulatively and indirectly affect the coast. This 
potentially onerous requirement could stymie or impede development in a 
manner presumably never anticipated by the drafters of the regulatory 
language.
    Alaska does not advocate removal of the Federal effects test, as 
the State has a keen interest in ensuring that inland Federal 
activities that have a foreseeable, significant effect on coastal uses 
and resources are reviewed for consistency with Alaska's coastal 
management program. But Alaska does advocate subjecting itself, and any 
other similarly unique geographical state, to a ``modified effects 
test,'' whereby the definition of ``effects'' was revised to include 
only impacts that ``directly and significantly affect the uses or 
resources of the coastal zone.''
    In conclusion we believe that the Alaska Coastal Management 
Program, operated under the approval and oversight of the Federal 
Coastal Zone Management Act, is a worthwhile and valuable program. 
However, in order to improve its performance and efficacy, there is a 
vital need for flexibility in the application of the CZMA to Alaska's 
coastal management program, which manages our nation's most uniquely 
immense and diverse coastline.
    Thank you again for this opportunity to testify before this 
Committee.

    Senator Snowe. Thank you very much. We appreciate all of 
your testimony and we will move along because I know we have a 
vote at noon.
    The first question I would like to pose to the panel gets 
to the essence of the problems we have had in reauthorizing the 
Coastal Zone Management Act--and these issues are pending this 
week as well in the Energy Committee. The consistency 
requirement has been one of the powerful tools in the Coastal 
Zone Management Act for respecting States' rights and governing 
Federal actions as well off State shores.
    Now, Mr. Fry, you said that the process has worked well for 
the most part; is that correct? So what are we limiting it to? 
We have heard about the 14 appeals, for example. What are we 
discussing here? Is there not a way of addressing this problem 
without undercutting the consistency requirements altogether 
and also respecting--going beyond just the issue of States' 
rights--that there is a regional part to all of this? The 
regional element is also important, certainly in my State of 
Maine and the Gulf of Maine, as Dr. Hudson will tell you and 
Senator Nelson referred to. In the Gulf of Mexico, for example, 
the implications for decisions made by one state can impact his 
state, and the same is true for my home State of Maine.
    So is there not a way of addressing these questions without 
keeping this open-ended and discarding it for the most part?
    Mr. Fry. Yes, I think there are ways to do that. Our 
suggestion really relates to this appeal process. As has been 
talked about, you have got those thousands of cases where the 
CZMA consistency works, but in those 14 to 17 cases that come 
up, what has increasingly occurred is that the time frame for 
those appeals has continued to increase and increase. It 
started off being about a year, and now the average time seems 
to be much greater than a year. The last one of these went 
about 50 months without a decision ever having been reached.
    What we are saying is, do not leave the openers in there; 
do not allow the decisionmakers at the end of the game to not 
make a decision. We are not trying to cut the States out of the 
process in any way. The States get to participate all the way 
through the appeal, to the appeal process. They are involved. 
There is no indication on our behalf that they should be taken 
out of it. We are only suggesting that we come to a conclusion 
of the process.
    Senator Snowe. Well, would you think that 270 days was an 
unwarranted period of time to make that decision in the appeal 
process?
    Mr. Fry. We would certainly like to see it be shorter. But 
if you have anything that ends, that would be good.
    Senator Snowe. Ms. Chasis, could you respond to Mr. Fry's 
comments? What can we do to make it more predictable? What 
would you support?
    Ms. Chasis. Right. I think that the way it is structured in 
the proposed NOAA rule makes some sense, where it has 270 days 
for submission of briefs and information. Remember that the 
issues on appeal are new; they are de novo. In other words, the 
question is, does the--the Secretary is deciding whether the 
activity that the State has objected to is consistent with the 
purposes of the CZMA or is needed in the interest of national 
security. That is the first time those questions are addressed.
    So there is a need to allow time to submit information on 
that. What the proposed rule does, which the Senate energy bill 
as I understand it that will be marked up tomorrow does not do, 
is the proposed rule does allow an extension of that 270 days 
to permit the Secretary to receive the final environmental 
impact statement on the project or the biological opinion under 
the Endangered Species Act, or by the mutual agreement of the 
parties.
    We think those are important caveats. The project cannot go 
forward in any event until there is a final EIS or biological 
opinion, so having that reopener or allowing for that to occur 
would not--should not delay the project. So we think that that 
approach is preferable to what we understand is in the Senate 
energy bill.
    Senator Snowe. I see. Would that be offered as an 
amendment?
    Ms. Chasis. I think it is in the energy mark, in the bill 
that is in the mark.
    Senator Snowe. The Chairman's mark.
    Dr. Hudson, would you like to respond?
    Dr. Hudson. Well, the council does not--as you know, it is 
a deliberative body, but it is not a decisionmaking body, and 
we have survived for more than 15 years because we have--well, 
there are certain things we cannot talk about. We cannot talk 
about fish, for example. However, we end up talking about fish 
by stimulating research into where young lobsters breed on the 
coast of Maine, or trying to understand ecosystems on the 
bottom of the ocean in the Gulf, and therefore we try to assist 
the ultimate Federal and State decisionmakers by gathering 
information and providing a forum where people can talk about 
difficult issues, knowing that there is not a decision that is 
pending in an hour or 2 hours or 270 days.
    My experience with the council is that these kinds of 
formal forums that bring together resource people, primarily 
from State agencies and Federal agencies--there are only a 
handful of us who do not belong to those kinds of organizations 
who participate--and my experience is that it is a good place 
to try to gain consensus on issues without worrying about how 
many tons of cod can be caught this year.
    Senator Snowe. Mr. Jeffress.
    Mr. Jeffress. I think any time we can bring certainty to 
the process by picking a date specific is good. But I think 
what we need to do is look earlier into the process. As Senator 
Stevens mentioned, a lot of these processes should be rolled 
into one review, and by the time you get to the point for an 
appeal most of the efforts have been exhausted in coming to a 
compromise.
    In Alaska, one of the reasons for the establishment of the 
Office of Project Management and Permitting was to do just 
that, is to get the qualified people to sit at the table with 
the Federal agencies and with industry and develop a process 
where it was all-inclusive, where we were not waiting at the 
last minute for NMFS to come up with their EFH evaluation or 
Endangered Species, and the consistency determination was part 
of the NEPA analysis. This way all of these issues were out on 
the table first and you did not have to go to court to restart 
the NEPA process or to initiate it to begin with after a 
consistency determination.
    We are finding it is very effective with MOUs with MMS and 
some of the other Federal agencies to become part of the NEPA 
analysis and roll the consistency analysis into this. We have 
had a couple occasions where we have actually done consistency 
analysis on the preferred alternative after NEPA was complete 
and it was inconsistent with the local enforceable policy.
    That really puts industry and government behind the eight 
ball. So by being established or part of the team early on, we 
have been able to circumvent some of these problems that are 
facing industry and government planning.
    Senator Snowe. Thank you.
    Chairman Stevens.
    The Chairman. Well, I am sort of stymied by this because 
under the CZMA the State makes a plan and submits it to the 
Federal agency for approval. I have got to assume that that is 
worked out with the Federal agency, there is approval of a 
plan. Then along comes an application to do something either by 
a non-State entity or by a State entity or a Federal entity and 
someone raises a question of consistency with the plan. At the 
same time that happens, as Mr. Jeffress mentions, we have a 
wetlands determination, we have an Endangered Species Act 
determination, we have a NEPA determination, all of which start 
about the same time, but they go on independently of CZMA.
    As a consequence, we end up, as we did in the Alaska oil 
pipeline, with Congress taking 4 years to finally reach a 
conclusion that the applicant to build the pipeline had 
complied with all of those acts and a court could not--no court 
could review that decision. That was the final pipeline act 
decision and it was a 50-50 vote, broken by the Vice President.
    Now, that was a cause celebre. But we are talking about now 
routine things within each State. Normally the State is taking 
the position that it wants to do something and the Federal 
agency is saying, you cannot do it, or some non-Federal agency 
is saying that is inconsistent with the plan that the Secretary 
has already approved.
    I think that we have to find some way to bring these 
together and find a way to get a panel, so that if there is an 
objection under wetlands, or if you bring in Endangered Species 
and NEPA and CZMA, any one of them triggers a panel that says: 
Look, let us listen to the objection, let us take into account 
everything, but it is going to be decided in a framework of 
time that everybody has got to work within.
    I do not know yet whether the Congress is ready to do that, 
but very clearly a lot, Ms. Chasis, is going to depend on 
organizations such as yours. The environmental organizations 
are the ones that are primarily demanding these consistency 
actions, that are holding up a final decision on development of 
oil and gas or energy considerations about 4 years on the 
average.
    Ms. Chasis. May I respond?
    The Chairman. Yes.
    Ms. Chasis. With the consistency provisions, it is the 
States that make the determination. We cannot--the 
environmental groups may advocate for a particular position, 
but it is really a question of is the State objecting to the 
applicant's project. The State cannot do that arbitrarily. It 
has to be looking at the----
    The Chairman. That is only under CZMA.
    Ms. Chasis. Right.
    The Chairman. You go right at the other objections that are 
equally time-consuming. What I am saying is we ought to find a 
way to take and review consistency with applicable Federal laws 
to oil and gas development, particularly to gas development, 
within a period of time that is reasonable and yet explores the 
whole, so it gives everybody a chance to be heard, but gets a 
decision made.
    I think--I do not know about Maine. The Maine gas facility 
is going to be on Indian land as I understand it, but the State 
may well be in a position to object to that, or someone else 
will object to it under one of these acts, and how long is it 
going to take?
    We are in--I am being redundant, but I have spent too much 
time studying the problem of the natural gas shortage in the 
United States and I have come to the plain conclusion that if 
we do not have the facilities for taking the LNG ashore it is 
going to go ashore somewhere else, because there is just so 
much of that available in the world and we are going to be 
competing not only in price, but for quantity. We have to have 
these facilities. We have to have them in place by 2015.
    So I think this Congress has the duty to find some way to 
cut through this and say, OK--I am not asking to repeal the 
Endangered Species Act, to repeal the Wetlands Act, or to 
change CZMA or to change NEPA in any way. All I am saying is 
let us make all reviews simultaneous and get a decision. If the 
decision is you cannot build in Maine, we will have to go 
somewhere else.
    Now, I like the suggestion that was made previously by Ms. 
Cooksey, and that is maybe we should find some way to decide, 
to take a look at a whole region at a time and get everyone to 
agree where is the best place to locate these gas facilities on 
the Northeast coast, the Southeast coast, the Gulf coast, 
California or the West Coast, or Alaska. I do not think Alaska 
is going to need one. We are going to be in a position of 
moving gas out of Alaska, not bringing it to Alaska.
    But I do think, Senator Snowe, it is going to be this 
committee's role to try and find some way to put these things 
together. I intend to write that letter to Senator Domenici and 
see if the Energy Committee will cooperate with us to try and 
find a way for both committees to come to the conclusion of how 
to do this--how to expedite the review of any application to 
bring liquefied natural gas ashore.
    Thank you.
    Senator Snowe. Thank you, Mr. Chairman.
    Senator Lautenberg.
    Senator Lautenberg. Thanks, Madam Chairman.
    Mr. Fry, the industry wants the final authority on State 
objections to move from the Secretary of Commerce to the 
Secretary of the Interior. There have been only 14 State 
appeals related to the outer continental shelf oil and gas 
activity. The Secretary of Commerce has sided with the States 
in only seven, seven of these. It seems to me the system is 
working pretty good, so why should--why should we make the 
change and not continue it as is with the Secretary of 
Commerce?
    Mr. Fry. Senator, we do understand that that is a 
controversial suggestion. The reason we raise it is that we 
feel like that because these appeals now have gotten so long 
and so drug out over a period of time--and it is because the 
Secretary of Commerce continues to say, I do not have enough 
information. Well, the information is available at the 
Department of the Interior. They have worked this issue. They 
have worked it from day one with the States, working on 
consistency. The States have made their ideas known. They have 
worked with the EPA, they have worked with NMFS on different 
permits, all of which relate to the consistency determination.
    We think the expertise is at the Department of Interior to 
decide what the record needs to be and also it has a better 
ability to go ahead and make a decision based on the fact that 
the expertise rests there.
    Senator Lautenberg. It does not seem like the system is 
broken. There are so many other problems associated with 
decisions about drilling. Do you get a hint that maybe some of 
the limitations on drilling in the outer continental shelf 
might be lifted in the energy bill?
    Mr. Fry. Well, we have for years--our association was 
formed to deal with the question of access, both economic 
access and physical access, to our oceans for the development 
of energy projects. We have continued to advocate for some sort 
of lifting of the moratorium. That is not to suggest that we 
think you should be drilling everywhere all the time. We also 
think that the industry has shown an incredible ability to 
produce vast amounts of energy for this country in a safe and 
environmentally productive way. The technology has advanced so 
far over the last 10 to 20 years that now this is the NASA of 
the next century. The work that is going on, the kinds of 
development that are taking place, where satellites are 
involved, where computers are involved, where you can drill 
into 10,000 feet of water and into incredible depths within the 
crust of the Earth, and even look and see what you are doing 
while you are doing it.
    That kind of technology allows us to produce this energy in 
a safe way that it does not affect the environment. We think 
that the paradigm that we have lived in of moratoria is not the 
best way to make decisions. We ought to be making them on good 
science and on good information.
    Senator Lautenberg. Do you think all of this can be done 
without affecting the ecology of the oceans? We see man's 
effect on coral reefs and things like that, a diminution of 
fish stocks. All kinds of things are happening out there and we 
cannot afford to ignore what the effects of man's intervention 
into nature's structure.
    I particularly am one of those who is concerned--listen, I 
know that we have got tremendous problems with energy, but 
there are some other ways to solve these problems. I have never 
heard--I have rarely heard the word ``conservation'' used in 
this country. We do not see the oil companies, the car 
companies, people rushing to do the things that seem to come 
naturally in some other countries in terms of better CAFE 
standards and all those.
    I am preaching to Dr. Hudson and Ms. Chasis here, and 
perhaps Mr. Jeffress.
    Dr. Hudson, I am very interested in ocean and coastal 
education and I am currently developing some coastal education 
legislation that would engage traditionally underrepresented 
groups. Now, in your programs in Maine do you have an 
initiative that targets the Native American groups as well in 
terms of educating them about what appropriate use might be?
    Dr. Hudson. Senator Lautenberg, we are starting one. We 
have had a couple meetings in the last month with education 
folks in the Penobscot Indian Nation and they are coming down 
to our place on June 1st. We are going to see how we can help 
them achieve the stated goals of some legislation that passed 
in Maine last year that said that every child shall have some 
experience--it did not say specifically where--K-12--in 
understanding the history and culture of Native peoples in the 
State.
    We were very pleased when they reached out to us and we are 
happy to see where it goes. At this point, it is such an early 
stage that I cannot give you any more information than that. 
But I would be happy to make sure that you or people in your 
office get some reports as they come out.
    Senator Lautenberg. Madam Chairman, thank you very much.
    Mr. Jeffress, when you talk about the uninhabited coastline 
up in Alaska, I am an Alaskophile. I love the State and the 
beautiful country and the birds and the fish and all that. I 
have been up there too few times, but whenever I have gone up I 
have gone up with my son. In our family we think nature is 
really important and we like to play with it and work with it 
and try to protect it.
    But the prospect that 1 percent of the coastline being 
used, but you cannot get there from here, as you said--but it 
is one beautiful place and we hope that it will continue to be 
protected and that some day we will make certain, Mr. Fry, that 
the possibilities of an Exxon Valdez cannot happen. But so far 
we know it can happen and we have to be wary of it.
    Thanks.
    Senator Snowe. Thank you, Senator Lautenberg.
    I thank our panelists. I wish we had more time to further 
explore these issues, but you have been very helpful today in 
your testimony and your input as we start to focus on some of 
the issues that have made it difficult to secure a 
reauthorization of the Coastal Zone Management Act. Perhaps it 
is possible this year.
    But I thank you and we will be following up with each of 
you. The record will remain open for 2 weeks for any additional 
comments and testimony. Thank you. This hearing is adjourned.
    [Whereupon, at 12:06 p.m., the Committee was adjourned.]
                            A P P E N D I X

 Prepared Statement of Hon. Barbara Boxer, U.S. Senator from California
    Thank you Madam Chairman. I would also like to recognize you and 
Senator Kerry for your past work in protecting our coast and for your 
work this Congress on S. 360, the Coastal Zone Enhancement 
Reauthorization Act of 2005.
    As a Senator from California, a state that values and cherishes its 
coast, the Coastal Zone Management Act is of upmost importance to the 
people of California. Indeed, few other places on earth depend on the 
coast as does California.
    More than 21 million Californians live in coastal counties--roughly 
64 percent of the State's population. The California coast encompasses 
three National Parks and four National Marine Sanctuaries. It is home 
to dozens of threatened and endangered species, including the Short 
Tailed Albatross, California Gnatcatcher, sea otters, Chinook & Coho 
salmon, Steelhead trout, Guadalupe fur seal, and several species of 
whales. The natural treasure that is the California coast draws 
tourists by the millions and accounts for $51 billion dollars annually 
for the State's economy. In 2000, people spent over $2.2 billion on 
recreational fishing off our coasts. In short, Mr. Chairman, the 
protection of California's coast is not just an environmental 
necessity, it's an economic necessity.
    The CZMA is one of the most important tools states have to protect 
their coasts. It represents a unique and carefully crafted partnership 
between coastal states and the Federal Government. Through this 
partnership, the CZMA has given states and local coastal governments a 
meaningful voice in Federal actions and decisions that directly affect 
the environmental quality of their local communities.
    The heart of the Act is the ``Federal Consistency'' provision--the 
requirement that Federal agency activities that impact the coastal zone 
be consistent with the state's Federally approved Coastal Management 
Program. The Consistency provision gives communities assurance--
assurance that Federal actions that do not comply with a state's 
coastal program will not go forward.
    Madam Chairman, this Act is a model of Federal-state cooperation--
in an era where we are being constantly told by some political leaders 
that we must respect states' rights, it would be wrong to undermine 
such a law.
    Yet despite this, there are proposals floating around to change the 
CZMA's essential protections. Some are proposing giving veto power over 
a state's Consistency appeals on Outer Continental Shelf issues to the 
Secretary of the Interior. As few things constitute more of a threat to 
the well-being and health of the California coast than offshore oil and 
gas drilling, such a change would be disastrous to my state.
    The House Energy Bill also contains provisions that would put 
states at a major disadvantage during the appeals process by closing 
the appeal record just 120 days after an appeal is filed--a time frame 
far too short for our states.
    In February of this year, I was proud to work in a bipartisan 
fashion with my colleague, Senator Dole, by sending a letter to key 
Senate Energy Committee members, asking them to avoid attempts to 
weaken the state moratoria on offshore drilling.
    Madam Chairman, we should be celebrating the partnership that this 
Act creates, not undermining it. This Committee needs to be vigilant of 
attempts to weaken the protections of the CZMA. I am grateful that the 
Snowe-Kerry reauthorization bill does not weaken the CZMA.
    As Members of the United States Senate, let's reassure the states 
that the Federal Government will keep its promise to coastal states--
let's move forward with a reauthorized CZMA that will keep the model 
partnership alive and our coasts protected.
                                 ______
                                 
     Prepared Statement of the National Estuarine Research Reserve 
                          Association (NERRA)
Introduction
    Since 1987, NERRA has been dedicated to science-based management of 
our nation's estuaries and coastal systems, and serves as the primary 
advocate for the National Estuarine Research Reserve System (NERRS), a 
network of 26 (soon to be 27) regionally-based programs representing 
diverse estuarine and coastal ecosystems throughout the United States 
and its territories. Through a state-Federal partnership codified in 
the Coastal Zone Management Act (CZMA), reserves play a critical role 
in national efforts to sustain healthy estuaries and coastal 
communities. National Estuarine Research Reserves support science-based 
coastal management through long-term research, monitoring, education, 
and stewardship.
National Estuarine Research Reserve System (NERRS)
    The National Estuarine Research Reserve System (NERRS), established 
under section 315 of the CZMA, is designed to promote informed coastal 
decisions through site-based estuarine research, education, and 
stewardship. NERRS sites have been selected on the basis of 
biogeographic regions that share geophysical and biological 
characteristics. Coastal states are responsible for management of 
reserve sites, in cooperation with the National Oceanic and Atmospheric 
Administration (NOAA).
    Since the enactment of the CZMA in 1972, 26 estuaries have been 
designated as part of the reserve system including Alaska and Puerto 
Rico, with an additional site in Texas expected to be designated later 
this year. Reserves serve as regional centers of excellence where 
coastal communities can access a broad array of coastal products and 
services, including: (1) training to promote informed environmental 
decision-making; (2) a national monitoring program for estuaries is 
maintained; and (3) education opportunities are provided to students 
and the public. With these key elements, the reserve system is in the 
unique position of serving the national interest while responding to 
local needs.
    In addition, the reserve system is poised to help carry out the 
recommendations of the U.S. Commission on Ocean Policy. The Commission 
recommended that effective policies be based on unbiased, credible, and 
up-to-date scientific information. The Commission stated that this will 
require a significant investment in coastal and ocean research and 
monitoring and the ability to translate scientific findings into useful 
information products for coastal decision makers. The reserve system 
not only conducts scientific research and estuarine monitoring, but 
provides training opportunities to help inform coastal decision making. 
The Commission also recommended that there is an urgent need to 
strengthen the Nation's coastal and ocean literacy, including improving 
decision makers' understanding of the coasts and oceans, preparing a 
new generation of leaders on ocean issues, and cultivating a broad 
public stewardship ethic. Through the NERRS education and training 
programs, the system is well-suited to meet these goals.
    Estuaries--dynamic regions where rivers meet the sea--constitute an 
important interface between land use and coastal resources. Considered 
to be among the most biologically productive ecosystems on Earth, 
healthy estuaries are essential to the preservation of robust coastal 
communities. Estuaries support vital nurseries for economically 
important fish and shellfish, provide essential habitat for wildlife, 
create opportunities for ecotourism, and serve as ports for maritime 
commerce. The NERRS and Coastal Zone Management Programs contribute to 
the informed use of these estuarine-dependent resources through an 
integrated program of research, education, and stewardship, as well as 
implementation of state coastal zone management plans.
    Local and regional land use decisions continue to contribute to 
degradation of water quality and loss of wetland habitat. Land use in 
watersheds, ranging from agriculture and development to water resource 
allocation and flood control, are becoming increasingly important 
factors for coastal and estuarine management. Local elected officials, 
land use planners, government agencies, and agricultural interests are 
often asked to make land use decisions without sufficient information 
regarding the potential consequences to downstream effects.
    To meet these challenges, the NERRS has developed several system-
wide programs to place reserves in a strong position to detect 
environmental change, respond to pressing research needs at the local 
and regional scale, and to provide technical training for the coastal 
stakeholder community:

  <bullet> The NERRS System-Wide Monitoring Program is designed to 
        provide standardized monitoring and assessment capabilities at 
        each reserve to detect changes in water quality, biological 
        indicators, and land use change at the watershed scale.

  <bullet> The NERRS Graduate Research Fellowship Program supports two 
        graduate research projects at each reserve annually on coastal 
        management topics of concern to local and regional 
        stakeholders. Research topics range from stormwater management 
        and restoration ecology to invasive exotic plants and fishery 
        habitat requirements.

  <bullet> The NERRS Coastal Training Program target individuals 
        involved in local planning and management. Training activities 
        provide science-based information on topics responsive to local 
        needs such as polluted runoff, watershed management, water 
        supply, and restoration science.

Education and Training
Coastal Training Program
    One of the most significant challenges in managing the Nation's 
coasts today is the need to link science-based information to local 
coastal communities. Decisions made by coastal communities can have 
profound, long-term consequences for estuarine and coastal 
environments. Elected officials, land use planners, regulatory 
personnel, coastal managers, and agricultural and fisheries interests 
are key decision makers who often do not have adequate access to 
relevant science-based information, training, or available technology 
to make informed decisions affecting the coast. Building on past 
success with services for coastal decision-makers, the NERRS has 
developed the Coastal Training Program to fill this need.
    The Coastal Training Program provides the best available science-
based information, tools, and techniques to individuals and groups that 
are making important decisions about resources in coastal watersheds, 
estuaries, and nearshore waters. Programs have taken the form of 
workshops, seminars, distance learning, technology applications and 
demonstrations. Opportunities for information exchange and skill 
training are expanding coastal management networks and collaboration 
across sectors, and improving local understanding of the environmental, 
social, and economic consequences of human activity in the coastal 
zone. These programs also make use of field experiences, relevant 
research and monitoring, and facilities provided by the reserves.
    The Coastal Training Program was designed to increase the current 
capacity of reserves to deliver technical training services to under-
served constituent groups. Reserve staff continue to work closely with 
state coastal programs and others to identify critical issues in the 
region and key coastal decision-makers that could benefit most from 
relevant science and training. Coastal Training Program participants 
have included state and local elected and appointed officials, agency 
staff, volunteer boards, members of NGOs, business organizations, and 
state and regional professional associations whose daily decisions 
impact coastal resources.
    Reserve staff are implementing the Coastal Training Program in 
partnership with national and local organizations. At the national 
level, NOAA's Estuarine Reserves Division provides strategic and budget 
planning and support in partnership with NOAA's Coastal Management 
Programs, Sea Grant, and the Coastal Services Center. At the local and 
regional levels, individual reserves are developing Coastal Training 
Program partnerships with state coastal programs, Sea Grant programs, 
local universities and researchers, professional organizations, local 
government agencies, non-profit organizations, and a variety of others 
with expertise, skills, training sites, and logistical support.
K-12 Estuarine Education Program
    During 2004, reserves engaged over 80,000 students in K-12 
education programs, and 3,000 teachers in professional development 
programs. EstuaryLive alone--an annual interactive virtual field trip 
designed to increase students understanding about estuaries--engaged 
13,600 students and teachers during the broadcast. As recommended by 
the U.S. Commission on Ocean Policy, there is an urgent need to 
strengthen the Nation's coastal and ocean literacy. With a coordinated 
network of educators, the NERRS is positioned to increase public 
awareness about estuaries and coastal systems. Building on site-based 
education efforts, the NERRS is developing a system-wide K-12 education 
program. This program would allow the reserve system to network more 
efficiently across the country, generate and disseminate educational 
products that use data generated by ocean observing systems to the K-12 
community, share and exchange resources, and enhance efforts to 
incorporate ocean and coastal science into local curricula.
Research and Monitoring
Graduate Research Fellowship Program
    Estuaries are highly variable, complex systems where the 
variability in water movement, water quality, habitat, and human use 
vary over a wide variety of spatial and temporal scales. Because of 
this variability, it is often difficult to separate natural change from 
those changes influenced by human use of our coasts and estuaries. Two 
approaches are necessary to address this issue. First, targeted 
research is needed to determine the cause and effect relationships of 
human influence on estuarine variability, and second, a long-term 
monitoring program is needed to characterize the natural variability 
that governs the structure and function of estuarine systems. The 
reserve system has begun building the capability to meet these 
management needs.
    The NERRS is addressing the first need through the Graduate 
Research Fellowship program where students across the Nation compete to 
work on priority needs of the coastal management community.
    Up to fifty-two graduate students per year receive support from 
this program and present results of their research at national, 
regional, and local meetings where information is transferred to other 
researchers, coastal managers, and those individuals responsible for 
making daily decisions with respect to our coastal and estuarine 
resources.
    In addition to the graduate research program, reserve sites are 
being actively promoted as sites for long-term research by many 
granting agencies such as the National Science Foundation, 
Environmental Protection Agency and, of course, NOAA. This promotion 
directs researchers from throughout the country to conduct long-term 
studies in estuarine research reserves.
System-wide Monitoring Program
    With respect to the second need, that of a long-term, estuarine 
monitoring capability, the NERRS operates the only national monitoring 
program for estuaries in the United States. In 1995, the NERRS 
established the System-wide Monitoring Program. This program is 
designed to identify short-term variability and long-term trends and 
changes in coastal ecosystems, including locations that span the range 
of coastal environments from estuaries and coastal waters to 
watersheds. The program focuses efforts on three critical areas: 
estuarine water quality; estuarine biodiversity; and estuarine land use 
and habitat change.
    The System-wide Monitoring Program provides valuable long-term data 
on water quality and weather at frequent time intervals. Coastal 
managers use this monitoring data to make informed decisions on local 
and regional issues, such as ``no-discharge'' zones for boats and 
measuring the success of restoration projects. Periodic syntheses of 
data are expected to serve as one of the mechanisms by which coastal 
managers can inform their decision-making responsibilities. In addition 
to serving regional research and coastal management needs, the System-
wide Monitoring Program is designed to enhance the value and vision of 
the 26 reserves as a system of national references sites.
    Future efforts will focus on the expansion of biological monitoring 
at all reserves and tracking habitat and land use changes through 
remote sensing techniques. Expansion of the SWMP effort is aimed at 
adding to the current system of environmental observations made at 
reserves. This will be addressed through spatial expansion of the 
monitoring system, and the addition of new monitoring parameters such 
as nutrients. When fully implemented, the System-wide Monitoring 
Program will provide valuable long-term, integrated data on water 
quality, weather, biota, land use, and habitat change within the 
National Estuarine Research Reserves.
    All numerical data sets collected by the System-wide Monitoring 
Program are compiled, subjected to a rigorous quality assurance 
protocol, and the database and associated metadata are submitted to the 
NERRS Centralized Data Management Office at the University of South 
Carolina Belle W. Baruch Institute of Marine and Coastal Sciences. 
Following final quality assurance, the Centralized Data Management 
Office disseminates all system-wide data and summary statistics over 
the World Wide Web (http://inlet.geol.sc.edu/nerrscdmo.html) where 
researchers, coastal managers, and educators readily access the 
information.
    The water quality and meteorological monitoring components of the 
System-wide Monitoring Program have been recognized as a fundamental 
backbone element in the national Integrated Ocean Observing System 
(IOOS) framework, and the reserve system is currently developing and 
testing near real time data delivery systems that include real time 
data quality control.
Resource Stewardship
    In addition to research, monitoring, education, and training, 
reserves are developing resource stewardship and coastal restoration 
programs that address both site-specific and watershed-scale 
information needs. Resource stewardship is an essential component of 
the NERRS mission and ensures that site conditions remain suitable for 
long-term research and education programs. Stewardship activities 
include the eradication of exotic species, restoration of natural 
hydrologic processes, and the conduct of prescribed burns in fire-
dependent plant communities. NERRS staff also has built strong 
partnerships with local agencies, organizations, and landowners to 
develop watershed management strategies, and Best Management Practices 
that mitigate disturbance to water quality and habitat structure.
Partnerships
    The NERRS enjoy a strong relationship with its Federal partner, the 
National Ocean Service at NOAA. The state-Federal partnership, a 
hallmark of the NERRS, is strong. NOAA has been increasing its service 
to the NERRS, especially training, materials, and assistance with site 
profiles from the Coastal Service Center, and providing opportunities 
for the reserves to play a larger role in coastal science programs at 
the agency.
    Reserves also leverage significant resources on behalf of coastal 
research, education, and management through partnerships with 
government agencies at local, regional, and Federal levels, private 
industry, and academia. For example, the Hudson River Reserve received 
approximately $2 million in funding from the state of New York, 
Columbia University, and the Hudson River Foundation to characterize 
the benthic habitat of the Hudson River. The Jacques Cousteau Reserve 
received more than $1 million from Federal, state, and private sources 
to investigate coastal processes at a Long-term Ecosystem Observatory, 
and to develop science enrichment programs for the precollegiate 
community based on this field program. At the Elkhorn Slough Reserve, a 
partnership with the Elkhorn Slough Foundation, National Audubon 
Society, and the Monterey County Planning Department is gathering 
critical resource information for a regional watershed plan. The plan 
will be used to guide future land use in the watershed surrounding the 
reserve.
Reauthorization of the CZMA
    Reauthorization of the CZMA provides an opportunity to strengthen 
the capabilities of coastal communities to address issues of coastal 
development, protection, and habitat restoration. Of particular 
importance to the NERRS, is the framework provided by the CZMA to meet 
the need for informed decision-making at the Federal, state, and local 
levels.
    Amendments to the Act should:

  <bullet> Provide effective mechanisms to assess the technology and 
        information needs of coastal communities at local and regional 
        scales;

  <bullet> Strengthen the capacity of the state-Federal partnership to 
        support research and monitoring relevant to local and regional 
        needs; and

  <bullet> Improve the access and delivery of science-based information 
        to coastal communities, and evaluate the performance of the 
        state-Federal partnership in support of informed coastal 
        decisions.

    Specifically, NERRA offers the following recommendations in support 
of reauthorization of the Coastal Zone Management Act.
    NERRA fully supports that S. 360, the Coastal Zone Enhancement 
Reauthorization Act of 2005, better reflects the mission of the reserve 
system as a network of protected areas established for long-term 
research, education, and stewardship. We want to ensure that the final 
language provides adequate authority for NERRS' research and 
monitoring, education and training, and stewardship programs.
    We would respectfully request that the Committee include language 
in the Congressional Findings section of the bill that specifically 
addresses the purpose and need for a national system of estuarine 
research reserves. Such language should express that the reserve system 
will provide for protection of essential estuarine resources, as well 
as for a network of state-based reserves that will serve as platforms 
for coastal stewardship best-practices, monitoring, research, 
education, and training to improve coastal management and to help 
translate science and inform coastal decision makers and the public.
    We also suggest that NERRA's vision of having a reserve in every 
coastal and Great Lakes state be incorporated into the bill, rather 
than only the current requirement that a reserve contribute to the 
biogeographical and typological balance of the reserve system. While it 
is important that new reserves contribute to the biogeographic 
representation of the system, having a reserve in every coastal and 
Great Lakes state would provide the coastal training, education, 
research, and monitoring opportunities the reserve system offers to 
each state and each state's coastal program.
    With respect to the authorization of appropriations section, NERRA 
recommends that for grants under section 315, the bill include a 
reauthorization beginning at $22 million and increasing by $1 million 
per year to accommodate new sites, expansion of products and services, 
and cost of living increases. An authorization at this level would 
allow the NERRS to add new reserves into the system, enabling us to 
work toward our vision of having a reserve in every coastal and Great 
Lakes state, and would allow the NERRS to expand core programs or more 
fully develop them, such as the K-12 Estuarine Education Program.
    NERRA endorses incorporation of funding for construction projects 
into the reauthorization measure, as stated in S. 360, but would ask 
the Committee to include acquisition projects as well. This would 
better reflect our current appropriations, which have been to support 
both construction and acquisition projects. The NERRS have established 
procedures for setting priorities for construction and land 
acquisition, and recently assembled long-term plans to meet 
construction and land acquisition needs. Incorporation of funds for 
these purposes into the CZMA will provide a stable, long-term source of 
funding for the NERRS to maintain facilities in support of research, 
education, and stewardship programs, as well as to acquire priority 
land and water areas for watershed management.
Conclusion
    NERRA is very supportive of S. 360 and appreciates the Committee's 
interest in reauthorizing the Coastal Zone Management Act. NERRA is 
ready to work with you in any way to support passage of S. 360. We 
would be pleased to provide further information or answer any questions 
you may have. Please do not hesitate to contact the NERRA Executive 
Director, Angela Corridore (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7415171b06061d101b06113407071b5a1b0613">[email&#160;protected]</a> or 202-508-3836), with 
any questions.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                          Thomas Kitsos, Ph.D.
OCS Environmental Reviews
    Question. The U.S. Commission on Ocean Policy's recommendation 24-2 
states that the MMS should conduct routine environmental monitoring as 
part of an expansion of its environmental studies program. 
Specifically, the Commission recommends conducting long term 
environmental research and monitoring at selected OCS sites. This type 
of monitoring could provide valuable information on the long term and 
cumulative impacts of oil and gas development. How could NOAA work with 
MMS on these activities, considering NOAA's responsibility for 
conservation and management of habitats and living marine resources?
    Answer. NOAA provides environmental reviews through the Minerals 
Management Service's decision-making process for oil and gas activities 
on the Outer Continental Shelf (OCS), pursuant to NOAA's 
responsibilities under the National Environmental Policy Act (NEPA), 
the Endangered Species Act (ESA), the National Marine Sanctuaries Act 
(NMSA) and the Magnuson-Stevens Fishery Conservation and Management Act 
(MSFCMA). For the most part, environmental reviews conducted by NOAA, 
and those conducted by the coastal States under the Coastal Zone 
Management Act (CZMA) occur simultaneously.
    When the Minerals Management Service (MMS) proposes a lease sale or 
deems submitted an exploration plan (EP) or development and production 
plan (DPP) for Alaska or the Pacific, or a Development Operations 
Coordination Document (DOCD) for the Gulf of Mexico, for OCS oil and 
gas activities under the Outer Continental Shelf Lands Act (OCSLA), 
MMS:

  <bullet> initiates review under the OCSLA;

  <bullet> begins NEPA compliance;

  <bullet> sends the EP, DPP, or DOCD to the applicable coastal 
        State(s) for the State's review under the OCSLA and the six-
        month CZMA Federal consistency review; and

  <bullet> may also initiate formal or informal consultations under the 
        ESA, NMSA, and MSFCMA (for Essential Fish Habitat or EFH), if 
        required.

    Additionally, MMS works with NOAA to ensure animals protected under 
the Marine Mammal Protection Act (MMPA) are appropriately considered. 
NOAA provides substantive review and assistance under these statutes, 
when appropriate.
    In order to improve the environmental review process and make it 
more efficient, NOAA could become involved earlier in the process, 
providing comments as NEPA documents are being drafted. Early 
engagement could ensure smooth coordination among the various NOAA 
offices that are responsible for reviewing proposals. These or similar 
procedures would allow agencies to address areas of potential conflict 
early in the process. Our experience with deepwater ports demonstrates 
that early involvement and internal coordination can work, but does 
require additional effort and resources.
    Below are brief descriptions of two of NOAA's programs and how they 
relate to MMS responsibilities:
CZMA Review
    For EPs, the OCSLA requires MMS to make its decision whether to 
approve an EP within 30 days of receiving it. MMS deems a plan 
submitted when all information is received from the applicant and MMS 
does not identify any deficiencies (under MMS regulations, MMS has 10 
working days after receipt of an EP to determine whether additional 
information is needed). Within that 30-day period, MMS completes its 
Environmental Assessment (EA) pursuant to NEPA and makes a decision on 
the EP. During the 30-day period MMS initiates compliance with other 
Federal mandates under CZMA, ESA, MMPA, etc., and NOAA and the States 
provide input within the time frames established under those statutes. 
The OCSLA 30-day period does not provide time to complete the State 
CZMA review process. Therefore, the States' CZMA review is based on the 
``application to drill,'' which is a permit described in the EP. The 
Minerals Management Service does not authorize any drilling until the 
CZMA process is complete.
    The process for EPs under all statutes (except CZMA appeal to the 
Secretary of Commerce) is generally completed within 6 months from when 
MMS deems an EP submitted. For example, once MMS deems an EP submitted, 
MMS sends the EP and accompanying information to the State within 2 
working days to meet OCSLA requirements and to avoid delay in the CZMA 
process. MMS sends the EA to the State when the EA is completed or, in 
the Gulf, forwards it upon request. Because the State receives the EA 
within a very short period (10-30 days) after the start of the six-
month CZMA review period, the CZMA process is not delayed 
unnecessarily.
    For DPPs and DOCDs, MMS has more time to respond to the applicant 
and comply with the OCSLA, NEPA, CZMA, ESA, MMPA, and other relevant 
statutes. MMS and State agencies have developed procedures to 
coordinate and streamline State review of EPs, DPPs, and DOCDs. NOAA, 
working closely with the Department of Interior, has proposed amending 
the CZMA Federal consistency regulations to provide a reasonable and 
definitive deadline for determining CZMA appeals.
MSFCMA Essential Fish Habitat Reviews
    Under the general goal of government streamlining and more 
specifically in response to Administration efforts to streamline the 
review of energy projects, the National Marine Fisheries Service 
combines environmental reviews, merges documents, overlaps review 
periods, and conducts programmatic analyses so that NOAA's reviews are 
combined and occur in a timely manner. NOAA's Essential Fish Habitat 
(EFH) reviews are one of our more visible mandates. The National Marine 
Fisheries Service estimates that approximately 99 percent of the 
roughly 50,000 EFH consultations completed under NOAA's EFH guidelines 
were conducted within the time frames established by other Federal 
statutes and met private sector expectations.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                       Dr. Walter D. Cruickshank
OCS Monitoring and Review
    Question 1. The U.S. Commission on Ocean Policy's recommendation 
24-2 states that the MMS should conduct routine environmental 
monitoring as part of an expansion of its environmental studies 
program. Specifically, the Commission recommends conducting long term 
environmental research and monitoring at selected Outer Continental 
Shelf sites. This type of monitoring could provide valuable information 
on the long term and cumulative impacts of oil and gas development. 
Does the Administration have any plans to implement this 
recommendation?
    Answer. The Minerals Management Service (MMS) believes that the 
Commission's recommendation regarding long-term environmental research 
and monitoring at selected Outer Continental Shelf (OCS) sites is 
reasonable. It should be noted that MMS has conducted and participated 
in numerous research and monitoring efforts at OCS sites, and in some 
cases obtains regular reports from industry of certain environmental 
conditions at OCS production sites. To meet the increased demand for 
environmental information, the MMS environmental studies program has 
aggressively sought opportunities to leverage its available resources 
through partnering. The U.S. Geological Survey continues to focus about 
$2.5 million annually to meet some of the biological research needs of 
the MMS. The MMS also has created research partnerships with 
universities in Louisiana and Alaska, leveraging Federal funds on a 
one-to-one basis amounting to over $3.0 million per year. In addition, 
MMS partners with other Federal agencies including National Aeronautics 
and Space Administration (NASA), Office of Naval Research (ONR), 
National Oceanic and Atmospheric Administration (NOAA), Environmental 
Protection Agency (EPA), and the Department of Energy (DOE) on research 
projects when common interests exist, and recently has accomplished a 
number of its research objectives through leveraging opportunities 
under the auspices of the National Ocean Partnership Program (NOPP). 
During the past couple of years MMS has used its annual $17 million 
environmental studies program budget to leverage research amounting to 
$22 to $24 million annually.
    Some of MMS's ongoing, long-term monitoring activities include:

  <bullet> Long-term Monitoring at the East and West Flower Garden 
        Banks. This 20-year effort is continuing in an area of the Gulf 
        of Mexico with significant oil and gas activities. It is now 
        being conducted cooperatively with NOAA and is designed to 
        detect any subtle, chronic effects from natural and 
        anthropogenic activities that could potentially endanger 
        community integrity. To date, no significant long-term changes 
        have been detected in Flower Garden Banks coral reef 
        populations, total coral cover, or coral diversity. The live 
        coral cover of greater than 50 percent at the Flower Garden 
        Banks is one of the highest among U.S. reefs.

  <bullet> Monitoring the Distribution of Arctic Whales. This project 
        has conducted aerial surveys of the fall migration of bowhead 
        whales each year since 1987 to provide an objective area-wide 
        context for management interpretation of bowhead migrations and 
        site-specific study results.

  <bullet> Arctic Nearshore Impact Monitoring in the Development Area 
        (ANIMIDA and its continuation, cANIMIDA). This study, initiated 
        in 1999, gathers long-term site-specific monitoring data that 
        will provide a basis of continuity and consistency in 
        evaluation of effects from recent OCS oil and gas development 
        and production in the Beaufort Sea. Priority monitoring issues 
        have been determined through public and interagency comment, 
        and coordinated with lessees and other organizations.

  <bullet> MARINe (Multi-Agency Rocky-Intertidal Network Monitoring 
        Study). This study provides for the monitoring of rocky 
        intertidal sites along the mainland of Southern California 
        adjacent to oil and gas activity and is a joint monitoring 
        program with 23 Federal, state, local agencies, and private 
        organizations. It has been ongoing since 1991.

  <bullet> The Alaskan Frozen-Tissue Collection and Associated 
        Electronic Database: A Resource for Marine Biotechnology. 
        Tissues from marine mammals and other specimens of the Beaufort 
        Sea, Cook Inlet, Shelikof Strait, and other planning areas have 
        been collected since 1993. This effort ensures a long-term 
        systematic record of frozen tissues from Alaska's marine 
        ecosystems.

  <bullet> Archiving and Curating OCS Biological Specimens by the 
        Smithsonian Institution. Through this ongoing project, which 
        started in 1979, the Smithsonian Institution, National Museum 
        of Natural History, provides for the long-term reliable 
        maintenance of invertebrate collections from MMS offshore 
        studies. This provides MMS with a biological quality assurance 
        for information collected in support of decisions made in the 
        OCS natural gas and oil program. The OCS specimens represent 
        one of the most extensive collections of marine invertebrates 
        from U.S. continental shelves and slopes in terms of geographic 
        coverage, number of taxonomic groups, sampling density, and 
        associated data collected concomitantly with the specimens. 
        Hundreds of new species have been discovered as a result of MMS 
        research projects and this collection contains those ``type'' 
        specimens. In addition to the establishment of a long-term 
        record of invertebrates and reliable maintenance, the 
        Smithsonian provides ready access to these specimens by 
        qualified investigators and distributes excess materials to 
        other qualified museums and teaching collections.

    Question 2. Does the MMS do economic analysis of not only the 
benefits of oil and gas revenue, but also the economic benefits of 
alternative uses of the OCS when it considers a lease proposal?
    Answer. As part of the development process of the 5-Year Oil and 
Gas Leasing Program, MMS is required to consider a ``No Action'' 
alternative. As part of this analysis, MMS does estimate the amount and 
percentage of alternative sources of energy the economy would have to 
adopt if the 5-year oil and gas program were not implemented and its 
proposed lease sales were not held. In other words, energy alternatives 
are considered at the 5-year programmatic national level rather than 
for a specific lease or set of leases.
    Section 18 of the OCS Lands Act requires the Secretary of the 
Interior to prepare and maintain a schedule of proposed OCS oil and gas 
lease sales determined to ``best meet the national energy needs for the 
5-year period following its approval and re-approval.'' Preparation and 
approval of a 5-year oil and gas program must be based on a 
consideration of principles and factors specified in section 18. In 
compliance with section 18, the MMS performs a cost-benefit or ``net 
benefits'' analysis of the value of all available resources in the 
proposed final program. Section 18 requires the Secretary consider 
``other uses of the sea and seabed, including fisheries, navigation or 
proposed sealanes, potential sites of deepwater ports, and other 
anticipated uses of the resources and space of the outer Continental 
Shelf.'' The analysis examines the benefits to society associated with 
OCS oil and natural gas production commensurate with the accompanying 
costs.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                            Sarah W. Cooksey
Federal Financial Support
    Question 1. Ms. Cooksey, what is the appropriate level of Federal 
funding that coastal states need to properly and effectively implement 
their Coastal Zone Management programs? Do the funding authorization 
numbers in S. 360 meet those needs?
    Answer. The appropriate funding levels for the CZMA should be 
increased to more closely reflect the substantial national interest and 
goals set out in the CZMA to protect and enhance the Nation's coastal 
and ocean resources, as well as to provide incentives through matching-
grants for the administration and implementation of CZMA programs. The 
final report of the U.S. Commission on Ocean Policy noted that funding 
for CZMA is a ``significant concern''. Overall funding and the $2 
million cap on state administrative and enhancement grants in effect 
since 1992 `hampers program implementation, limiting the states' 
ability to effectively carry out important program functions . . . .''
    As I noted in my oral remarks and written testimony, the Ocean 
Commission report documents the significant national benefits of well-
planned and managed coastal resources and communities, as well as the 
increasing challenges that are facing coastal management programs. 
These include increasing population density and development pressure; 
habitat fragmentation; user conflicts; coastal storms and coastal 
hazards; travel, tourism, and the growth of secondary homes; mandates 
to develop coastal nonpoint pollution programs; and emerging demand for 
use of offshore waters including aquaculture, alternative energy, sand 
mining, and marine protected areas.
    State-based coastal programs provide an essential, integrated 
programmatic and planning approach to assure that these diverse factors 
and issues are considered in managing coastal and ocean resources. 
Current CZMA funding has not kept pace with the demand on 
administration and implementation of these programs. In addition demand 
is growing for support of coastal communities to enhance capacity to 
make the complex growth management decisions necessary to assure that 
natural and economic resources are preserved and increased for the 
benefit of this and future generations.
    The Ocean Commission report specifically recommended the following 
increases from current levels for CZM-related programs: $35 million in 
the first year, and $95 million annually thereafter for CZM program 
grants; $20 million in the first year and $60 million annually 
thereafter for integrated coastal and watershed management; $35 million 
in the first year and $70 million thereafter for coastal land 
conservation grants. In addition, the Commission noted the need to 
provide incentives for improved regional, ecosystem-based ocean 
management that builds on current state ocean management efforts under 
the CZMA, as well as regional initiatives. The CZMA includes authority 
to provide grants for development of more comprehensive state ocean 
management plans and pilots projects to enhance regional ecosystem-
based ocean management.
    The Commission also recognized the need for increased funding for 
state-based regional resource assessments and information programs to 
inform coastal and ocean management decisions recommending $9.75 
million in year one and $36.75 million thereafter for regional 
assessments and information programs. It should be noted that these 
funds are the minimum that is necessary to assure that the programs, 
policies, and plans are in place to guide well-planned, prosperous 
communities and productive coastal ecosystems, and to provide that key 
coastal and ocean management projects and best practices are 
implemented. The Ocean Commission also recommends that an Ocean Policy 
Trust Fund be established beginning at $500 million annually and 
increasing to $1 billion annually in the third year for more 
comprehensive implementation of state, territorial, and tribal ocean 
and coastal responsibilities.
    The funding recommendations in S. 360 substantially track the 
recommendations of the U.S. Commission on Ocean Policy. The increases 
provided--if actually funded--will provide for distribution of grants 
to all states on an equitable basis thereby relieving the artificial 
constraints of the ``cap'' on program administrative and enhancement 
grants under sections 306 and 309. Clarification of authorities under 
306A will encourage the use of more funding for restoration and 
waterfront revitalization projects. The new funding provided for 
Coastal Community grants will provide much needed support for projects 
and activities ``on-the-ground'' in coastal communities, including 
funding for improved management of nonpoint pollution.
    As recommended in my written testimony, we suggest that the final 
version of S. 360 be amended to increase funding authorized for grants 
to the National Estuarine Research Reserve System to $22 million in the 
first year increasing thereafter to provide necessary support for 
system-wide monitoring, coastal training, and other program 
initiatives. Finally, we recommend that funding be provided under 
section 308 of the Act for regional pilot projects and under section 
310 to support regional resource assessment and information programs. 
It is our understanding that authorization for coastal land 
conservation will be provided separately under a proposed Coastal and 
Estuarine Land Protection Act.
OCS Regulatory Process
    Question 2. Are coastal states finding problems with any lack of 
predictability and clarity in Outer Continental Shelf (OCS) energy 
development? If so, what may be some reasonable ways to enhance this 
regulatory clarity from the perspective of coastal states?
    Answer. The current CZMA consistency process provides an excellent 
framework for coordinating offshore Federal activities and permitted 
activities to assure that they are consistent with applicable state 
policies. Coordination between and under the CZMA and the Outer 
Continental Shelf Lands Act has worked well for many years. Several 
states, including Louisiana and Alaska, have also entered into MOUs 
with the Minerals Management Service to further clarify and coordinate 
project review. It is my understanding that these have worked well and 
should be encouraged in other states and with other agencies as needed.
    Amendments to the CZMA consistency regulations, which would further 
clarify coordination and provide predictability, have inexplicably been 
held up in internal OMB review for several years. Many of the problems 
that do arise result from the lack of familiarity of the Federal 
agencies and permit applicants with the applicable state requirements 
and consistency process. In addition, the Federal agencies and 
applicants often fail to consult with the states and to incorporate 
these policies early enough into the Federal planning process. There 
seems to be a misperception in some Federal agencies that the CZMA 
requirements are extraneous, additional state requirements when, in 
fact, they are part of a Federally approved CZM program and should be 
included as an integral part of any Federal proposal. Because all 
applicable, enforceable policies must be identified in a state's 
Federally approved CZMA plan, it is not clear what the real concern is 
with ``clarity and predictability.'' (In some cases, those objecting 
may simply disagree with the outcome.) NOAA provides periodic 
consistency training workshops for other Federal agencies and 
interested parties. Support for these educational and agency training 
efforts should be increased.
    Concerns about the lack of predictability have been raised 
primarily with regard to the CZMA consistency appeal time frames. These 
are beyond control of the states and are managed by the Secretary of 
Commerce. The vast majority of consistency decisions and the appeal are 
processed without any significant concerns. The proposed consistency 
regulations provide a more certain deadline for development of the 
appeals record and decision by the Secretary. This timeline is designed 
to assure the availability of full record on appeal for the Secretary 
and to avoid project delay.
    Unlike offshore oil and gas development for which there is a 
comprehensive management regime under the OCSLA, there is considerable 
uncertainty regarding proposal for offshore siting renewable energy 
facilities such as wind farms, as well as citing of LNG facilities. 
Currently, there is no Federal-state coordinated management framework 
to review these and other emerging offshore energy related activities. 
Many states are concerned that the current permit-by-permit, project-
by-project approach to these proposals under section 10 of the Rivers 
and Harbors Act and/or the Natural Gas Act do not adequately protect 
state interests and prerogatives, fail to adequately consider regional 
ecosystem needs or comprehensive consideration of alternatives, and 
fail to include adequate environmental safeguards. The states would 
like to work with the Federal agencies and Congress to develop a 
comprehensive management regime for these and other energy related 
activities that address these state concerns, set out a more 
predictable process and that do not preempt current state authority.
OCS Resource Development
    Question 3. Ms. Cooksey, how do coastal states view the challenges 
inherent in developing offshore energy? What can we do to better 
address the concerns of coastal states?
    Answer. I think it is fair to say that states, like the Nation at 
large, are not of one mind regarding the challenges of developing 
offshore energy. Those challenges are complex and include numerous 
policy, technical, legal, economic, cultural, and social questions 
which can vary state to state. While Louisiana and Texas have long 
supported offshore energy development, New Jersey, Maine, and Florida 
do not have the same approach. All those states agree, however, on the 
importance of state review. There are significant national interests 
relating to offshore energy production as well as to its transportation 
and distribution which have disproportionate impact on coastal states. 
There are also substantial national and state interests and benefits 
generated by managing productive fisheries, assuring conservation of 
critical marine resources and supporting travel and tourism and 
economic development that depends on healthy marine ecosystems that may 
or may not be compatible with offshore energy development.
    As I noted in the answer to the previous question, there is 
agreement among coastal states that they have significant sovereign and 
economic interests in the development of offshore energy both within 
and potentially affecting state waters, and on the Outer Continental 
Shelf off their shorelines. These principles are well established in 
the CZMA, OCSLA, and Deepwater Port Act, and should form the baseline 
for the Federal Government in working with the states to address the 
current challenges of offshore energy development. In addressing the 
challenges of offshore energy development, states share the view that 
there is a need to protect state interests and prerogatives, provide 
for comprehensive consideration of alternatives, and consideration of 
environmental safeguards including a management regime. For many years 
and through several Administrations and Congresses there has been 
agreement that areas such as those in the Gulf of Mexico would be 
available for offshore energy development, while other areas would be 
set aside for moratoria. While not everyone may agree with this 
framework, it does currently reflect the closest thing we have to a 
national consensus. As noted above, demand for renewable energy and 
other energy related purposes are giving rise to new challenges and it 
is important that Congress and the Administration work closely to 
develop a common framework for addressing these challenges.
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                              Sarah Chasis
Nonpoint Pollution Control
    Question 1. Ms. Chasis, do you have other ideas for incentive-based 
programs that would help control nonpoint source pollution?
     Answer. Yes. We support the following recommendations made by the 
U.S. Commission on Ocean Policy (USCOP) and the Pew Ocean Commission 
(POC):

  <bullet> USDA should align its conservation programs and funding with 
        other programs aimed at reducing nonpoint source pollution, 
        such as those of EPA and NOAA. (USCOP)

  <bullet> Congress should provide authority under the Clean Water Act 
        and other applicable laws for Federal agencies to establish 
        enforceable management measures for nonpoint sources of 
        pollution and impose financial disincentives related to 
        programs that result in water quality degradation if a state 
        persistently fails to make meaningful progress in meeting water 
        quality standards on its own. (USCOP)

  <bullet> Congress should link receipt of agricultural and other 
        Federal subsidies to compliance with the Clean Water Act. (POC)
Cooperation in Governance
    Question 2. Ms. Chasis, do you have other ideas for incentive-based 
programs that would help improve interstate and interjurisdictional 
coordination?
    Answer. Yes. It would be very helpful to have incentive-based 
programs that encourage regional ocean governance frameworks that 
would:

  <bullet> Undertake regional ecosystem assessments to guide management 
        decisions;

  <bullet> Identify priority problems within regions and assess the 
        capacity of existing governance mechanisms to address those 
        problems;

  <bullet> Develop a strategic plan that takes an adaptive, ecosystem-
        based management approach to solving the priority problems;

  <bullet> Identify short and long-term goals, responsibilities for 
        taking actions to achieve those goals, and the necessary 
        resources.

  <bullet> Representatives of Federal, state, and tribal governments 
        should be encouraged to participate in such regional governance 
        frameworks and to develop and implement the strategic plan 
        using existing legal authorities.

  <bullet> Federal agencies should be encouraged to identify 
        opportunities to better coordinate and integrate their existing 
        programs or activities to more efficiently and effectively 
        support implementation of such plans.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                    DR. W. Donald Hudson, Jr., Ph.D.
Nonpoint Pollution Control
    Question 1. What are the effects of inconsistent and declining 
Federal funding on Maine's coastal program? How serious of a problem is 
it?
    Answer. Maine has experienced a decline in both CZMA Section 306 
base program funds and Section 310 Coastal NonPoint Implementation 
Funds. For Section 306, a funding reduction of 60K for the fiscal year 
beginning July 1, 2005 resulted in: (a) the elimination of a contract 
position that coordinated citizen water quality monitoring programs, 
(b) cuts in education and outreach project funds, and (c) belt-
tightening with respect to ``all other'' program expenses including 
professional development and presentation of Maine's work at national 
conferences. Further cuts in Section 306 funds would necessitate cuts 
in CZM positions and/or elimination of entire program focus areas.
    With respect to Section 310 Coastal Non Point Funds, Maine's 
program for the fiscal year beginning July 1, 2005 was cut by more than 
$400,000. Our coastal nonpoint program is now a skeleton program, 
staffed by a 0.5 FTE (Full-Time Equivalent) coastal watershed planner, 
with sufficient funding for only two implementation projects, the Clean 
Marina program (a) partnership with the Maine Marine Trades 
Association) and the Nonpoint Education for Municipal Officials 
Program. These cuts resulted in: (a) elimination of our local coastal 
nonpoint pollution grants and (b) reducing, by 2.2 FTE (at the Maine 
DEP), municipal technical assistance efforts for stormwater management.
    Our budget situation is dire. With Maine's state budget crisis, it 
is not likely that coastal nonpoint pollution programs will receive 
additional state funding in the near term. Additional cuts in Federal 
funding for coastal nonpoint will all but eliminate our considerably 
decreased efforts. Nonpoint source pollution was cited by both the Pew 
Commission and the U.S. Ocean Commission as a pervasive source of the 
majority of pollutants to our coastal zone. Consistent, long-term 
funding for coastal nonpoint is necessary to: (a) form and build 
capacity with watershed groups; (b) monitor and survey to find sources 
of pollution; (c) fix pollution sources; (d) prevent additional NPS by 
working with towns on land use planning, regulation, enforcement and 
stormwater management; and (e) educating the public about NPS reduction 
efforts that they can employ on private lands.

    Question 2. My bill, S. 360, would authorize additional funding for 
nonpoint pollution control programs--would this alleviate the financial 
problems facing Maine?
    Answer. Yes, provided that additional funds for nonpoint were not a 
``zero sum game'' that reduced funding for other CZM programs.

    Question 3. What else can we do to support state nonpoint pollution 
control efforts?
    Answer. Additional suggested strategies are as follows:

  <bullet> Remove the Penalty Provision in the current Section 6217 
        Program. Removing the penalty provision levels the playing 
        field and permits those States and Territories with unapproved 
        programs to begin implementing their management strategies 
        addressing coastal nonpoint source pollution.

  <bullet> Add more specific language into S. 360 that recognizes the 
        importance of dealing with water quality, specifically nonpoint 
        source pollution as it relates to land use changes and their 
        impacts, with greater emphasis on the impacts of uncontrolled 
        growth.

  <bullet> Consider implementation contained in the U.S. Commission on 
        Ocean Policy Report specifically:

        -- Recommendation 14-7. The U.S. Department of Agriculture 
        (USDA) should align its conservation programs and funding with 
        other programs aimed at reducing nonpoint source pollution, 
        such as those of the U.S. Environmental Protection Agency and 
        the National Oceanic and Atmospheric Administration.

        -- Recommendation 14-8. The National Ocean Council (NOC), 
        working with states, should establish reduction of nonpoint 
        source pollution in coastal watersheds as a national goal, with 
        a particular focus on impaired watersheds. The NOC should then 
        set specific, measurable objectives to meet human health- and 
        ecosystem-based water quality standards. The NOC should ensure 
        that all Federal nonpoint source pollution programs are 
        coordinated to attain those objectives.

        -- Recommendation 14-9. The National Ocean Council should 
        strengthen efforts to address nonpoint source pollution by 
        evaluating the nonpoint source pollution control programs 
        established under Section 6217 of the Coastal Zone Act 
        Reauthorization Amendments and under Section 319 of the Clean 
        Water Act and making recommendations to Congress for 
        improvements to these programs, including their possible 
        consolidation.

  <bullet> Consider implementing the recommendations in the Pew Ocean 
        Commission's Report on Sprawl and Coastal Pollution regarding 
        the management of growth as it relates to water quality 
        specifically:

        -- Acknowledge the role that Federal infrastructure and 
        Federally funded infrastructure (roads, sewers, housing, 
        government offices) has on local and regional growth patterns. 
        Require that Federal efforts minimize land conversion and 
        provide alternatives to automobile travel.

        -- The Transportation Equity Act for the 21st Century (TEA-21) 
        could shift more funding from highway construction to land-use 
        planning that promotes better travel patterns.

        -- Incorporate a regional watershed approach into the Total 
        Maximum Daily Load (TMDL) process to minimize the impacts from 
        new development.

        -- Coordinate wastewater treatment facility funding with 
        regional watershed planning efforts.

        -- In National Environmental Policy Act (NEPA) permitting, an 
        alternatives analysis is required to determine development 
        scenarios that minimize the amount and nature of impacts on 
        natural resources. The NEPA alternatives analysis provision 
        should be rewritten to explicitly require that alternative 
        land-use scenarios be analyzed when evaluating damage to 
        aquatic and terrestrial ecosystems.
Coastal Community Grants Program
    Question 4. Could you please tell me what an enhanced Section 309 
Community Grant Program would allow Maine to do to plan for a vibrant 
future for our coastal communities?
    Answer. Maine provides only about 2 percent of its CZM resources to 
communities in the form of local grants. This funding scenario has 
existed for more than 10 years, due to competing demands for program 
priorities, reduced state budgets and capped Federal funding. The CZMA 
was established as a Federal-state-local partnership and an enhanced 
Section 309 grant program would allow Maine to renew its commitment to 
coastal towns. Coastal municipal officials and residents are currently 
overwhelmed at the quantity and timing of new development in their 
towns and the resultant impacts on traditional uses and culture. Most 
of the coastal towns in York County have building caps in place, 
housing prices are at an all time high, coastal access is insufficient 
and coastal habitats are being compromised. Local officials and 
citizens need to see local results to feel that the CZM program is 
relevant to them and that it warrants their support. With a bit of 
assistance, however, coastal towns like Brunswick, Maine become 
national leaders (recognized by NOAA) for their exemplary efforts at 
coastal watershed protection.
    Specific areas of demonstrated need at the community level in Maine 
are waterfront revitalization and development of working waterfront 
strategies, watershed and coastal pollution plans, harbor management 
plans, regional open space and habitat protection plans, drinking water 
supply planning, and hazard mitigation planning.

    Question 5. Would the Coastal Community Grants language in my bill 
allow these community plans and goals to be achieved?
    Answer. The language in S. 360 is excellent as drafted. One concern 
however, is whether a new Coastal Community Grant program in Section 
309 would require coastal community grant-funded projects to result in 
``program changes'', e.g., changes to the states' approved coastal 
management programs. Currently, Section 309 funds are required to be 
focused on those projects that result in actual changes to coastal core 
laws and other formal aspects of approved coastal management programs. 
In Maine, we previously offered CZM grants to coastal municipalities to 
fund the development of comprehensive plans and land use ordinances, 
but learned that this was an ineligible activity unless Maine revised 
its entire approved program structure to incorporate local plans into 
our approved state plan. This might have caused an additional layer of 
Federal review of local plans and was not considered desirable for 
Maine.
    Another question would be whether another type of Section 309 
assessment would be required to qualify for community grant funds. 
Currently, Section 309 funds are available to states that periodically 
complete a ``309 assessment and strategy'' and receive NOAA approval of 
same. The benefit of having a Coastal Community Grants program would be 
to be responsive to pressing local and regional needs. It might not 
always be possible to pre-identify those needs in an upfront strategy. 
Since 309 assessment and strategies are required to be prepared every 
five years, it would be difficult to anticipate community needs in the 
out years. Therefore, flexibility should be a key ingredient as the 
guidance is developed for a new Section 309A program.
Cooperation in Governance
    Question 6. What do you see as the role of the CZMA in fostering or 
contributing to regional governance of an area such as the Gulf of 
Maine?
    Answer. The CZMA and supporting state statutes in the NOAA approved 
Coastal Programs provide the statutory basis for regional governance. 
In the late 1980's, when the Gulf of Maine Program was conceived, the 
CZMA had Section 310 that provided funding to the states on a 
competitive basis for regional initiatives. NOAA provided $30,000 in 
seed funds to start-up the Gulf of Maine Program. The absence of 
``regional initiative'' funding has impeded other regions from 
advancing a regional agenda. It is timely and important for Congress to 
reinstate a specific regional initiatives section in the CZMA (with a 
specific appropriation) that both incubates regional efforts consistent 
with the goals espoused by the U.S. Commission on Ocean Policy and 
supports national interests in ongoing interstate and international 
waterbodies. Within this section there should be a requirement of NOAA 
to foster interaction (e.g., a learning network as suggested in the 
recent Heinz Center ``Innovations by Design'') among regional efforts 
to accelerate the attainment of the results we seek. NOAA, as the 
Nation's lead coastal and ocean agency, needs the capacity to assist 
and enable regional efforts. Most important would be staff skilled and 
familiar with regional efforts.

    Question 7. What other incentives could we consider to help sustain 
coastal state participation in this voluntary program?
    Answer. It is essential for Congress to create the flexibility with 
existing key Federal statutes that accommodates regional needs within a 
Federal framework. The present approach of national standards that 
apply equally everywhere is administratively simple but fails to 
appreciate the distinct regional differences. An approach that focuses 
on outcomes and allows the methods used to accomplish the outcomes to 
vary will enable this important shift. Federal agencies need to 
integrate their overlapping and conflicting coastal and ocean mandates 
within a specific ecosystem context.

    Question 8. How else can we encourage coastal states to work with 
their neighboring states in planning for coastal management?
    Answer. Key aspects of this approach include:

  <bullet> Overcoming historic differences that keep states from 
        working with each other.

  <bullet> A clear (unvarnished) articulation of the issues that 
        benefit from a regional (interstate) approach AND the costs of 
        pursuing a fragmented/dysfunctional state-by-state approach.

  <bullet> Technical assistance and training for state coastal managers 
        on regional approaches.

  <bullet> Seed-funds for projects that address national interests in a 
        regional context.

  <bullet> Working models of ecosystem-based management that can be 
        adapted to specific areas.

Preserving Working Waterfronts
    Question 9. What is the State of Maine doing under the CZMA program 
to counteract the disappearance of the working waterfront?
    Answer. Protecting working access to the coast and enhancing 
Maine's ports and harbors is a key objective of the Maine Coastal 
Program. The State Planning Office has joined with others to form the 
Working Waterfront Coalition (WWC), a coalition of more than 90 
organizations, agencies, and individuals dedicated to preserving the 
working waterfront. The Maine Coastal Program has been heavily involved 
in supporting the work of the coalition, providing funds for surveys 
and research on the status and trends in working access, supporting 
waterfront and harbor planning efforts of coastal towns, and 
participating in the development of new tax policy and public 
investment programs.
    Through the efforts of the WWC, tremendous strides have been made 
in raising public awareness of the issue of loss of access and in 
developing political support for new policy measures. With support from 
the Governor's Office, the Maine Legislature is considering the 
creation of a fishing access program supported by public bonding funds 
to purchase ownership rights or easements on lands and facilities 
crucial to assuring working access to the sea.

    Question 10. What possible amendments to the CZMA would help the 
State combat this problem?
    Answer. Recently the question of a potential Federal role in 
protecting working waterfronts has been raised and discussed by the 
Working Waterfront Coalition. The WWC has already met with Senator 
Collin's staff and received an inquiry from Representative Michaud's 
office on this topic. From these discussions a number of opportunities 
have been identified:

  <bullet> Federal funding would be very helpful to combine with state 
        funds for investments in securing fishing access rights and 
        facilities;

  <bullet> opportunities exist to incorporate new or amended program 
        elements into the re-authorization of the CZMA or the Magnuson-
        Stevens Act; and

  <bullet> a Fishing Legacy Program, modeled on the Forest Legacy 
        Program, would be an appropriate vehicle to link state level 
        efforts with Federal level support. Additional program or 
        agency support is needed to carry out a state legacy program.

                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                          Thomas Kitsos, Ph.D.
Ocean Observations
    Question 1. I am pleased to have been a cosponsor of the Ocean and 
Coastal Observation System Act, recently reported by this Committee. 
New Jersey hosts several key research facilities that will become part 
of the backbone of this ocean observing system, such as LEO-15, an 
underwater research lab. How will NOAA ensure that these pre-existing 
facilities remain operational, as they are now funded by individual 
grants to researchers?
    Answer. NOAA envisions working through an approved IOOS Regional 
Association certification process for including sub-regional observing 
networks and their capabilities into an integrated system. Pre-existing 
facilities such as LEO-15 and the underwater research lab would be 
important components of a certified Regional Association. In addition, 
the Jacques Cousteau Reserve in New Jersey participates in the System-
Wide Monitoring Program (SWMP) of the National Estuarine Research 
Reserve System, which is also a national backbone component of IOOS. 
Annual funding through the reserve system sustains this monitoring 
program. Provided annual appropriations for the reserve system continue 
at the level of the President's Request, the operational infrastructure 
of SWMP will be maintained at the Jacques Cousteau Reserve.
Funding Equity
    Question 2. New Jersey has been receiving $2 million in Section 306 
grants, which is the cap, for many years. As most states are also at 
the cap, the ultimate effect is that population and coastline is 
essentially no longer taken into consideration. However, coastal 
populations are growing faster than inland populations. How do you 
propose that states take into account increasing coastal populations, 
increased coastal development, and increased use of coastal resources 
without adjusting the funding allocations or providing more funds?
    Answer. We agree the cap on Section 306 funding is an issue. We are 
also committed to the equitable distribution of funds. The underlying 
allocation formula, as described in the CZMA and regulations, provides 
a workable system for allocating funds, and does not require revision. 
NOAA's ability to provide for the equitable distribution of funds to 
coastal states has been greatly constrained by the $2,000,000 maximum 
per state cap on appropriated Section 306 funds, which has been imposed 
through annual appropriations acts. From 1992 to 2002, the total 
appropriation for Section 306/309 grants has doubled. During the same 
time period, the cap placed on Section 306 funding in the annual 
appropriations acts remained fixed at $2,000,000. Beginning in FY 2003, 
the appropriations language was modified to allow Section 306 grants to 
exceed $2,000,000 if ``funds provided for ``Coastal Zone Management 
Grants'' exceed funds provided in the previous fiscal year. Provided 
further, that if funds provided for Coastal Zone Management Grants 
exceed funds provided in the previous fiscal year, then no State shall 
receive more than 5 percent or less than 1 percent of the additional 
funds.'' This new language has yet to be applied in practice, as 
appropriations for Coastal Zone Management Grants have not increased 
from one year to the next since FY 2003. The best way to address the 
imbalances that developed over the past decade is to eliminate the cap 
as proposed by the President's Budget in FY 2006 and prior years.
    NOAA is also committed to providing non-monetary assistance to help 
states manage the increasing pressures on their coastal areas. NOAA 
supports, and will continue to support, state management efforts 
through research on coastal issues, the provision of training and 
technical assistance, technical products, and management assistance.
National Estuarine Research Reserves
    Question 3. One of the brightest parts of the Coastal Zone 
Management Act (CZMA) is the Estuarine Research Reserves, which conduct 
education, scientific research, and policy training. My State of New 
Jersey is fortunate to have the Jacques Cousteau National Estuarine 
Research Reserve. Will NOAA create new reserves even if no additional 
funding is provided?
    Answer. NOAA will work with states to designate new reserves only 
when additional funding is provided. About 10 years ago, NOAA 
instituted a policy of not accepting nominations for new reserves until 
the budget for the reserve system was at the level needed to operate 
the program effectively. Prior to that time, NOAA designated new 
reserves despite a lack of new resources, which had the negative effect 
of reducing funding for existing reserves. In 2001, with an increase in 
funding for the reserve system, NOAA decided to accept nominations for 
new reserves, consistent with the following policy:

  <bullet> NOAA is committed to completion of a system of reserves 
        representing the diverse biogeographic and typological 
        character of the estuaries of the United States and estuarine-
        like systems of the Great Lakes, consistent with available 
        resources.

  <bullet> The first priority for use of NOAA funding is to support the 
        operation of designated reserves, system-wide projects 
        benefitting designated reserves and development of reserves in 
        states that currently have a formal commitment from NOAA to 
        proceed with the designation process.

  <bullet> Additional reserves (beyond the existing 26 designated and 
        two proposed reserves) will be considered by NOAA only when: 
        (a) sufficient funds are available to provide reserves 
        continuing operations support after designation, and (b) 
        sufficient Federal staff and resources are available to 
        adequately support new designation and operation activities.

  <bullet> Priorities for accepting new nominations are:

        -- First priority will be given to nominations that incorporate 
        both a biogeographic region or sub-region and an estuary type 
        not represented by existing or developing reserves (see NOAA 
        regulations at 15 CFR 921).

        -- Second priority will be given to nominations that 
        incorporate either a biogeographic subregion or an estuary type 
        not represented by existing or developing reserves.

    NOAA has been working with Texas on the designation of a new 
reserve. We anticipate designation of the proposed Mission Aransas 
Estuary Reserve in Texas by the end of 2005. The President's request 
for FY 2006 includes an increase of $575,000 for the new Texas Reserve 
and funding and an FTE for staff in NOAA's Estuarine Reserves Division 
to work with Texas. NOAA has received requests from the Governors of 
Wisconsin and Connecticut to begin the reserve designation process. At 
this time, funding is not currently available to consider reserve site 
selection in these states.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                       Dr. Walter D. Cruickshank
Consistency Review: Alternative Energy
    Question. During the hearing, you mentioned that the Secretary of 
Interior should be given additional authority in Federal consistency 
appeals at least in part because the Nation lacks an overarching 
governance structure for outer continental shelf energy projects. You 
indicated that the suite of energy projects includes renewable energy 
projects in addition to oil and gas energy projects. In your opinion, 
if the Secretary of Interior did receive this new authority, would 
renewable energy appeals be a significant proportion of the total 
energy appeals the Department of Interior would review?
    Answer. The Department of the Interior and the Department of 
Commerce have worked diligently on communicating and comprehending each 
other's concerns over Federal consistency and how the existing Federal 
regulatory regime manages offshore and coastal activities. Dr. 
Cruickshank did not comment on the issue of increased authority for the 
Secretary of the Interior and the Department of the Interior is not 
seeking additional authority in Federal consistency appeals.
    The Administration is seeking authority for the Secretary of the 
Interior to permit alternative energy and energy-related activities on 
the Outer Continental Shelf (OCS). With this new authority, all OCS 
alternative energy projects would be subject to Coastal Zone Management 
Act (CZMA) review, as are all oil and gas activities presently. 
Affected States would review these projects for consistency with State 
CZM plans and any appeal of a State consistency decision would still go 
to the Secretary of Commerce.
    We believe it is speculative as to what percentage of future 
energy-related appeals will be for renewable energy projects. Given the 
small percentage overall of energy projects that are objected to by the 
States and reviewed by the Secretary of Commerce, the Department of the 
Interior would expect the percentage of appeals for renewable energy 
projects to also be low. The States presently review many types of 
energy projects under the CZMA such as OCS oil and gas projects, gas 
pipelines, onshore and offshore liquefied natural gas terminals, 
nuclear power plants and hydroelectric plants. The NOAA records 
indicate that of the thousands of energy projects reviewed by States 
under the CZMA since 1978, there have been only 20 appeals to the 
Secretary of Commerce. The Department of the Interior will of course be 
available to provide Commerce with any assistance required to develop 
the Commerce Secretary's decision record for CZMA appeals relating to 
energy and energy related activities on the Outer Continental Shelf.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                            Sarah W. Cooksey
Streamlining Appeals
    Question 1. The potential for combining Departmental review of 
appeals, rather than each permitting process occurring separately, was 
discussed at the hearing. In your opinion, are there potential 
drawbacks to this proposal for the States?
    Answer. Fundamentally states want to assure that the appeals 
process is fair to both sides, consistent with the principles of the 
Administrative Procedures Act, and preserves the discretion of the 
Secretary of Commerce include such information for the record on appeal 
as needed to address the national interest standard set out in the 
CZMA. Combining review of appeals and relying on the record developed 
by another agency such as FERC or MMS for their review purposes under 
other statutes could result in unnecessarily limiting the authority of 
the Secretary. The ultimate result could be more costly and time 
consuming litigation over the Secretary's decisions rather than 
expediting final resolution of disputes.
Integrating Coastal and Watershed Management
    Question 2. What tools will states use to work towards integrating 
coastal and watershed management for a more regional approach to 
coastal problems? Are there any additional tools that states need for 
this effort?
    Answer. Under S. 360, states would have clearer authority and 
additional resources to address watershed issues affecting the coastal 
zone. States would have the flexibility and increased resources needed 
to make use of current tools under the CZMA such as special area 
management plans to integrate watershed, develop plans to protect 
critical coastal resources and areas of particular concern. The new 
coastal communities grants (309A) also provide much needed assistance 
for states that will be targeted to work at the community level to 
integrate watershed, coastal, and growth management planning to more 
effectively address land use and nonpoint pollution among other issues. 
The majority of states also have approved or conditionally approved 
coastal nonpoint pollution programs, many of which extend up the 
watershed. The funding that is available to the states under S. 360 
will be available to states to reduce the cumulative and secondary 
effects of polluted runoff on the coastal zone.
    The U.S. Ocean Action Plan proposes that there be an interagency 
effort led by EPA and NOAA to support community-based workshops that 
improve integration of coastal and watershed management efforts. In 
additional to these targeted workshops, Congress should consider 
providing funding through CZMA section 308 to provide for regional 
pilot projects and ongoing support for innovate state-based efforts 
that integrate coastal and watershed management. As noted above the 
U.S. Commission on Ocean Policy specifically supported a minimum of $20 
million to support improved coastal watershed management. A more 
comprehensive look should be taken on how to use Department of 
Agriculture conservation funding and Department of Transportation 
Highway mitigation funds as an effective incentive for coastal 
watershed management initiatives.
Education and the Estuarine Research Reserve System
    Question 3. I am very interested in improving ocean and coastal 
literacy in our country, and think the National Estuarine Research 
Reserve system can make a great contribution. Does the Reserve System 
plan to focus on bringing underrepresented groups into marine science 
or policy?
    Answer. NOAA's National Estuarine Research Reserve System (NERRS) 
is committed to bringing underrepresented groups into ocean and coastal 
science and policy. The NERRS has played a role in engaging 
underrepresented groups through the Environmental Cooperative Science 
Center, the NERRS Graduate Research Fellowship program, and K-12 and 
community education programs.
    The Environmental Cooperative Science Center (ECSC) was established 
in 2000 through a cooperative agreement between NOAA and Florida A&M 
University, in collaboration with Delaware State University, Jackson 
State University, Morgan State University, South Carolina State 
University, and the University of Miami Rosenstiel School. The ECSC 
member institutions are all Minority Serving Institutions. The ECSC 
addresses ecological and management issues at five National Estuarine 
Research Reserves and the Florida Keys National Marine Sanctuary. 
Partner National Estuarine Research Reserves include Grand Bay Reserve 
(Mississippi), Apalachicola Reserve (Florida), ACE Basin Reserve (South 
Carolina), Delaware Reserve, and the Chesapeake Bay Reserve (Maryland). 
The participating reserves are actively engaged with supporting 
undergraduate and graduate students from these Minority Serving 
Institutions in their field and laboratory research and often serve as 
research mentors for student research program development. On average, 
each reserve hosts between 15-20 research students annually, either 
through research projects associated with academic coursework or on an 
individual researcher basis through graduate programs.
    The NERRS Graduate Research Fellowship program provides master's 
degree students and Ph.D. candidates with an opportunity to conduct 
research of local and national significance, within a National 
Estuarine Research Reserve, that focuses on enhancing coastal zone 
management. Students from Minority Serving Institutions have been 
encouraged to apply to this program. The NERRS are committed to 
promoting diversity within the Graduate Research Fellowship program and 
are sending information about the program to professors and directors 
of marine programs at Minority Serving Institutions.
    Some of the National Estuarine Research Reserves have played a 
particularly strong role in helping to bring underrepresented groups 
into ocean and coastal science and policy through their K-12 and 
community education programs. The Jacques Cousteau Reserve, in New 
Jersey, has partnered with the Mid-Atlantic Center for Ocean Sciences 
Education Excellence to develop science education programs that promote 
participation from underrepresented groups. These programs employ 
criteria to recruit minority educators into science enrichment 
programs, and capitalize on minority scientists as mentors and role 
models for our youth. Minority mentors have been particularly effective 
in advancing ocean and coastal literacy through classroom-based 
applications and activities.
    The Tijuana Reserve in California has developed partnerships, 
programs, and materials specifically targeting underrepresented groups. 
Through a partnership with San Diego State University and a local 
elementary school, the Tijuana Reserve has provided opportunities for 
Hispanic students to visit the Tijuana Estuary. In addition, the 
reserve launched a high school summer internship that targets Hispanic 
students.
    The Elkhorn Slough Reserve has provided outreach into the Hispanic 
communities along the central California coast through the 
Multicultural Education on Resource Issues Threatening Oceans program 
(MERITO), a collaborative effort with State Parks and the Monterey Bay 
National Marine Sanctuary. As part of this program, students learn 
about research and monitoring projects at the reserve. They also visit 
other wetland systems, local beach and dune restoration sites, 
municipal wastewater treatment plants, local water supply facilities, 
and a municipal recycling center. Through MERITO, the Elkhorn Slough 
Reserve developed a bilingual watershed curriculum that is being used 
in after-school programs. The reserve has also developed a number of 
partnerships to encourage underrepresented groups, as well as inner 
city youth, to seek ocean- and coastal-related careers.
    The NERRS hopes to play a stronger role in the future in fully 
engaging underrepresented groups, particularly if funding levels for 
NERRS education activities increased. With additional funding, the 
NERRS could increase Graduate Research Fellowship opportunities and 
provide additional programs and products aimed at bringing 
underrepresented groups into ocean and coastal science and policy.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                              Sarah Chasis
Streamlining the Consistency Appeals Process
    Question. The potential for combining Departmental review of 
appeals, rather than each permitting process occurring separately, was 
discussed at the hearing. In your opinion, are there potential 
drawbacks to this proposal for the States?
    Answer. Yes. If the appeals process is streamlined as the industry 
has requested, there is a danger that the states and the Secretary will 
be missing key information with which to evaluate (in the case of a 
state) or decide (in the case of the Secretary) the extent of 
environmental harm caused by a proposed project and, therefore, whether 
it is consistent with the CZMA. This is because the ``streamlining'' 
provision advocated by the oil and gas industry (and included in the 
Senate Energy bill) would not allow the timeline for Secretarial 
appeals to be extended, where necessary, to include the final 
Environmental Impact Statement or final Biological Opinion under the 
Endangered Species Act on the project. Since a project may not proceed 
without these final documents, there is no reason not to extend the 
appeal timeline to allow consideration of these important and highly 
relevant documents. Having the Final EIS and Biological Opinion is 
crucial to the Secretary's evaluation of an appeal from a state's 
objection to a project since the Secretary is supposed to be weighing 
the environmental impacts of the project against the national interests 
served by the project. Clearly these environmental documents are 
crucial to that decision. The streamlining process could thus work to 
the disadvantage of the states, the Secretary and the coastal 
environment.
                                 ______
                                 
                                     The Nature Conservancy
                                       Arlington, VA, June 10, 2005
Hon. Ted Stevens,
Chairman,

Hon. Daniel K. Inouye,
Ranking Member,

Hon. Olympia J. Snowe,

Hon. Maria Cantwell,

Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Senators,

    On behalf of The Nature Conservancy, I am writing to urge the 
Committee to report legislation to reauthorize the Coastal Zone 
Management Act (CZMA). Both the President's U.S. Ocean Action Plan and 
the final report of the U.S. Commission on Ocean Policy recommended the 
reauthorization of the CZMA and highlight its importance in ensuring 
economically vibrant and ecologically sustainable coastal and ocean 
resources.
    The final report of the Ocean Commission recommended that CZMA 
reauthorization strengthen the planning and coordination capabilities 
of coastal states to address watershed and ocean planning; increase 
Federal financial, technical and institutional support for conservation 
and restoration of coastal habitats; and support regional and state 
research and information programs that support coastal resource 
assessments. This is a good start.
    The Conservancy supports movement toward an ecosystem approach to 
management of coastal and marine resources as the best way to conserve 
biological diversity. We see the partnership established between the 
states and the Federal Government under the Coastal Zone Management Act 
as important to implementing this approach to management, but stronger 
measures are needed:

  <bullet> Resources available to states under the CZMA are limited, 
        particularly for many activities related to on-the-ground 
        conservation. Authorization for the Coastal and Estuarine Land 
        Conservation Program and increased resources to support the 
        stewardship portion of the NERRS program should be included.

  <bullet> Improved coordination across jurisdictions is essential to 
        manage on an ecosystem basis. The Act should foster 
        partnerships among states and within states that address 
        upstream issues impacting coastal and nearshore resources.

  <bullet> Most CZM programs lack policies and strategies for proactive 
        management for the full extent of state waters. Guidelines 
        should encourage states to engage in comprehensive planning for 
        all state waters in coordination with adjacent states and 
        relevant Federal agencies.

  <bullet> Guidelines governing state improvement grants are 
        restrictive and may unfortunately tend to limit states' ability 
        to do the work necessary to move toward ecosystem-based 
        management. Provisions of the CZMA governing grants to states 
        should be modified to make it a more flexible, useful tool to 
        stimulate innovative approaches to adaptive, ecosystem-based 
        management as called for by the Commission and the U.S. Ocean 
        Action Plan.

  <bullet> The paucity of data to inform management is a perpetual 
        challenge for coastal and marine resource managers. NOAH should 
        seek to stimulate increased management-oriented research to 
        support states as they move towards ecosystem-based management.

    The Conservancy would like to work with you in the coming months on 
any necessary changes to S. 360 and to ensure its passage during the 
109th Congress. Thank you for your efforts to enact this important 
legislation.
        Sincerely,
                                        Lynne Zeitlin Hale,
                                 Director, Global Marine Initiative
                                 ______
                                 
                                   School of Marine Affairs
                                          Seattle, WA, May 23, 2005
Hon. Ted Stevens,
Chairman,

Hon. Daniel K. Inouye,
Ranking Member,

Senate Committee on Commerce, Science, and Transportation,
Washington, DC.
                  Re: S. 360 Reauthorization of the CZM Act

    Dear Senators Stevens and Inouye:

    I am writing to urge that you favorably consider S. 360, 
Reauthorization of the Coastal Zone Management Act. As you know, this 
law was first adopted by Congress in 1972, has been reauthorized and 
amended at least six times since then, and has become an important part 
of the fabric of our environmental and resource management laws of the 
country. It is time to reauthorize the CZMA again in light of the 
findings and new directions provided by the U.S. Commission on Ocean 
Policy (USCOP).
    I have actively studied the development and implementation of the 
CZMA since 1970. Between 1970 and 1975 I represented Louisiana on the 
Coastal States Organization when the law was first being debated in the 
Congress and in the early stages of implementation. I founded the 
Coastal Management journal in 1972 and published papers on all aspects 
of the implementation of the law through its many phases. In 1997 I led 
a group of six researchers investigating the effectiveness of the CZMA 
in meeting the goals set for it--and found that the CZM programs were 
effectively implementing the Act's objectives.
    Most recently I served as one of the 16 Commissioners on the U.S. 
Commission on Ocean Policy. As you are aware the Commission studied all 
aspects of the Nation's ocean and coastal policies. The coastal zone 
received a great deal of our attention--in fact, Part IV, consisting of 
chapters 9--13, deal with issues specific to the coastal zone--
population growth, hazards, habitat, sediment and transportation. 
However, throughout the report the role of the states is recognized as 
crucial to the implementation of a great many of our recommendations.
    The CZM programs are the most effective governmental tool available 
within the states for helping to achieve many of the recommendations of 
the USCOP. For this reason it is important that the law be reauthorized 
and appropriately amended to allow an effective state role in national 
ocean policy. Here are some examples taken from the USCOP report of how 
the states can assist meeting our national ocean policy and management 
needs:

        State-level socio-economic characteristics must be produced and 
        kept up-to-date to determine the value of coastal regions 
        (USCOP Ch. 1 and 25).

        States must take the lead in considering voluntary, regional 
        processes for ocean issues, and in developing regional ocean 
        information programs (USCOP Ch. 5).

        States must interact closely with Federal agencies in 
        formulating a coordinated offshore management regime (USCOP Ch. 
        6 and 9) that includes consideration of new uses such as marine 
        aquaculture (USCOP Ch. 22) and wind energy (USCOP Ch. 24).

        State coastal programs must consider accelerating pressures due 
        to population growth, and incorporate watershed management into 
        program activities (USCOP Ch. 9).

        States must collect better data on hazard risks and losses, and 
        upgrade mitigation planning (USCOP Ch. 10).

        State coastal programs must set goals for habitat restoration 
        and undertake coastal and estuarine land conservation with 
        Federal funding assistance (USCOP Ch. 11).

        States must be active in the shift toward comprehensive, 
        watershed and ecosystem-based sediment management regimes 
        (USCOP Ch. 12).

        State coastal programs are central in the efforts to improve 
        response to non-point sources of pollution (USCOP Ch. 14).

        States are key players in the effort to reduce introduction of 
        aquatic invasive species (USCOP Ch. 17).

        States should receive support for state-level coral reef 
        management (USCOP Ch. 21).

        States are critical partners in emerging integrated ocean 
        observing systems and can help insure useful information 
        products (USCOP Ch. 26).

    To achieve these goals the state coastal management programs need 
to be maintained and their level of funding increased. These programs 
have proven to be flexible and adaptive over the years, capable of 
responding to new issues that arise. In the 1970s the coastal programs 
were used to experiment with coastal energy impact assistance. In the 
1980s they were used to establish waterfront restoration programs. In 
the 1980s and 1990s they have been effective in protecting natural 
resources such as wetlands and beaches. In the 1990s they were used to 
improve management of coastal non-point pollution sources. I believe 
they can be extremely helpful in our current efforts to focus on 
coastal watersheds and offshore zones--the new areas of interest and 
attention.
    Thank you very much for your consideration.
        Sincerely,
                                          Marc J. Hershman,
 Professor of Marine Affairs, Adjunct Professor of Law, University 
of Washington; Commissioner, U.S. Commission on Ocean Policy (2001-
                                                             2004).
    cc: Senators Olympia J. Snowe and Maria Cantwell, Tony McDonald, 
Coastal States Organization, and Admiral James Watkins, Chairman, U.S. 
Commission on Ocean Policy (2001-2004).
                                 ______
                                 
                              American Planning Association
                                        Washington DC, May 24, 2005
Hon. Ted Stevens,
Chairman,

Hon. Daniel K. Inouye,
Ranking Member,

Hon. Olympia J. Snowe,

Hon. Maria Cantwell,

Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Senators,

    On behalf of the American Planning Association (APA), I am writing 
to urge the Committee to support reauthorization of the Coastal Zone 
Management Act (CZMA), S. 360. APA applauds your leadership in bringing 
this important issue before the Senate Commerce Committee for a 
hearing. Both the President's U.S. Ocean Action Plan and the U.S. 
Commission on Ocean Policy's Final Report recommended the 
reauthorization of CZMA and highlighted its importance in ensuring 
economically vibrant and ecologically sustainable coastal and ocean 
resources.
    CZMA reauthorization would strengthen the planning and coordination 
capabilities of coastal states to address watershed and ocean planning. 
The legislation would increase the ability of state and local officials 
to improve ocean resources and ecosystems by providing technical, 
institutional and financial support for better planning and management 
of coastal development and land use. APA strongly supports provisions 
in S. 360 to create a Coastal Community Program. These grants would 
help implement locally-devised strategies for improving coastal 
communities, benefiting local economies and the environment.
    APA represents more than 37,000 professional planners, local 
officials, and engaged citizens committed to good planning as a tool 
for creating communities of last value. Coastal planning and water 
policy issues are among APA's top legislative priorities for the 109th 
Congress. As such, we strongly endorse S. 360 and pledge to work with 
you in advancing this important legislation and other key elements of 
ocean policy reform.
    Thank you for your leadership on behalf of coastal communities and 
providing a forum for discussion of CZMA reauthorization.
        Sincerely,
                                            W. Paul Farmer,
                                         Executive Director and CEO

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
